<html>
<title> - ENHANCING THE PEACE CORPS EXPERIENCE: S. 732, THE PEACE CORPS VOLUNTEER EMPOWERMENT ACT</title>
<body><pre>[Senate Hearing 110-551]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-551
 
ENHANCING THE PEACE CORPS EXPERIENCE: S. 732, THE PEACE CORPS VOLUNTEER 
                            EMPOWERMENT ACT

=======================================================================

                                HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON WESTERN HEMISPHERE,
                   PEACE CORPS AND NARCOTICS AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 25, 2007

                               __________

       Printed for the use of the Committee on Foreign Relations


                   Available via the World Wide Web: 
              http://www.gpoaccess.gov/congress/index.html


                     U.S. GOVERNMENT PRINTING OFFICE
45-008 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


                     COMMITTEE ON FOREIGN RELATIONS

                JOSEPH R. BIDEN, Jr., Delaware, Chairman
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin       NORM COLEMAN, Minnesota
BARBARA BOXER, California            BOB CORKER, Tennessee
BILL NELSON, Florida                 JOHN E. SUNUNU, New Hampshire
BARACK OBAMA, Illinois               GEORGE V. VOINOVICH, Ohio
ROBERT MENENDEZ, New Jersey          LISA MURKOWSKI, Alaska
BENJAMIN L. CARDIN, Maryland         JIM DeMINT, South Carolina
ROBERT P. CASEY, Jr., Pennsylvania   JOHNNY ISAKSON, Georgia
JIM WEBB, Virginia                   DAVID VITTER, Louisiana
                   Antony J. Blinken, Staff Director
            Kenneth A. Myers, Jr., Republican Staff Director

                                 ------                                

               SUBCOMMITTEE ON WESTERN HEMISPHERE, PEACE
                      CORPS AND NARCOTICS AFFAIRS

               CHRISTOPHER J. DODD, Connecticut, Chairman

JOHN F. KERRY, Massachusetts         BOB CORKER, Tennessee
BILL NELSON, Florida                 JOHNNY ISAKSON, Georgia
ROBERT MENENDEZ, New Jersey          NORM COLEMAN, Minnesota
JIM WEBB, Virginia                   JOHN E. SUNUNU, New Hampshire

                                  (ii)

  
?

                            C O N T E N T S

                              ----------                              
                                                                   Page

Corker, Hon. Bob, U.S. Senator From Tennessee....................     3
Dodd, Hon. Christopher, U.S. Senator From Connecticut............     1
Fiol, Nicole, applicant to the Peace Corps, Bayamon, Puerto Rico.    73
      Prepared statement.........................................    75
Kotz, David, inspector general, Peace Corps, Washington, DC......    41
      Prepared statement.........................................    44
Ludlam, Chuck, volunteer, Senegal, Peace Corps, Washington, DC; 
  accompanied by Paula Hirschoff, volunteer, Senegal, Peace 
  Corps, Washington, DC..........................................    60
      Prepared statement.........................................    63
Quigley, Kevin, president, National Peace Corps Association, 
  Washington, DC.................................................    68
      Prepared statement.........................................    70
Raftery, Kate, country director, Eastern Caribbean, Peace Corps, 
  Washington, DC.................................................    66
Schneider, Hon. Mark L., former director of the Peace Corps; 
  senior vice president and special advisor on Latin America, 
  International Crisis Group, Washington, DC.....................    35
      Prepared statement.........................................    38
Tschetter, Hon. Ronald A., director, Peace Corps, Washington, DC.     4
      Prepared statement.........................................     7

                                 (iii)

  


ENHANCING THE PEACE CORPS EXPERIENCE: S. 732, THE PEACE CORPS VOLUNTEER 
                            EMPOWERMENT ACT

                              ----------                              


                        WEDNESDAY, JULY 25, 2007

                           U.S. Senate,    
        Subcommittee on Western Hemisphere,
                Peace Corps, and Narcotics Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:33 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Christopher 
J. Dodd (chairman of the subcommittee) presiding.
    Present: Senators Dodd, Coleman, and Corker.

          OPENING STATEMENT OF HON. CHRISTOPHER DODD, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Dodd. The committee will come to order.
    Let me thank all of you for being here this morning, than 
the Director, as well, for coming out.
    I'm pleased to convene the Subcommittee on Western 
Hemisphere, Peace Corps, and Narcotics Affairs. I'd like to 
welcome my ranking member, Senator Bob Corker, from Tennessee, 
who's with us, who's joined me this morning's hearing to 
receive testimony and ask questions on a very important topic, 
one very important to me, personally: The Peace Corps.
    Since its establishment in 1961, the Peace Corps has been 
held in high regard by the United States Congress and the 
American people and, I might add, the global community, as 
well. That has been the case because it has always been a 
nonpartisan and apolitical institution, able to stay out of 
political maelstrom of the moment, at home and abroad; and that 
remains the case today, and we're all grateful for that.
    The mission of the Peace Corps has always been clear and 
straightforward; namely, to promote world peace and friendship. 
Central to that mission of the Peace Corps has been the 
volunteer, 187,000 of us who have served in more than 139 
countries since 1961, and the 7,700 who are currently serving 
in more than 70 nations around the world.
    I have the honor and privilege of being a member of the 
Peace Corps alumni, having served as a volunteer in the 
Dominican Republic from 1966 to 1968. Peace Corps service, for 
me, was a life-changing experience that cemented my belief and 
commitment to public service. I'm certain that many of the 
witnesses who will testify this morning, a number of them with 
Peace Corps experiences of their own, share my belief that the 
volunteer experience has had a profound impact on our lives and 
our life decisions to follow, and not to mention one's world 
view.
    Since 1961, successive generations of Peace Corps 
volunteers have been challenged to strive to accomplish three 
goals: To help others help themselves; to help others 
understand our country; and to help America understand others 
around the world. I'm convinced that today, more than ever 
before, the importance and necessity for Peace Corps to promote 
global understanding and friendship could not be greater. Bad 
policy choices and neglected opportunities have tarnished our 
Nation's reputation and weakened our alliances at a moment in 
history when both are critical to promoting and protecting our 
national interests and security.
    In order to ensure that the Peace Corps is well prepared to 
carry out its mission in the 21st century, I believe it's 
vitally important, from time to time, to assess how effectively 
Peace Corps management and staff are recruiting, training, and 
serving the volunteers as they carry out the core mission of 
the Agency. It also means exploring ideas and suggestions for 
changing the way that the Peace Corps operates that will 
enhance the ability of volunteers to carry out the goals they 
charged within statute. And it means finding ways to expand the 
reach of the Peace Corps at home and abroad by providing 
additional resources and doubling the number of volunteers, to 
give it more firepower to do so. S. 732, The Peace Corps 
Volunteer Empowerment Act, which I introduced on March 1 after 
extensive consultation with volunteer and returned-volunteer 
communities, is an effort to begin that brainstorming process.
    Let me mention the key provisions of this legislation:
    It designates a small portion of the annual Peace Corps 
budget for use as seed moneys for active Peace Corps volunteers 
for demonstration projects on their sites.
    It authorizes $10 million in additional annual 
appropriations, to be distributed by Peace Corps's grants, to 
return to Peace Corps volunteers interested in undertaking the 
third-goal projects in their local communities.
    It would authorize active Peace Corps volunteers to accept, 
under very carefully defined circumstances, private donations 
to support their development projects.
    It would establish mechanisms for more volunteer input into 
the Peace Corps operations, including staffing decisions, site 
selection, language training, and country programs.
    It would bring the Peace Corps into the digital age by 
establishing Web sites and e-mail links for use by volunteers 
in country.
    It would authorize active recruitment from 185,000 returned 
Peace Corps volunteer--from the Peace Corps volunteer community 
for second tours as volunteers and as participants in third-
goal activities in the United States.
    It would remove certain medical, healthcare, and other 
impediments that discourage older individuals from becoming 
Peace Corps volunteers.
    It would create more transparency in the medical screening 
and appeals process, require a report on costs associated with 
extending postservice health coverage from 1 month to 6 months, 
protect certain rights of Peace Corps volunteers with respect 
to termination of service and whistleblower protection, and, 
most important of all, include annual authorizations for fiscal 
year 2008-2011, consistent with the goal of doubling the number 
of volunteers to 15,000 by 2011.
    This bill set out a very ambitious list of issues to begin 
to explore ways to strengthen the volunteer experience. I 
stress the word ``begin,'' because this bill is meant to be the 
jumping-off point for discussing how the Peace Corps can do 
better, not finish the line.
    I am somewhat disappointed, I must say, that the testimony 
of our distinguished friend, the Director of the Peace Corps, 
does not seem to reflect that understanding. I would also have 
to say that I believe that no matter how well an agency or 
program is functioning, there should always be an open mind as 
to how it can be made more effective. I hope, over the course 
of this morning's hearing, that is the mindset that we will all 
adopt.
    I want to welcome and thank, of course, all of our 
witnesses who are here this morning: Director Ron Tschetter; 
former Peace Corps Director and return volunteer Mark 
Schneider; Peace Corps Inspector General David Kotz. I want to 
welcome all of you.
    I would also like to offer special recognition and thanks 
to Chuck Ludlam and his wife, Paula Hirschoff, who are 
currently on their second tour as volunteers in Senegal, and 
who, on their own time and expense, have come from Senegal to 
testify this morning. Their input into the development of this 
bill has been very helpful, and I look forward to hearing your 
testimony this morning.
    With that, let me turn to my colleague, the ranking member 
of this committee, Senator Corker, for any opening comment 
you'd like to make.

                 STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    Senator Corker. Mr. Chairman, I'll be somewhat more 
informal, but I want to say to you that it's an honor for me to 
serve on this committee with you, and I certainly appreciate 
the background that you bring here to the Senate, having been a 
Peace Corps volunteer, and certainly applaud you for that, and 
was asking, earlier, if you think that's what may have ended up 
bringing you to the U.S. Senate. My guess is, it probably had 
some effect. I know that, in my own life, going out to another 
country and offering assistance certainly inspired me and, I 
think, caused me to ultimately end up here in the Senate.
    And I want to, certainly, welcome Mr. Tschetter, who I know 
is here for the same reason, certainly as a volunteer many, 
many years ago.
    Our State has about 73 volunteers for the Peace Corps right 
now, one of which is Marty Landis, who I worked with as a 
community activist years ago, and we did a lot of great things 
here in our city, in Tennessee, and certainly is doing great 
things overseas now.
    And I just want to thank you for the focus that you have 
brought to the Peace Corps. I know that--all of us know--it's 
one of those prized organizations that has so many wonderful 
volunteers that seem to represent our country so well. And, 
while I know that Senator Dodd has brought forth some 
legislation--and I like the way he characterized it, as a 
discussion point--I also know that there's always a balance 
that needs to exist between running an organization well, 
management objectives, and certainly, at the same time, taking 
into account the many people that make the organization so 
great.
    I actually enjoyed your testimony. I read it extensively 
over the last day or so, and certainly this morning. And what I 
liked about it was the fact that--so many of the hearings that 
we have here in Foreign Relations, there's a lot of diplomacy, 
a lot of talk that sometimes doesn't mean a great deal because 
people are being so nice to each other. You were pretty 
clairvoyant in some of the criticisms that you brought forth. 
And I actually look forward to hearing your testimony today.
    My sense is that there is a tremendous respect by members 
of our committee for the Peace Corps. I think that we all want 
to do the right thing. And I think this testimony today will 
help us do that.
    So, welcome. We look forward to your testimony.
    Senator Dodd. Mr. Director, thank you, welcome, nice to 
have you with us, be glad to receive your testimony.

 STATEMENT OF HON. RONALD A. TSCHETTER, DIRECTOR, PEACE CORPS, 
                         WASHINGTON, DC

    Mr. Tschetter. Chairman Dodd, thank you for your commitment 
to the Agency, for your commitment to grow the Agency, to keep 
it relevant in the 21st century, and your dedication to the 
quality of the volunteer experience.
    As a fellow returned volunteer, I share those goals, and I 
had exactly the same experience as you had. It was a life-
changing experience that has certainly impacted my wife and me 
for the last 40 years subsequent to our service.
    So, I'm pleased to be able to share with you my opinions, 
and I would add that this is an opportunity not only to differ 
with those opinions, but also to share with you the succinct 
perspectives that I have as the Peace Corps is moving forward.
    And I'd also ask that my written statement be submitted for 
the record.
    Senator Dodd. All testimony will be included.
    Mr. Tschetter. Thank you.
    I'm pleased to report that the Peace Corps is doing very 
well. There are currently 7,749 volunteers serving in the 73 
countries. As of September 30 of this year, we anticipate that 
this number could reach 8,000, which would be a 31- to a 32-
year high.
    In the 20 countries that I've been privileged to visit in 
the last 10 months, I can see that our volunteers are 
fulfilling their assignments. They are resilient, they are 
creative, and they are passionate about what they are doing.
    This year alone, 250 volunteers have extended into a third 
year, the highest number of extensions in 4 years. In 2006, a 
new program opened in Cambodia. I was privileged and honored to 
be there to swear in the first group, to see their excitement, 
but, more importantly, to feel the warmth and the appreciation 
of the senior leadership of that country for the entrance of 
the Peace Corps.
    This fall, we will reopen in Ethiopia. That's our 10th 
PEPFAR country. Additionally, over 20 percent of our volunteers 
are working in 15 predominantly Muslim countries. As we speak, 
we have just completed assessments in Sierra Leone and Liberia, 
and today, our assessment team is in Rwanda.
    I would also like to add that increasing the diversity of 
the Peace Corps is a very high priority. Currently, 16 percent 
of our volunteers are from ethnic minority groups. This is an 
all-time high. However, we are striving to increase that 
percentage even further.
    There are several new initiatives underway that I unveiled 
earlier this year, and I'd like to spend just a moment to share 
with you what they are.
    First of all, I would like to see the number of 50-plus 
volunteers increased, as I believe they represent an incredible 
opportunity for the Peace Corps, for America, and for service 
around the world. All three of our regions have identified 
pilot posts to make recommendations to better support the needs 
of 50-plus volunteers.
    Another initiative is to measure our successes and our 
quantifiable impact in the world. To this end, I recently 
established the Office of Strategic Information, Research, and 
Planning.
    Finally, I believe that the Peace Corps is the gold 
standard of voluntarism. As I have traveled the globe--and we 
all know that there are many, many opportunities to volunteer 
around the world--I have found nothing that compares to what 
the Peace Corps does. And so, as we assist our interested host 
countries around the world in promoting voluntarism among their 
own people, it's a legacy that we can leave behind, as well.
    From my perspective, as a returned Peace Corps volunteer, 
former chairman of the National Peace Corps Association, and 
current Peace Corps director, it's evident to me that those 
consulted in the bill S. 732 believe that there are parts of 
the Peace Corps that need fixing. I'm here to tell you that the 
Agency is thriving. In our recent volunteer survey, 74 percent 
of our volunteers reported that their service was personally 
rewarding, 84 percent would recommend service to others, and 95 
percent said that they have been successful in helping people 
from other cultures better understand Americans. That is our 
second goal.
    With that being said, I also realize that we can improve. 
And I do agree with you, Senator Dodd, that the initiatives in 
your bill are ways of improving. And I would like to encourage 
all of us to work together to make the Peace Corps better.
    By the way, many elements of S. 732 are already underway. 
For example, this legislation would allow volunteers to raise 
funds to use seed funding for demonstration projects. This 
provision is against the Agency's basic philosophy of helping 
others help themselves. The Agency already has a proven vehicle 
to allow volunteers to accept funds, through our Office of 
Private Sector Initiatives and the Peace Corps Partnership 
Program.
    Another point I'd like to raise is mandating that each post 
has a Volunteer Advisory Committee, a VAC, as we call it. As 
envisioned by this legislation, these VACs would make 
recommendations regarding post staff. At this time, volunteers 
unhappy with the report or conduct they receive from post staff 
may contact their regional director, or even the Director of 
the Peace Corps, to share their concerns. On numerous 
occasions, VAC recommendations, along with the results of the 
biennial volunteer survey, which I earlier referred to, have 
resulted in changes at posts pertaining to personnel matters or 
communications issues. We do have VAC committees in place, 
actively, positively functioning today, and a vast majority of 
our volunteers are satisfied with this process. We have VAC 
committees in every country except one, that country being 
Cambodia, because of our recent entrance. In September, a VAC 
committee will begin functioning in that country, as well.
    By mandating certain initiatives of S. 732, I think it 
hampers the Agency's ability to respond to changing world 
events and lock in funds to programs that may prove unworkable. 
Additionally, initial budget estimates find the legislation 
could cost us between $20 and $30 million. Let me be clear on 
this. If the bill, as written, was implemented, our projection 
is that it would be a cost the Agency between $20 and $30 
million. Ten million dollars of this would be for covering the 
costs of all medical tests for applicants, alone. The Agency 
currently reimburses applicants for medical expenses in the 
area of $1 million. Under the Peace Corps Act, it states that 
the Congress declares that the Agency should maintain a 
volunteer corps of around 10,000 volunteers. I want to uphold 
this declaration and increase the number of volunteers in 
service. As such, I genuinely appreciate and am enthused about 
the authorization levels that are in the bill in section 401. 
We do not want to see a drop in volunteers. However, mandates 
in the bill could force the Agency to close programs and cut 
volunteer numbers. These areas on which I trust we can continue 
to dialog.
    I'm pleased to see, Chairman Dodd, your concern for the 
third-goal initiative. This bill would authorize the Agency to 
distribute up to $10 million in grants per year for this 
initiative. Today, we spend about $2 million on third-goal 
activities. We would welcome the discussions with the 
subcommittee on ways to enhance RPCV engagement once the 
volunteers have come back to America. This is the third goal of 
the Peace Corps. However, I have real concerns about the Agency 
becoming a grantmaking organization. We need to have extensive 
dialog about the ``whys'' and the ``hows'' of implementing such 
a program.
    There is an idea that we have tossed around that I would 
like to share with you this morning. It's in the preliminary 
stages of discussion. But I am intrigued with the concept of 
creating the Peace Corps Foundation, a foundation structured 
with well-known board members, such as those from the RPCV 
communities, corporate leaders, those from the nonprofit 
sector, those from government leadership positions. The 
Foundation's mission could be to support third-goal activities 
by a raising private funds. With more corporations recognizing 
the value of global responsibility, this could be a marvelous 
tool to raise the Agency's visibility and to broaden and deepen 
our third-goal initiatives.
    Mr. Chairman, I thank you for the opportunity to be here 
today, for the opportunity to testify, and I genuinely look 
forward to working with you and your subcommittee on all of the 
issues that we are so passionate about on behalf of the Peace 
Corps.
    I am pleased to answer any questions that you may have.
    [The prepared statement of Mr. Tschetter follows:]

               Prepared Statement of Ronald A. Tschetter

    Good morning. I am pleased to join you today, and I would like to 
thank Chairman Dodd and Senator Corker, as well as the other members of 
the subcommittee, for giving me the opportunity to testify at today's 
hearing. Senator Dodd, it is wonderful to have a returned Peace Corps 
volunteer such as yourself serving in the U.S. Senate and chairing this 
important subcommittee. Thank you for your continued commitment to the 
volunteers and the growth of this agency. I know that many RPCVs and 
current volunteers in the Dominican Republic appreciated the videotaped 
message that you prepared earlier this year in honor of that nation's 
45th anniversary of its Peace Corps program. It was very well received.
    I would also like to thank all the members of the subcommittee for 
the bipartisan support they provided me during my nomination 
proceedings last September. As a returned Peace Corps volunteer who 
served in India with my wife in the 1960s, it is an honor to be the 
director of the Agency.
    We also appreciate, Senator Dodd, your focus on strategically 
expanding the Agency with the desire to maintain a quality volunteer 
experience and increasing the number of volunteers in predominantly 
Muslim countries. I can verify during my recent travels that a vast 
majority of the 20 countries, which I visited, would welcome additional 
volunteers.
    Before I comment on S. 732, the ``Peace Corps Volunteer Empowerment 
Act,'' I am pleased to report that the Peace Corps is in great shape, 
and I wish to share with the subcommittee some recent agency highlights 
and accomplishments. I would also like to note that as director, my 
goal is to ensure that the Peace Corps remains an effective agency as 
it continues into the 21st century.
    Today, there are currently 7,749 volunteers serving around the 
globe in 73 countries. And, as of September 30, 2007, we anticipate 
that this number could reach 8,000. Mr. Chairman, our volunteers are 
doing amazing work--critical work--and in the 20 countries I have 
visited thus far as Director--I can see that they are happy and are 
fulfilled by the constructive work they are accomplishing. In fact, 
this year alone we have had 250 volunteers extend into a third year so 
that they continue working on their projects--the highest number of 
extensions in four years--which reflects the satisfaction that many 
volunteers have found in their service.
    In 2006, a new country program was opened in Cambodia and the first 
group of Cambodian volunteers were sworn-in in April 2007. A program in 
Ethiopia will be reopened in September, with a focus on HIV/AIDS, 
bringing the Peace Corps' involvement with the President's Emergency 
Plan for AIDS Relief (PEPFAR) countries up to 10. Additionally, country 
assessments were performed in Sierra Leone and Liberia last month, an 
assessment team departed for Rwanda last week, and over 20 countries 
are interested in having a Peace Corps program. Volunteers continue to 
excel in such project areas as education, health and HIV/AIDS, the 
environment, youth, and business development, and over 20 percent of 
volunteers are working in 15 predominately Muslim countries such as 
Morocco, Jordan, and Kazakhstan--presenting the face of America abroad. 
The Peace Corps and the unique programs we offer are in just as great 
of demand today as they were in the 1960s.
    There are also several new initiatives underway at the Agency, 
unveiled in February of this year, that I am passionate about and would 
like to share with you briefly. The three initiatives are: strategic 
recruitment and outreach, measuring success and impact, and promoting 
volunteerism.
    To enhance our current recruitment and outreach efforts, there are 
three areas I believe the Agency should focus on: 50+ outreach, 
organizational outreach, and returned Peace Corps volunteer (RPCV) 
outreach.
    As I noted in my nomination hearing last year, the 50+ population 
represents a tremendous opportunity for the Peace Corps. I meet with 
older volunteers every opportunity I have during my travels, and I am 
always extremely impressed with the work they are doing and the 
lifetime of experience they offer to our host countries. In fact, 
during a recent trip to South Africa, I was able to meet with 18 of 
them. They are an energetic and passionate group and are always eager 
to share their views and thoughts with me.
    The Europe, Mediterranean and Asia (EMA), Inter-America and Pacific 
(IAP), and Africa regions have each identified pilot posts, for a total 
of 10 pilots, to make recommendations to better support the needs of 
potential 50+ volunteers. Assessments have also been conducted at 
headquarters of our recruiting process, medical care, and language 
training to better accommodate prospective 50+ volunteers. As a result 
of these internal evaluations, many recommendations are now in the 
process of implementation, such as the hiring of two additional 
screening nurses dedicated to 50+ applicants. Currently, five percent 
of all volunteers are 50+, and I am committed to increase this 
percentage over the next few years.
    We are also becoming more creative in how we work and partner with 
organizations. We have developed strategic partnerships throughout our 
history with organizations to expand our recruitment efforts-
particularly among minorities-and, we are going to do more of this. We 
already have collaborated with many groups including AARP, Hispanic 
Association of Colleges and Universities, and Historically Black 
Colleges and Universities, among others. From relationships like this 
we have already seen results such as our Peace Corps Baccalaureate 
program, which allows those with a degree from a community college to 
obtain a bachelor's degree in conjunction with their Peace Corps 
service, and the Peace Corps Prep program that enables college students 
to take a specialized curriculum promoting international volunteerism.
    We are continuing, as well, with our efforts to increase diversity 
in the Peace Corps. Since last year, we have expanded our recruiting 
brochures to include American Indian and Asian Americans, launched a 
new Spanish radio PSA, and enhanced our level of participation at 
conferences attended by diverse populations. New print PSAs geared 
toward Hispanic and African American audiences will be released shortly 
and we are always seeking ways to reduce barriers for service and to 
increase the number of diverse applications received.
    Additionally, we need to ensure that the RPCV community is engaged 
and ready to assist us in recruitment as active alumni. I was chairman 
of the National Peace Corps Association (NPCA) in the 1990s, and I see 
many opportunities for increased involvement, like the mentoring 
program between returned volunteers and recently returning volunteers.
    With regard to the second initiative, while all of us have an 
intrinsic understanding of the great value the Peace Corps brings to 
the world, we need to better measure our success and impact in 
quantifiable ways. Congress is always asking for greater 
accountability, and we at the Peace Corps have heard that call. To add 
to our current performance measures and the abundant stories of 
transformation--such as individuals influenced by the work and lives of 
Peace Corps volunteers going on to become Presidents, Ministers, and 
business and cultural leaders in their countries--the Agency is looking 
to bolster its ability to capture our impact in more measurable terms.
    To this end, I recently established the Office of Strategic 
Information, Research and Planning to focus on the Agency's performance 
planning and reporting, evaluation and measurement, and data management 
needs. Technology will be a key tool and our new interactive database, 
called Magellan, will provide the Peace Corps with a global 
infrastructure, greater information access, and create a seamless 
system for the entire agency (resulting in greater connectivity between 
posts, recruiting offices, and headquarters). I look forward to the 
consistency of information that Magellan will bring the Agency, and I 
am pleased with the progress, the attention, and the energy this new 
office is bringing to this important endeavor.
    Finally, regarding my third initiative, I believe the Peace Corps 
is the gold standard for volunteerism, and we can assist our host 
country partners around the world in promoting volunteerism among their 
own people. I created a volunteerism task force to carry forward the 
vision of promoting volunteerism at the community and national levels 
in countries in which we serve. It is actually part of our mandate in 
the Peace Corps Act ``to encourage less developed countries or areas to 
establish programs under which their citizens and nationals would 
volunteer to serve in order to meet their needs for trained manpower.'' 
I am enthusiastic about this renewed effort to support countries, such 
as Benin, and Jordan, which have recently asked for our assistance in 
exploring the creation of their own national service corps.
    Additionally, at the community level, I want to encourage 
volunteers to multiply their ongoing efforts to promote volunteerism, 
and leave a legacy of communities organizing themselves to address 
local needs. Volunteerism can be an especially powerful agent of change 
amongst youth, and in most of the countries where we serve; over 50 
percent of the population is under 25. What better legacy for the Peace 
Corps to leave behind than helping countries and communities work to 
address their own challenges?
    With regard to S. 732, I would like to thank the Chairman for his 
clear and continued interest in the Peace Corps and for his desire, one 
I also share, to keep the Peace Corps relevant in the 21st century. The 
bill would authorize the Peace Corps for fiscal years 2008 through 2011 
and provide a variety of new initiatives, reports, and modifications to 
the Peace Corps Act. And, while I appreciate efforts to evaluate and 
improve the Agency, something I am always striving to do as the 
director, I am also committed to maintaining the Agency's flexibility 
to adjust to changing dynamics in the world without losing the passion 
President Kennedy envisioned when he founded the Peace Corps 46 years 
ago.
    I have not been in Washington that long. But, I have been here long 
enough to know that when this committee asks for testimony on 
legislation you would like to get straight answers. I am here to 
provide you with my frank assessment of this bill.
    From my perspective as an RPCV, the former chairman of the NPCA, 
and the current director of the Peace Corps, it is evident to me, after 
a thorough analysis of this bill, that those consulted in its drafting 
believe that certain parts of the Peace Corps are broken. Well, I am 
here to tell you that the Peace Corps is actually thriving. In fact, in 
our recent volunteer survey 74 percent of volunteers reported that 
their service was personally rewarding, 84 percent would recommend 
Peace Corps service to others, and 95 percent said that they have been 
personally successful in meeting the second goal of the Peace Corps of 
helping people from other cultures better understand Americans. 
Moreover, the Peace Corps is a relevant and vital agency with a strong 
sense of purpose and one blessed with a dedicated and energetic staff, 
many of whom are RPCVs. With that being said, I also realize that we 
can do better, and the initiatives that I have just outlined for you 
are intended to provide for an improved and more vital Peace Corps. As 
I strive, along with my staff, to build upon the past successes of the 
Agency, I welcome and embrace constructive efforts that would 
contribute to an improved Peace Corps.
    Quite frankly, I do not believe that S. 732, with its constrictive 
provisions, would contribute to an improved Peace Corps, and let me 
explain to you why I believe that: While the legislation may have 
laudable intentions, many aspects of the bill would: 1) create 
unforeseen administrative burdens and consequences; 2) raise 
significant safety and security concerns; and 3) would be costly for 
the Peace Corps to implement.
    By mandating certain programs and initiatives, such as the 
development of 20 new sectors in 20 countries, it will hamper the 
agility of the Agency to respond to changing circumstances or events, 
and lock-in funds to programs that may prove unworkable. In effect, 
this legislation would likely force the Agency to close programs, 
reduce the number of volunteers, and be locked in to initiatives 
without a proven track record. The Agency estimates that the Peace 
Corps would see total volunteers on board drop to approximately 6,000 
in FY 2008, back to FY 1999 levels, and approximately 7,400 in FY 2009. 
Volunteer numbers would only begin to increase again in FY 2010, 
provided that full funding was received.
    Take for example, our work in HIV/AIDS. In the late 1980s, the 
pandemic of HIV/AIDS was just beginning to surface. Because of the 
flexibility in programming that presently exists within the Peace Corps 
Act, the Agency was able to adjust its focus, work with host countries, 
and meet the challenge of the pandemic head on. Now 90 percent of all 
Peace Corps posts are involved in HIV/AIDS activities and in FY 2006, 
volunteers provided assistance to one million individuals, over 84,000 
HIV/AIDS service providers, and 3,800 organizations. Had the Peace 
Corps been locked into statutory mandates, the likelihood of the Agency 
achieving this impact, at this magnitude, would have been lost.
    This bill also raises safety and security concerns. The Agency's 
number one priority is maintaining the safety of our volunteers, and we 
have undergone a tremendous number of changes in this post 9/11 world 
to ensure that they are as safe as they can possibly be. As such, I do 
not believe the bill, as currently written, is in the best interests of 
the Peace Corps and its volunteers, particularly in pushing volunteers 
to become fundraisers or grant makers.
    With regard to costs, initial budget estimates find that the 
legislation could cost the Peace Corps between $20 and $30 million to 
implement. As the committee may be aware, since FY 2003, the Peace 
Corps has not received the President's full budget request for the 
Agency. And, increases for the past two years have been relatively 
flat. While the FY 2008 House mark has met the President's request, the 
Senate Appropriations Committee mark is $10 million below the 
President's request. Therefore, even if the Agency were to be 
authorized at the levels provided in S. 732, there is no guarantee that 
it would be appropriated such amounts in future years.
    Additionally, the President's FY 08 request of $333.5 million would 
simply allow the Peace Corps to maintain its current number of 
volunteers in the field and perhaps open one new program. It would not 
enable the Agency to accommodate any projects or programs of the 
legislation's magnitude.
    I would now like to make the committee aware that there are many 
elements of the ``Peace Corps Volunteer Empowerment Act,'' that are 
already underway at the Agency.


          1. The first point I would like to raise is that this 
        legislation would mandate that each post have a Volunteer 
        Advisory Committee (VAC). As envisioned by the legislation, 
        these VACs would make recommendations regarding post staff, 
        which post would be required to take into consideration. At 
        this time, volunteers unhappy with the support they receive 
        from post staff may contact the Regional Director, or even the 
        Director of the Peace Corps, to share their concerns. On 
        numerous occasions, VAC recommendations-- along the results of 
        the biennial volunteer survey--have resulted in changes at post 
        pertaining to personnel matters or communications issues. The 
        current VAC system is working and a vast majority of volunteers 
        are satisfied with the process.
          To mandate a VAC each post would also trigger the application 
        of the Federal Advisory Committee Act (FACA) and could reduce 
        the effectiveness of post staff in implementing rules that, for 
        example, may not be liked by volunteers but are necessary for 
        their safety and security. Furthermore, the VACs established by 
        volunteers at posts are already working, and are extremely 
        active and vocal with their views. I always make an effort to 
        meet with the country VACs during my travels and carefully 
        listen to their perspectives. To date, I have met with at least 
        a half dozen VACs and each time I have appreciated their 
        insights and suggestions. Headquarters staff also speak with 
        VAC members, and often listen to them before making decisions 
        on whether or not to extend Country Directors or other host 
        country staff.

          2. The bill would also mandate that the Agency provide full 
        reimbursement for all medical tests it requires of an 
        applicant. The reimbursement of all medical tests could cost 
        the Agency upwards of $10 million, vs. under $1 million the 
        Agency is currently spending. In addition to the standardized 
        tests required of all applicants based on gender and age, if an 
        applicant indicates that they have had medical problems in a 
        particular area then this can often lead to additional tests. 
        Such tests are required to ensure an applicant's suitability to 
        the often extreme conditions a volunteer may incur, and for 
        their own safety should they be chosen to serve as a Peace 
        Corps volunteer.
          While we certainly want to help cut down the cost of medical 
        tests for applicants, and do provide a reimbursement based on 
        age and gender, (the Agency now pays between $125 to $290 for 
        physical exams and lab work and up to $ 72 for dental and eye 
        examinations) the focus of our limited budget dollars needs to 
        be designated to the support of our volunteers in the field.
          With regard to the publication of the Peace Corps' medical 
        screening guidelines on its website, and a listing of countries 
        available to accept volunteers with certain medical conditions, 
        among other medical process details, this would unfortunately 
        lead to confusion for applicants as the countries that can 
        accommodate different volunteer health situations frequently 
        change. Additionally, each applicant's health is assessed 
        individually as diseases and ailments can have varying afects 
        on diferent people. One person with asthma, for example, might 
        be capable of serving but another may not due to the severity 
        of their case. We do, however, post on the Peace Corps website 
        a list of typical ailments that are difficult to accommodate as 
        a reference for applicants.
          A comprehensive review by the Peace Corps' inspector general 
        is currently underway to evaluate the (a) medical screening 
        aspects of the volunteer delivery system--the Agency's 
        mechanism for bringing volunteers in the door, (b) the 
        transparency, information and communication, efficiency, 
        timeliness, and the cost of the medical screening process--
        particularly as they relate to older applicants, and (c) to 
        review impediments in the process--including those relating to 
        medical and health care costs. I look forward to reviewing the 
        final report, as I am serious about addressing these issues. 
        However, it may be premature to mandate any legislative changes 
        until the Office of the Inspector General has had the 
        opportunity to finish its research and issue its findings.

          3. The legislation mandates that the Director shall set a 
        goal of doubling by December 31, 2009, the number of volunteers 
        with at least five years of relevant work experience serving in 
        the Peace Corps. As I mentioned earlier, I have already 
        launched an initiative to recruit older volunteers that would 
        presumably have such work experience, and those efforts are 
        currently being implemented.
          However, with that being said, it should be noted that 
        younger volunteers with presumably ``less work experience'' are 
        the Agency's main staple, and it is through their eagerness to 
        serve their communities, that the Peace Corps is what it is 
        today. Many of us were those inexperienced volunteers many 
        years ago, and are proud of our volunteer service and 
        contribution. I want to make sure that having the opportunity 
        to be a Peace Corps volunteer is available to everyone 
        interested and eligible to serve.

          4. The legislation would mandate better promotion of 
        electronic communication among volunteers, such as password 
        protected websites & e-mail links that they can use to discuss 
        development strategies, funding sources, etc. The Agency is 
        already in the process of making the Peace Corps digitally 
        streamlined for the 21st century. There are several projects 
        underway. These include a pilot program to enable each post to 
        have its own website and an online program called 
        ``PeaceWiki,'' which will allow volunteers to share their best 
        practices with other volunteers around the world.

          5. This legislation would allow volunteers to either raise 
        funds or use seed funding for demonstration projects. This 
        component of the bill really shifts one of the main tenants of 
        volunteer service from coming along side a community and 
        providing the impetus for developing their own funding sources 
        to being viewed as a source of cash. According to one, seasoned 
        country director, ``I have never worked in a country where a 
        volunteer couldn't help a local community come up with money if 
        the volunteer and local community were sufficiently 
        enterprising. Once a volunteer and local community or 
        organizations come up with local funding, two fundamental 
        lessons are learned: that money could be found and that the 
        process whereby money can be found becomes known.'' In other 
        words, sustainable development skills are transferred and 
        something is left behind when the volunteer is no longer there.
          Additionally, the Peace Corps already has a proven vehicle to 
        allow volunteers to accept funds for specific projects through 
        the Office of Private Sector Initiatives (OPSI) and its Peace 
        Corps Partnership Program (PCPP).
          In FY 2006, the PCPP received over $1.4 million worth of 
        donations supporting 435 volunteer projects and representing 50 
        different countries. The projects in FY 2006 ranged in size 
        from $62 to over $24,000. A new Director of OPSI has been 
        hired, and is in the process of streamlining the PCPP process 
        reflecting recent recommendations from the field. The Agency 
        has taken these recommendations seriously, and consequently, 
        has taken action to reorganize. We are looking forward to 
        increasing the value of this resource to our volunteers.
          Additionally, raising funds outside of PCPP increases legal 
        problems, accountability concerns, safety and security issues 
        for volunteers, and is opposed by nearly every Peace Corps 
        Country director we have spoken to. One of a Peace Corps 
        volunteer's main objectives is to integrate into a community 
        and work among its host country citizens at the grassroots 
        level. They are not encouraged to give out money or be seen as 
        a constant source of funds; nor are they are allowed to sell 
        personal items for cash. Allowing volunteers to either raise 
        funds or use seed funding for demonstration projects diminishes 
        their primary objectives.
          This provision goes against the Agency's basic philosophy of 
        helping others to help themselves. The Peace Corps has never 
        been a funding institution and plays a unique role in the world 
        of development that should be maintained. volunteers should not 
        be requested by host countries or placed in a particular 
        community for their ability to bring money to the table.

          6. This bill would allow volunteers to write articles for 
        publication without their Country Director's approval (unless 
        it pertained to the Peace Corps program or the country, 
        specifically). At this time, volunteers/trainees may write 
        articles for publication; however these should be discussed in 
        advance with the country director. Publication of material 
        contrary to the advice of the Country Director that 
        subsequently results in adverse consequences for the volunteer/
        trainee or the Peace Corps program may be grounds for 
        administrative separation. Often seemingly benign comments made 
        about the society, food, customs, or local community in which a 
        volunteer might serve could have an adverse reaction and affect 
        the reputation of the Peace Corps in the country, or could even 
        impact the safety and security of volunteers.
          I would doubt that many Senators would allow members of their 
        staff to publish material without prior approval. For even 
        though that staff member may not be writing on policy issues, 
        staff members are always a reflection on the Senator--whether 
        on the clock or not. The same applies for a Peace Corps 
        volunteer.
          Finally, a volunteer should not be placed in a position where 
        they are forced to make a decision on whether or not a matter 
        may have an effect on Peace Corps programs or policies, and 
        therefore, whether it requires prior approval.


    I would now like to discuss a few of the bill's components which 
could cause unforeseen consequences for the Peace Corps.
    Section 104 calls for the creation of at least 20 new sector-
specific programs in 20 different countries for those of ``substantial 
work experience.'' Such a mandate would be a heavy burden for 
programming and management staff. It would also dilute the 
effectiveness of existing programs within host countries and may force 
post staff to spend an inordinate amount of time on creating new 
sectors that may or may not be effective. It is also very unclear what 
would connote ``substantial work experience'' and how the Agency would 
define it without creating legal challenges in the recruitment process.
    As President Kennedy declared, we will continue to only send abroad 
Americans who are wanted by the host country, who have a real job to 
do, and who are qualified to do that job. Programs have been, and 
should continue to be, developed with care and after full negotiation 
with the host government to ensure that the Peace Corps' efforts are 
assisting those in need. We should not arbitrarily develop 20 new 
project-area programs and insist that a host country work with us to 
accept additional projects if these programs are not something they 
want or need. We can't be effective without host country ``buy-in.''
    Furthermore, the Peace Corps' six main program sectors (education, 
health and HIV/AIDS, business development, environment, youth, and 
agriculture) are not narrowly defined. There are currently already many 
opportunities for volunteers to work on projects that are requested by 
the host country that may loosely fall into one of the above 
categories. Some examples include, but are not limited to, deaf 
education in Kenya and ecotourism in the Dominican Republic.
    Under Section 306 of the bill, volunteers can only be 
administratively separated for specific conduct violations found in 
Peace Corps Manual Section 204. By mandating this section in statute, 
this eliminates the possibility of administrative separation for, among 
other things, lying on the application, poor performance, and other 
factors, which could hinder the ability of post to manage a program or 
cause safety and security issues. An example of a safety and security 
issue, not covered in MS 204, is that volunteers can currently be 
administratively separated for leaving their site without first 
notifying the country director. For example, a country director must 
know where volunteers are in case of evacuation, civil strife, or 
natural disasters.
    This bill would also authorize the Agency to distribute up to $10 
million in grants per year for RPCVs to carry out third goal 
activities. The Agency supports third goal activities and is open to 
discussing with the Subcommittee ways to enhance RPCV engagement. In FY 
2007, the Peace Corps expects to spend just over $2 million on third 
goal activities, such as the Paul D. Coverdell World Wise Schools 
Program, University Programs, Returned Volunteer Services, and Peace 
Corps Week activities. New projects include the launch of a Web-based 
pilot program in 2006 with audio and visual pod casts by Peace Corps 
volunteers and narrated slide shows. The response has been tremendous. 
The Agency's ability, however, to administer a grant program comes with 
a great deal of regulation and oversight. Additionally, a whole new 
division would have to be created within the Agency which would require 
additional resources and staff. The Agency is not a grant making 
organization and is not, nor should be, in the grant making business.
    Finally, I would like to note that the Peace Corps takes volunteer 
feedback very seriously. Every two years, the Peace Corps conducts a 
survey of its volunteers to obtain a comprehensive picture of the 
Agency's operations and performance and a better understanding of 
volunteers' personal experiences. The survey covers such topics as 
training, work assignments, safety and security, life at post, third 
goal activities, and overall Peace Corps service. It is a very 
effective and valuable rating tool.
    In 2006, 75 percent of volunteers currently in service completed 
the survey representing 4,482 participants. volunteers are not shy and 
offer valuable insights in the surveys. It is through these surveys 
that the Peace Corps measures its effectiveness and makes adjustments 
to its operations. In addition, volunteers are also given a Close of 
Service survey when they leave post, which provides another opportunity 
for direct feedback. volunteers are welcome to provide their thoughts 
and concerns to Country Directors and other staff at any time. A 50+ 
survey was also recently conducted, and the Agency continues to study 
its results to see how older volunteers currently rate their time in 
the Peace Corps and what can be done to improve their experience.
    In conclusion, I would like to reiterate and re-emphasize that many 
aspects of S. 732 would be costly for the Peace Corps to implement; 
create unforeseen administrative burdens and consequences; and raise 
significant safety and security concerns. Moreover, other aspects of 
the legislation are unnecessary because they are already being 
implemented, and still others could be accomplished administratively-
without legislation.
    Furthermore, as stated earlier, it will hamper the agility of the 
Agency to respond to changing circumstances or events, such as we saw 
with the fall of the Soviet Union in the early 1990s or the growing HI 
V/AIDS pandemic, and lock-in funds to programs that may prove 
unworkable and could force the Agency to close programs and reduce the 
number of volunteers. In fact, the Agency estimates that the Peace 
Corps would see the total volunteers drop to approximately 6,000 in FY 
2008, way back to FY 1999 levels, and approximately 7,400 in FY 2009, 
under the proposed authorization levels in the legislation. Volunteer 
numbers would only begin to increase again in FY 2010, provided that 
full funding was received. As Director, I want to see the number of 
volunteers serving overseas increase, not decrease. I believe the 
Committee wants that also.
    The Peace Corps is a resourceful federal agency and whenever 
Members of Congress travel overseas, we receive nothing but praise for 
the great work our volunteers are doing in the field. They see the 
return on their investment and that the Agency is truly the ``best bang 
for the buck.'' Majority Leader Harry Reid recently noted after 
returning from a CODEL that instead of the current 7,000 volunteers we 
have in the field, that there should be 70,000.
    Thank you again for allowing me the opportunity to testify on 
behalf of the Agency. Let me close by saying that the two years my wife 
Nancy and I spent in India as health volunteers had a tremendously 
positive impact on our lives and, for that, I am forever indebted to 
the Peace Corps. Those two years changed our lives and values 
significantly. Now, as Director of the Agency, I wake up every day 
committed to the goal of ensuring that future generations of Americans 
will have the opportunity to experience what Nancy and I experienced.
    My promise to you is to work as hard as I possibly can to support 
our volunteers, to strengthen the systems and programs of the Agency, 
and to ensure that the Agency's presence remains a benefit to the 
United States and to countries around the world-all while protecting 
its original mission and goals. I know that there are many returned 
Peace Corps volunteers who share my passion for the Agency, and I ask 
you to join with me in guiding the Peace Corps forward. There is much 
to be accomplished, and I am confident we can be successful if we work 
together in constructive engagement.
    As we strive to ensure a better future for the Peace Corps, while 
continuing to adapt to the 21st century, we must remain true to the 
principles that President Kennedy and Sargent Shriver established more 
than four decades ago.
    I am pleased to answer any questions and address any issues or 
concerns the committee may have.

    Senator Dodd. Thank you very much. Thank you, again, for 
your testimony. We appreciate your being here.
    What I'm going to do is ask the clerk to put us on about 10 
minutes, here, being as there are just the two of us here right 
now. Others may come, and this way we can move along.
    But I thank you for your testimony. And any supporting 
documents. As I said, any of our witnesses here this morning, 
your full testimony and supporting documents will be included 
in the record.
    Mr. Tschetter, let me, if I can, just get through a couple 
of matters before getting to the substance of the bill, that 
I'd be remiss if I didn't bring up here this morning to you, 
since they've been current events that have occurred with the 
Peace Corps. In at least one instance recently, the Peace 
Corps--the United States Ambassador clearly, in my view, had 
not read the Peace Corps statute governing the Peace Corps, 
what makes clear that the organization is not part of the State 
Department, while, I'll quickly add, it must act in a way 
consistent with U.S. foreign policy goals and objectives. But 
the day-to-day management of the Peace Corps programs in the 
field are the responsibility of the Peace Corps.
    Would you share with us what you're doing to ensure that 
the Peace Corps independence is respected? You, of course, are 
familiar with the case I'm talking about here. We recently went 
through here. And I'm glad that it finally worked out where 
there was a letter directly sent to the Peace Corps director 
that I'm referring to here. But would you mind just sharing 
with us your views on that kind of a matter here, and what you 
understand those statutes to mean? And, again, I don't expect 
you to have to get in the weeds in the particular case, but 
on--specifically on this importance of the independence of the 
Peace Corps from our State Department, not to digress, of 
course, from the foreign policy goals.
    Mr. Tschetter. Right. Thank you for that question. And the 
Peace Corps is in a unique position worldwide, as we serve at 
the grassroots level. We are not foreign policymakers. We ask 
our volunteers to not get involved in foreign policy 
situations, discussions or issues, in whichever country we may 
be serving in. We enjoy the relationship we have with the State 
Department, and particularly with our Embassies around the 
globe. And our Ambassadors, for the most part, are extremely 
supportive of the activities that the Peace Corps perform in 
the various countries that we're serving in. And I have endless 
dialog with Ambassadors and am grateful for their deep 
appreciation of our work. Our Ambassadors understand the 
difference between the role of a Peace Corps volunteer versus 
what they may do through the Embassy relative to their 
relationships in foreign diplomacy.
    We protect, passionately, the separation of the role of the 
Peace Corps in the countries we serve in, versus the foreign 
policy initiative of the countries that we may be in. And, as 
per the regulation, and as per the Peace Corps Act, we are 
separate. We keep separate office space. We don't office on 
Embassy compounds. We really operate autonomously. And that 
keeps us in a unique position in the country. And, ultimately, 
as we're fulfilling goal two--goal one and goal two in the 
countries we're serving in, we are working at the grassroots 
level, living at the level of the people, and becoming 
integrated members of those communities. We do this by living 
there. We do this by learning the language. We do this by 
serving the tasks that we're assigned to do. But then, also we 
encourage our volunteers to look around their communities, see 
other needs, and have a secondary project, a tertiary project, 
whatever it may be. And most of our volunteers are doing a 
number of initiatives in addition to the actual task that 
they've been sent over to do, just like probably you and I did 
when we were volunteers.
    So, our position is to maintain that autonomy, but also 
cooperate and work as closely as possible with our Embassy 
people, because we believe that they represent America, as 
well. And it works very, very well. And rarely, but we have had 
a few issues pertaining to that, as you alluded to, but we were 
able to work through them, and I think we're moving forward 
amicably in that situation, as well.
    Senator Dodd. Are you satisfied that the State Department 
understands their role, vis-a-vis Peace Corps country 
directors?
    Mr. Tschetter. Yes, I am satisfied with that. As a matter 
of fact, I have personally had conversations with Secretary 
Rice, and she has actually sent a new cable out, within the 
last 60 days now, articulating that to her entire Embassy team 
around the globe.
    Senator Dodd. And the person involved is, I gather, 
satisfied with the letters that have gone back, in terms of her 
own career?
    Mr. Tschetter. Yes. Everything is moving forward positively 
in that realm.
    Senator Dodd. I hope you'll keep us informed if there's any 
change in that policy or any other examples that come up. I'd 
like to know about them before they become a news story, if at 
all possible, so that we can have a possibility of stepping in 
earlier.
    Mr. Tschetter. Right. Thank you. And we will absolutely do 
that.
    Senator Dodd. I appreciate that.
    The Washington Post reported, yesterday, that, following 
the 2002 congressional elections, the White House conducted 
what it called political briefings for political appointees, 
including Ambassadors and Peace Corps personnel. In your June 
15 letter to Senator Biden, you confirmed that on March 6, 
2003, a political briefing took place at the Peace Corps, and 
it was approved by, ``former senior officials.'' You also state 
that, ``it was not run through the Office of the General 
Counsel for approval.'' I'm quoting from your letter, in both 
those lines there. I want to know who, specifically, approved 
the political briefing. Was it the Peace Corps director, the 
chief of staff? Did either of these individuals attend the 
briefings? At what time was there guidance available from the 
Office of the General Counsel as it relates to political 
activities and the Hatch Act requirements? Was the general 
counsel aware of the briefing at the time? And did he attend?
    Mr. Tschetter. OK. I am aware of the situation. Obviously, 
that was before my time. And, when the letter was received from 
Senator Biden. I've asked my chief of staff and other staffer 
members to research it. There is no list of who attended. I've 
asked for that, and no roster was kept or anything of that 
nature. This was an informational meeting, a courtesy meeting 
that was held voluntarily for whomever wanted to attend. Most 
of them were the people that were appointed politically to 
roles at the Peace Corps.
    Senator Dodd. Was the general counsel aware of this?
    Mr. Tschetter. You know, I don't know.
    Senator Dodd. Has that question been asked of him?
    Mr. Tschetter. That question has not been asked of me.
    Senator Dodd. Well, I'll ask it of you to ask it of your 
general counsel.
    Mr. Tschetter. Excuse me?
    Senator Dodd. I'd like to know if the general counsel was 
aware of that meeting.
    Mr. Tschetter. Yes, he was aware--I believe he was aware of 
the meeting, yes.
    Senator Dodd. Did he approve of it?
    Mr. Tschetter. I don't know. I was not there at the time, 
as you----
    Senator Dodd. Did the director participate in the meeting 
at the time?
    Mr. Tschetter. I believe that the director did participate 
in the meeting, yes.
    Senator Dodd. And the chief of staff?
    Mr. Tschetter. I don't know about that one.
    Senator Dodd. Did anyone go out and ask who attended?
    Mr. Tschetter. Yes, I have asked who attended, but the 
answer has been, ``We don't have a list.''
    There was no roster kept or anything of----
    Senator Dodd. No one's been forthcoming to say, ``Well, I 
was at the meeting?''
    Mr. Tschetter. Well--yes, I--a couple of people have told 
me that they were at the meeting.
    Senator Dodd. Who else was at the meeting?
    Mr. Tschetter. The director's executive assistant, I've 
talked with her, and she was at the meeting. I know that. And 
there were approximately--maybe 15 people that attended the 
meeting.
    Senator Dodd. From Peace Corps personnel.
    Mr. Tschetter. From Peace Corps personnel, that's correct.
    Senator Dodd. Yes. Do you think this is an appropriate use 
of Peace Corps personnel, a meeting like that?
    Mr. Tschetter. Well, it was a voluntary and courtesy 
meeting. It was not a required meeting. And it was just 
informational in nature.
    Senator Dodd. Did it occur on the Peace Corps property? Was 
it in the Peace Corps building, this meeting occurred?
    Mr. Tschetter. It was held in the Peace Corps building, 
that's correct.
    Senator Dodd. But what is your views, generally, about the 
idea of a political meeting in the Peace Corps?
    Mr. Tschetter. My view would be that I would not condone 
that, personally.
    Senator Dodd. Would you tolerate that from occurring?
    Mr. Tschetter. I would not encourage that to take place, 
no.
    Senator Dodd. No?
    Mr. Tschetter. No.
    Senator Dodd. Well, I'm troubled by it. I mean, this is--
you know, we talked earlier about the State Department and the 
Peace Corps. That's one separate matter. But, in my experience, 
and I want to be careful here because I don't know every 
circumstance that's happened, but the idea that Peace Corps--
the Peace Corps director, the senior people at the Peace Corps, 
would be involved in a political briefing prior to 
congressional elections is something that we've never, never 
tolerated in the past. Now, maybe it's occurred. And if it has, 
I'd like to know about it. But I'm not aware of any other 
circumstance, over the years, that that's happened. And I'm 
pleased with your response here this morning regarding it, and 
I think all of us, regardless of political persuasion up here, 
this is just not an appropriate activity to the Peace Corps. 
We've tried, over the years, for 40 years, to maintain the 
reputation----
    Mr. Tschetter. Right.
    Senator Dodd [continuing]. ----of this organization. And 
every--almost every administration, without exception, has 
really made an effort to do that. And, at this particular 
juncture, to watch this administration move us in a different 
direction, I'm deeply, deeply troubled by it, and would hope 
that there may be some directive from you to Peace Corps staff 
and others admonishing anyone from engaging in political 
activities like this, particularly on Peace Corps property. The 
reputation of this institution suffers when that happens. We 
have a reputation, and we've built a good one over the years.
    Mr. Tschetter. Yes.
    Senator Dodd. And to have it soiled because people want to 
turn it into a political operation is something I'm not going 
to tolerate at all. And I'll call for heads if people are 
involved in that thing are still there, and are involved in 
these things. They should know better than this, than to engage 
in that kind of activity.
    Mr. Tschetter. Thank you. And I concur with your opinion 
that this should not have happened. And I would not condone it, 
as I said, and I will look into the possibility, through the 
advice of my general counsel, as to a directive that would be 
appropriate, at this time.
    Senator Dodd. Well, thank you for that. Why don't you 
prepare a letter for Senator Biden, if you haven't already, or 
to me, and Senator Corker, just expressing those views, so we 
have something on file regarding that. It would be helpful.
    Mr. Tschetter.  Okay.
    Senator Dodd. And I'd like to know if there are people at 
the Peace Corps today who were involved in that meeting, 
because I'd like to know who they were. I'd like some 
explanation from them as to why they attended.
    Mr. Tschetter.  We will. Let me work on that.
    Senator Dodd. All right.
    Mr. Tschetter.  We'll get back to you.
    [The information referred to above follows:]


Response from Mr. Tschetter:
    As noted in my June 15th letter to Chairman Biden (copy attached), 
no record was kept of the political appointees who attended the 
briefing. On July 18, the Peace Corps received a request from the 
Office of Special Counsel (OSC) regarding this matter. We are fully 
cooperating with their inquiry at this time and would direct any 
further questions to OSC.


    Let me just ask one additional question here, and then----
    Mr. Tschetter. Sure.
    Senator Dodd [continuing]. ----turn to my colleague.
    I sat there in the Chamber of the House, for the State of 
the Union message, back in 2002, and you can only imagine the 
sense of pride to hear the President get up and talk about 
wanting to double the size of the Peace Corps. Now, we've heard 
this in the past. Well, that's now 5 years ago. And, where it's 
7,000--we were at 6,600, roughly, in those days, and so, we're 
pretty short, with about 18 months to go before the end of this 
administration. Can you share with us whether or not the 
President still continues to hold the view of doubling the 
size? Although, obviously, that's going to be impossible, given 
the time that remains here. And, if he still does, can you give 
us some indication of what's happened here in the midst of all 
of this, as to why we haven't gotten to that 14 or 15,000 level 
we were talking about 5 years ago?
    Mr. Tschetter. Thank you. First of all, I vividly remember 
that address. Although I was not a part of the administration, 
I certainly cheered when I heard of the goal. And I would fully 
support it. We're not going to make it, however, as you 
mentioned. We have about 18 months, and it's going to be far 
from double.
    As I see it, the major encumbrance to the doubling of the 
Peace Corps has been a budgetary issue. We have plenty of 
opportunities to serve. As I mentioned earlier, I've had the 
opportunity to visit 20 Peace Corps countries in the last 
several months, and in almost every country, as I meet with the 
heads of the state or with other officials from the ministry, 
the request is made for more. And so, when I just look at the 
infrastructure of the countries where we are serving, in the 73 
countries we're serving in, I see that we could significantly 
add more volunteers.
    Additionally, we have several requests for Peace Corps 
programs from new countries, approximately 20 countries with 
requests in right now. We're doing three assessments, as we 
speak, as I mentioned to you. I'm hopeful that we can enter all 
three of these countries, assuming they pass the various 
assessment criteria. The major one of which is safety and 
security. And as I consider the 20 requests that have come 
through the Peace Corps, many of those would not pass the 
safety and security, but many would.
    So, my point is, there are plenty of opportunities for us 
to grow the Peace Corps.
    Furthermore, on the supply side, our recruitment efforts 
have been stellar, and we've had significant growth in 
recruitment activity. We accept about one in three applicants 
today. So, I see potential for growth on that side, as well.
    And, in addition to that, as I mentioned earlier, I've 
launched an initiative to attract more of the baby-boomer 
generation, the 50-plus generation, into the Peace Corps, and I 
see tremendous potential for service and impact there, as well. 
So, the growth potential is there, both from the supply side as 
well as the needs from countries around the globe. Therefore, 
it becomes a budgetary matter. And only two times in the last 
decade has the Peace Corps received the full funding request 
that has gone to the Hill. Therefore, therein lies probably our 
largest challenge.
    Even today, as we sit here, the President's request was 
$333.5 million, up from $319 million. And the House has--House 
has recommended that the request be fully funded. The Senate's 
preliminary appropriations work has cut that amount from $333 
to $323.5 million. That's a massive cut that would impact us 
significantly. We would be able to maintain what we're doing 
now, much less add to it, if we don't receive more than the 
$323 million.
    So, I am so pleased with the thoughts you have with regard 
to the Peace Corps's growth over the next 5 years, and if we 
can begin to advance that initiative, from a budgetary 
standpoint, I believe that we can grow the Peace Corps 
significantly.
    Senator Dodd. If our recruiting is going pretty well, why 
are you projecting a decline, actually, in volunteers in 2008?
    Mr. Tschetter. In 2008, with the appropriation of $323 
million, we probably would not be able to grow.
    Senator Dodd. If I'm not mistaken, I think that number was 
rejected at the administration's request, not at the Senate's 
appropriations mark. They talked about a decline in, actually, 
the number of volunteers in 2008.
    Mr. Tschetter. Well, the other part of that is, if the 
bill, as proposed, was signed into law, we would have to make a 
number of adjustments.
    Senator Dodd. Even from the administration's standpoint, 
now, at their request.
    Mr. Tschetter. No. No, the administration's request was 
$333.5 million----
    Senator Dodd. Right.
    Mr. Tschetter [continuing]. Which is what the House 
Appropriations Committee has recommended, and now the Senate 
Appropriations has recommended $323.5 million--$10 million 
below the administration request. The $333.5 million would give 
us the ability to slightly grow the Peace Corps and to add one, 
possibly two, new countries.
    Senator Dodd. Yes.
    Mr. Tschetter. The $333.5 million. With $323.5 million, we 
could not do that.
    Senator Dodd. Yes. Well, I'll come back to this in a 
minute, here. Obviously, looking at the various numbers show a 
decline, even at that. And I gather it's based on the request. 
And I presume the request, because you go through the budget-- 
in actuality, your number projects a drop of----
    Mr. Tschetter. A slight decline, that's correct.
    Senator Dodd. Yes.
    Mr. Tschetter. Yes.
    Senator Dodd. OK.
    Senator Corker.
    Senator Corker. Thank you, Mr. Chairman.
    And obviously, Ms. Tschetter, you're here during a period 
of time where the issue of the day is--has been a little bit of 
involvement, if you will, in some of our foreign policy areas. 
And I just want to say that I, too, would want to know if 
there's any involvement in that regard, and I do hope you'll 
send a letter regarding what may have occurred and what your 
position regarding that is. I think all of us want to make sure 
that the Peace Corps is the gold standard as it relates to 
being very nonpartisan, and, certainly, acting appropriately.
    Let me talk to you. This--I actually really appreciate our 
chairman putting forth this bill, and I appreciate the way 
you've responded so directly. And, as I look at the components 
of the bill, it looks like it had a great deal of volunteer 
input from individuals. And now I look at your response, and 
obviously it's a response that would come from management. And, 
again, I really appreciate how direct you were in that 
response.
    I guess I'd like to begin with--is there some dynamic that 
exists right now within the Peace Corps organization between 
volunteers and management that is an issue? Is there some rub 
there that you'd like to cause us to be illuminated by 
explanation?
    Mr. Tschetter. Well, certainly not that I'm aware of, nor 
that I've encountered or observed as I've had the opportunity 
to travel to various Peace Corps countries. In most of the 
countries that I've visited, I actually meet with the VAC 
committees, as many as possible, to find out matters such as 
that. Issues that, you know, sitting in Washington, we aren't 
aware of. And I have not encountered that. Our VAC process 
works very well. The volunteers feel like they have open 
opportunity to dialog with the country director, with country 
staff, with the regional director, and all the way up to my 
office. I have received e-mails from volunteers, and we do 
respond to those gratuitously and as rapidly as possible. So, I 
really don't see any issues of major matter at all.
    Now, we have 73 countries, and each country director is 
fully responsible for all operations of the Peace Corps in that 
country. I can't tell you that there isn't a country director 
somewhere that might have issue. Actually, I can think of one 
example, where, from VAC feedback, we became concerned about a 
country director's style and approach. We researched it 
thoroughly, and we did not give that country director a second 
term--called a second tour--because of his style and the impact 
that we felt was negative in terms of supporting the volunteers 
in that particular country. So, we have responded, and will 
respond, to situations such as that. That's normal, typical of 
the management challenges that come before most of us in 
various ways.
    So, there are really no major rubs that I know of at all. 
The one message I try to deliver consistently as I travel and 
as I meet with staff in Washington is: This is really all about 
the volunteer, and they are our client, and let's make sure 
that we are supporting them in every way possible.
    Senator Corker. Now, speaking along those lines, we--I know 
that Senator Dodd asked something about financial support, and 
I know there's a $10 million difference, I guess, between what 
the President asked for and what currently looks like it's 
going to be appropriated. Explain the relationship, if you 
will, between those moneys and how it directly affects the 
number of volunteers, if you will, you're able to put in place, 
how the volunteer's supported, and talk a little bit about the 
direct relationship there.
    Mr. Tschetter. Well, in the 73 countries we're in, every 
country requires a certain infrastructure of support and 
staffing. Whether there are 100 or 120 volunteers oftentimes 
doesn't have a major, major economic impact. And so, I've asked 
our financial staff, ``What does $10 million mean to the 
agency?'' The response is with an additional $10 million, the 
Peace Corps can add something in the neighborhood of 150 to 200 
volunteers and open at least one new country with that amount 
of money. So, that kind of puts in perspective the relevancy of 
how $10 million impacts the Peace Corps.
    You know, we have a small budget, and we do an amazing 
amount of work with that money, and having a tremendous impact 
around the globe, with almost 8,000 volunteers serving in the 
countries that we're in.
    Senator Corker. It looks to me that the bill itself, again, 
was put forth, I know, for discussion and to try to strengthen 
the Peace Corps, but looks like the bill, in many ways, 
codifies things that may otherwise be, sort of, management 
types of issues. And one of the things that I've seen a great 
deal of, more than any of us, I think, would like to see within 
much of what we do in foreign relations and this type of work, 
is tremendous bureaucracies and hands being tied and 
inabilities to do things. And it looks like your major 
criticism of this bill, as drafted, is that, in many ways, it 
does even more of that than already exists. And I wonder if you 
would expand a little bit on that.
    Mr. Tschetter. Well, as I mentioned in my brief opening 
remarks, there are a number of initiatives in the bill that the 
agency is already involved in and is already doing. You know, 
that we have VAC committees, we have the Peace Corps 
Partnership Program, which gives access to funds in a 
controlled and managed way. And I think that's really 
important, because, we are not a funding agency, we are a 
grassroots agency serving the people at the local level, 
building those relationships and understandings, and leaving 
behind a better environment, whether it's in a classroom or in 
a health initiative or in an agricultural initiative or an HIV/
AIDS educational initiative, which, as you know, are some of 
the major programs that we're involved in.
    So, to open up the funding to a point where we become 
viewed as a funding agency really changes a lot of the dynamics 
of what the Peace Corps is all about and what the Peace Corps 
is really supposed to be accomplishing in the countries we 
serve.
    So, in my opinion is that we have a mechanism in place--by 
the way, my opinion is also that we have not leveraged that 
mechanism to the maximum, that there is more potential in the 
Peace Corps Partnership Program yet to be expanded on. And, as 
a consequence of that, matter of fact, within the last few 
weeks I have installed new leadership to take us to new levels 
of progress and success there, as an example.
    Senator Corker. On the funding piece, give us a vivid 
example, if you will, of--if the funding mechanism that's been 
contemplated in this bill were in place, and volunteers were 
able to do some of things it contemplates, give us a--sort of, 
an example of the type of management issue or, let me say, 
divergence from the Peace Corps mission that might create.
    Mr. Tschetter. Yes. Well, I guess, as proposed, it would be 
a grantmaking initiative, and that takes a whole different kind 
of expertise, and we'd have to set up a separate department to 
manage----
    Senator Corker. Let me just--I'm not clear about--is it 
grantmaking or is it volunteers raising money to do specific 
projects in areas that they're working on, that they'd like to 
see done that, otherwise, they wouldn't have the resources to 
do?
    Mr. Tschetter. They can do that today through the Peace 
Corps Partnership Program. Currently, we have on our Web site 
80 requests from Peace Corps volunteers in the field for moneys 
for various projects. We're actually in the process of 
fulfilling over 300 requests right now. So, there's a lot of 
activity. Last year, we fulfilled 435 requests, and the total 
amount that was handed out, if you will, that was raised, was 
$1.4 million. This money came in from the private sector--
primarily from individual donations that were then doled out to 
the volunteers, as per their requests.
    I'll give you an example of one that I observed. I was in 
Swaziland, in a very remote part of the country. I was taken to 
a really shoddy small two-room school for AIDS victims, and it 
was an environment that you wouldn't want children to be in. 
The volunteer, a young lady from Iowa, by the way, saw the need 
for a very simple two-room classroom. The cost of this was 
going to be around $10,000, so she posted her request. Word 
about her project got back to her friends in Iowa and other 
people around the globe. And one of the things that we require 
when funding like this takes place is that the community 
becomes involved in the giving, as well. And so, in this case, 
about half of the money came from the Peace Corps Partnership 
Program through contributions of individuals in America, and 
the other half was sweat equity that the local community 
provided, as well as materials that the local community 
provided, in addition to the moneys that were used to buy 
materials. I observed not only the young volunteer carrying 
bricks up the ladder but I observed grandmothers doing it and 
others with great pride. And the reason the grandmothers were 
doing it is because the mothers had passed on as a result of 
AIDS.
    And so, it's just one example of the kinds of projects that 
our volunteers get--become involved in and make a tremendous 
difference in the service around the world.
    The size of our Peace Corps Partnership donations last year 
ranged from $64 to about $24,000, so that gives you an idea of 
the wide array of projects that are supported through this 
program.
    Senator Corker. And----
    Mr. Tschetter. So, my position is, we have a mechanism in 
place. It works well. We have accountability that goes with it 
and all the aspects from the legal perspective are taken care 
of. As such, I think there's more potential within this 
program.
    Senator Corker. But how would that be--again, I'm unclear 
as to how it would be changed, per the way this bill 
contemplates. I know, right now you obviously--it's an 
empowering deal, it's teaching people how to fish instead of 
giving them fish. It's that same mentality that's been so 
successful in many other areas. But I'm not clear as to what 
changes this legislation creates that dampens that. And if you 
would illuminate that, I'd appreciate it.
    Mr. Tschetter. As I understand the language in the bill, 
the volunteers would be able to solicit funds directly from 
family at home, which would come directly to them. There would 
be no control, no oversight or management of those moneys. 
They'd flow directly from the source to the volunteer, as 
opposed to through a mechanism that can have oversight to make 
sure that the monies are appropriately placed.
    Senator Dodd. If I could--since I'm the author of it, it 
would require the director of the Peace Corps program per 
country to have to approve it coming in. This has been a 
longstanding practice, I'm sure you probably did the same thing 
I did. I can tell you, as a volunteer, I solicited support--in 
my case, it was baseball equipment from Connecticut to my 
mountain village in the Dominican Republic. It wasn't exactly a 
grant application. The Peace Corps didn't approve it, 40 years 
ago. A bunch of local people back home got together and 
packaged up some stuff and sent it down. Now, obviously that's 
one example. That's gone on in literally thousands and 
thousands of cases over the years. And a lot of this has 
happened over the years. I know of examples where people did 
this without Peace Corps approval--but I am certainly aware 
that volunteers were soliciting support back home from groups 
to support an activity in their community.
    So, we thought, rather than just having this go on this 
way, Senator, to try to set up some mechanism in many of these 
cases here, because there is a danger--and you're right to 
raise questions, this could get out of hand here and cause some 
problems under my legislation, the country director would have 
to approve this. So, it wouldn't be just a question of the 
volunteer bringing that in without some authorization being 
given in order to get some control over this, if we could. So, 
that's the idea.
    Senator Corker. And since you're the author, but not the 
witness, but I've got--let me ask, would it--and you would 
contemplate in this that the same type of balance, where there 
had to be sweat equity, there would have to be the same type of 
formula--is that what you would contemplate?
    Senator Dodd. That's the idea of having the country 
director being involved in this way, so that you'd have some 
supervision over what was occurring here. And, obviously, those 
kinds of considerations, I presume, will be taken into 
consideration. We should try not to be so rigid in this 
process. The whole idea is to solicit additional funds for the 
Peace Corps. You know, when we talk about the money for this 
annual budget for the Peace Corps here--just to put it in 
perspective for you--this is one day in Iraq. The entire budget 
for the Peace Corps for a year, is one day. It's $300 million a 
day in Iraq. So, we're talking about, you know, $10 and $20 
million to do something here. That's a matter of hours here. 
For 7,000 volunteers in 70 countries to make a difference in 
the world, one day in Iraq--$10 billion a month.
    So, with all due respect, we're spending a lot of time on 
this stuff, and when you start talking about it, and I want to 
be careful about comparisons here, but too often I think we 
fail to understand the value of what a program like this can 
mean to us around the world. We're trying to regain the moral 
authority and the respect that we need to achieve here.
    But obviously, this is a beginning, and any ideas and 
suggestions you might have in trying to make this work right 
would be welcomed--I just tried to come up with a system here 
that's been going on for basically the length of the Peace 
Corps, where people have been supporting and contributing to 
projects on site. We need to address how they can do it in a 
way that makes sense and furthers the goals and helps 
volunteers achieve their goals here. That was the idea, 
really----
    Senator Corker. And I know my time's up. I'd just make 
one--I don't know if we're going to come back around for second 
rounds or not, but, you know, I think this is actually a really 
interesting exercise, I do. And, again, I appreciate the 
contributions the Senator has made in proposing this bill, and 
your contributions and leadership.
    I'm wondering if you would consider, in a, you know, 
paragraph-by-paragraph way, to sort of respond to some of the 
kind of things that Senator Dodd just laid out, and ways of 
taking what he has done, which obviously has a large volunteer 
slant to it, which is not bad, not bad at all, and take that 
and, maybe, massage it in such a way, in response back to us, 
that we could look at it and, maybe, potentially make changes 
to the legislation that really created what, in your opinion, 
would be a balance to really empower the volunteers to do the 
best job they can possibly do, at the same time keep within the 
Peace Corps the ability to actually run the organization and 
cause it to have the mission that it's set out to do. Yeah, I 
wonder if you could do that.
    Mr. Tschetter. Absolutely. I would welcome the opportunity.

    [The information referred to above, follows:]


Response from Mr. Tschetter:
    With regard to Senator Corker's request to expand on the Chairman's 
comments regarding funding for volunteer projects, the Agency shares 
the Chairman's sentiments about the need to support volunteers in their 
work and the incredible impact they make every day around the world. 
However, the Agency cannot support Title I, Sec. 101 of S. 732: ``Seed 
Funding for Volunteer Projects,'' as written, as the additional funding 
sources detailed in this bill for volunteer projects could create legal 
problems, accountability concerns, safety and security issues for 
volunteers, and is oposed by nearly all Peace Corps country directors 
surveyed about the proposal.
    While applying for funds through approved sources (such as the 
Peace Corps Partnership Program, U.S. Agency for International 
Development, U.S. Embassy funds, etc.) for a particular project is 
acceptable, a volunteer should not be seen as a constant source of 
funds. One of a Peace Corps volunteer's main objectives is to integrate 
into a community and work among its host country citizens at the 
grassroots level and to help the community help themselves. When a 
volunteer raises money through the Peace Corps Partnership Program, 
they are required to have community buy-in for the project, meaning the 
community raises the matching funds required. When a volunteer 
eventually leaves the community they have left not only a water well, 
for example, but a valuable lesson to the community on how they can 
raise their own funds to achieve something and how to become more 
sustainable. Simply allocating additional funds to a community may not 
leave the lesson behind on which no dollar value can be placed. The 
Peace Corps has never been a funding institution and plays a unique 
role in the world of development that should be maintained. Volunteers 
should not be requested by host countries or placed in a particular 
community for their ability to raise funds.
    As mentioned earlier, the Peace Corps Partnership Program, 
administered by the Office of Private Sector Initiatives (OPSI) at the 
Peace Corps, is already a proven vehicle to allow volunteers to accept 
appropriate funds for specific projects.
    Additionally, the Agency has made some recent changes to the 
Partnership Program over the last several months, such as the revision 
of the manual section setting out the policies and procedures for the 
program in order to make it more user friendly; the creation of a Peace 
Corps Partnership Program volunteer handbook; several new forms, 
including the application form for funding that has been updated and 
made more accessible for volunteers; an updated website that has become 
more user friendly and easier for donors to give money on-line: http://
www.peacecorps.gov/index.cfm?shell=resources.donors; creation of a 
quarterly newsletter to share current news about the office to RPCV 
groups, posts, regional offices, and donors; and a video is being 
produced about the Peace Corps Partnership Program to share with all 
interested individuals (expected completion date: end of 2007).



    Mr. Tschetter. In fact, I was thinking, as Senator Dodd was 
explaining, his approach to this part of the bill, about what 
we're doing already, through the Peace Corps Partnership 
Program, for example, and concept that Senator Dodd presented--
we need to sit down and talk about the give-and-take of making 
this work better all around. That's really what we're 
suggesting, and I'd be more than happy----
    Senator Dodd. We'd welcome that, as well.
    Mr. Tschetter [continuing]. To do that.
    Senator Dodd. Senator Coleman has been a chairman of this 
subcommittee, and did a lot of work when he was in that 
capacity, and we thank him. Thank you for coming this morning.
    Senator Coleman. Thank you, Mr. Chairman. And I have a deep 
interest in the success of the Peace Corps. Minnesota--the 
director comes as a Minnesotan, and we have, I think, one of 
the strongest Peace Corps alumni associations in the country. 
It's very, very important to my State, and I think this is kind 
of part of the Minnesota fabric of who we are.
    I will say, Mr. Chairman, my concern about--as I look at 
this bill--and let me first ask you, Director, were you at all 
involved in the writing of this bill?
    Mr. Tschetter. No.
    Senator Coleman. Were your----
    Mr. Tschetter. I had no involvement.
    Senator Coleman. Were your opinions solicited before 
provisions were written? Did you have discussion with staff? 
Did you have any opportunity to have input----
    Mr. Tschetter. No.
    Senator Coleman [continuing]. To the development of the 
bill?
    Mr. Tschetter. No.
    Senator Coleman. My concern, Mr. Chairman, of--Senator 
Corker talking about a volunteer slant--Director, you were a 
volunteer, is that correct?
    Mr. Tschetter. Yes; I was.
    Senator Coleman. And your wife is a volunteer?
    Mr. Tschetter. Yes.
    Senator Coleman. And many folks in management were 
volunteers?
    Mr. Tschetter. Yes.
    Senator Coleman. So, I'm confused as to whether there is a 
volunteer slant or perhaps particular--I have--let me step 
back.
    I presume, among volunteers, there are different 
perspectives on how to do things. Kind of, if you had a group 
of--if I got a group of farmers together--I get three together, 
I often get four opinions.
    Mr. Tschetter. Right.
    Senator Coleman. But they're all farmers. And so, I would 
just question whether this is a ``volunteer slant'' or simply 
the slant of particular volunteers who were involved of the 
writing of the bill. And what I would hope--and I want to 
follow up on the comments of Senator Corker--that you do come 
back and present the perspective--but I'm not saying this is 
one of management versus volunteers. I don't want to testify 
for you, but I--would it be fair to say that--Director 
Tschetter, as you look at what volunteers do, you do--do you do 
it with a concern about the perspective of volunteers and----
    Mr. Tschetter. Absolutely.
    Senator Coleman [continuing]. Safety of volunteers?
    Mr. Tschetter. Absolutely.
    Senator Coleman. You mention in your testimony that you'd 
be--you're concerned that some of the provisions of the bill 
could potentially undermine the safety of Peace Corps 
volunteers. And I know that's a critical issue. We addressed it 
during my chairmanship. There were a series of articles 
written, I think, in an Ohio paper, about the safety issue. And 
we had hearings about that. Can you talk a little bit about--a 
little more detail as to what in this bill, from your 
perspective----
    Mr. Tschetter. Right. Well----
    Senator Coleman [continuing]. Would undermine safety?
    Mr. Tschetter [continuing]. Certainly, safety and security 
is our No. 1, No. 2, and No. 3 priority at the Peace Corps. And 
it is something that is addressed and talked about and paid 
attention to literally every day. And one of the things I look 
for when I visit countries and I ask volunteers about their 
feelings about safety and security as it pertains to their 
particular volunteer work in the community they're living in, 
in the transportation they have to use, etc.--so, it's a major 
issue that we have at the Peace Corps.
    There are two or three components of the bill that do 
concern me, from a safety and security standpoint. One is the 
whole fundraising issue. And we are an agency of people that 
give of themselves and their expertise, and that's the 
fundamental groundwork of what we do and how we do it. If, now, 
this shifts because the volunteers are spending more of their 
time raising money, it changes the whole perspective of the 
volunteers in the communities they're serving in, and I would 
be concerned about how they're viewed. This could ultimately 
lead to a safety and security issue.
    There's another matter in the bill, that talks about 
publishing of articles and the open-endedness of that, without 
scrutiny, if you will--and those are my words, the bill doesn't 
use those words--and that is so critically important to us at 
the Peace Corps, what our volunteers say and write. And it goes 
back to the 1960s. And you might recall the Nigeria postcard of 
the 1960s that a volunteer wrote from his hotel room that 
created an immense stir in that country. And so, our country 
directors are fully responsible to make sure that we have sound 
relationships as we work within the countries we serve in, that 
we do not offend the culture, that relationally we are 
appropriately operating. And that's why we require volunteers 
to run past their country director the concept and the idea of 
what they want to publish, what they want to put on their blog, 
what they want to send on their e-mails. And it's all with 
regards to the relationship within the countries we're serving 
in, and being sensitive to those cultures. Things that may look 
innocuous, that may look innocent from a volunteer's 
perspective, might appear differently to our country director 
and their staff, and they would need to dialog with the 
volunteer on it. So, that's another area of safety and security 
that I think could pose a degree of risk, actually.
    Then, there's some administrative separation language that 
is in the bill that does concern me, as well, and primarily as 
it pertains to what a volunteer would not be able to be 
separated for. For example, from a safety and security 
standpoint, we require that when a volunteer is away from his 
or her site that the country director is informed of that, so 
they know exactly where our volunteers are all the time. And 
it's a clear safety and security issue. And if the language, as 
it pertains to administrative separation, prevents that, that 
creates a safety and security issue that I would be quite 
concerned about, actually.
    So, those are the kinds of issues that we would need to 
address, and I am more than happy and willing to sit down and 
dialog about these at whatever length necessary so that we 
understand each other and we can amicably and mutually agree on 
the right way that these issues should be resolved.
    Senator Coleman. In regard to the issue about what 
volunteers can publish, do you know what the--I'd be 
interested, but I don't know what the answer to this--in the 
State Department, do you know whether there are similar 
limitations for State Department personnel on things that they 
write or they publish?
    Mr. Tschetter. I really do not know, but I would assume 
there is.
    Senator Coleman. Probably worth looking at, just----
    Mr. Tschetter. Yes.
    Senator Coleman [continuing]. To see----
    Mr. Tschetter. We will do that.
    Senator Coleman [continuing]. And to check with the policy. 
Again, I have no idea what those policy--I presume it's the 
same thought. In fact, I could tell you, I had some deep 
disagreement with the State Department, who took some action 
against an ambassador who published and said something that was 
contrary to policy and created great difficulty then, within 
that country, and--but I--in speaking with the Secretary and 
the Under Secretary, they expressed to me their concern about 
having one Secretary of State and one policy, and the 
complications that can arise from that. So, I think it's 
worth--I think it's certainly worth looking at.
    I would hope that you sit down with, by the way, 
volunteers. And so, it's--this is not--you know, in some 
instances, you may have a director who's got perspectives very 
separate from all the volunteers. My sense here, as I look at 
this and I listen to your testimony, that there are some very 
good ideas that have come from some volunteers. I presume 
that's a source of what this--these--this bill--you know, from 
whence this bill flows. On the other hand, I suspect that there 
are other volunteers--and you being a former volunteer, as well 
as the director--who have different perspectives and have 
different concerns. And certainly, before I can move forward on 
this, I'd really like to make sure that it has--that we get a 
full vetting, that you sit down--but it's not just management 
versus----
    Mr. Tschetter. Right.
    Senator Coleman [continuing]. Volunteer, that it is from a 
volunteers' perspective that we get some feedback, and then, in 
the end, figure out what the right policy is. But I--again, I 
think it would be critically important to have your insight and 
response and participation.
    Senator Dodd. What do you think this hearing's about?
    Senator Coleman. Part of it, and we'll get where it----
    Senator Dodd. Who is this person, right here?
    Senator Coleman [continuing]. I--Mr. Chairman----
    Senator Dodd. He's the director.
    Senator Coleman [continuing]. I do have the floor, and I--
--
    Senator Dodd. Is that the director?
    Senator Coleman. That is the director, and I----
    Senator Dodd. All right.
    Senator Coleman [continuing]. And I've got my--but I'm just 
saying, and I'll say it very clearly, I think it's rather 
absurd to be--to have a director coming up here and not 
participating in a bill that's talking about volunteer 
empowerment.
    Senator Dodd. Is the Senator telling me that all the bills 
he's written over the years, he's always contacted everyone in 
every agency that he's writing the bill about?
    Senator Coleman. I----
    Senator Dodd. Have you done that all the time?
    Senator Coleman. I don't know about every time, but----
    Senator Dodd. Of course not.
    Senator Coleman [continuing]. I think if I--I'm just 
telling you what I need. I'm telling you what I need. And what 
I need is--if I'm going to be acting and responding to a bill 
on the Peace Corps, it's supposed to be the Peace Corps 
Volunteer Empowerment Act, I'd like to know the--from the head 
of the Peace Corps--and so, we're getting it, and I'm making 
the request, that, beyond just this written testimony, that, in 
fact--plus his oral testimony--that, in fact, you come back, as 
Senator Corker has raised--and, I also want to make it clear--
not just you. What I'm looking for is--I'd like to make sure 
that there is, you know, further input from other volunteers, 
and then, in the end, I'll be able to make a judgment about 
that.
    Senator Dodd. Well, I hope the Senator will stay for the 
whole hearing; he'll hear a lot of people here this morning.
    And, by the way, volunteers are not employees of the 
Federal Government. Surprising, the former chairman of the 
committee would understand that the Peace Corps volunteer is a 
very different creature than the State Department employee 
here. And just basic understanding of the Peace Corps Act and 
the role of volunteers and the purpose of volunteers is very 
fundamentally different than a State Department employee, and 
how they're treated, and how they're helped, and how they work 
with the director of the country, and what responsibilities 
they have, as well.
    Let me, if I can, go into the medical screening issue, Mr. 
Director. Based on the input from applicants and volunteers, 
most of the criticism we received centers on the medical 
screening portions of the application process. I'd like to know 
what--the average length of medical screening phase of the 
application process is, and what's the average cost?
    Mr. Tschetter. First of all, Senator Dodd, the medical 
screening process is probably our biggest challenge in the 
whole volunteer application process, no question about that. 
And, it was brought home to bear as we sat down and talked 
about the 50-plus initiative with our recruiting people--now 
that there are baby boomers that have 30 years in service of 
expertise in whatever profession they've been in.
    And when they have to fill out that medical clearing 
questionnaire, clearly they will have more yeses when the 
questions are asked, ``Have you ever had,'' or, ``Have you ever 
encountered,'' or ``experienced,'' or whatever the medical 
question is. And anytime there's a yes, it needs to be followed 
up on. We have some real challenges in front of us with regard 
to streamlining the medical clearing process, I recognize that. 
And what the 50-plus initiative has done has really caused us 
to sit down and take a look at the process, whether it's 50-
plus or 20-plus in age. And so, it's going to help us 
throughout the entire screening process, not just the 50-plus 
initiative.
    We also have an investigation, if you may, going on through 
the Office of the Inspector General right now--their work is 
not yet complete--but I am eagerly awaiting their response and 
their report, and will certainly take the findings that they 
have encountered and come up with ways to resolve some of these 
matters.
    A typical Peace Corps application, across the board today, 
is about a 9-month process, the turnaround time, the average. 
That's long. And I'd like to shorten that, as well. And clearly 
the medical screening part of it is the longest single consumer 
of time in that process. And it's longer when you're 50-plus, 
because there are just more issues that need to be followed up 
on.
    So, the request to pay for all of the additional tests is 
the one that is the largest single budgetary item of cost. 
That's about a $10 million cost, versus today we spend about $1 
million a year on additional tests that are requested, and the 
rest is either borne by the applicant or by their insurance 
carrier.
    Senator Dodd. Do you have any idea what those costs are to 
the applicant?
    Mr. Tschetter. On average?
    Senator Dodd. On average.
    Mr. Tschetter. I really don't have a good average number on 
that. We have an amount that we pay for the initial appointment 
with the doctor and for the dental checkup and the eye checkups 
and so on, but the additional tests, on average, I do not know 
what that cost is; no.
    Senator Dodd. It may be worthwhile--because, again, we 
talked about this, and you're concerned about some of the costs 
associated with that--and, again, anecdotal evidence is exactly 
what it is, anecdotal evidence. But having a nephew now serving 
in the Peace Corps in Africa, knowing that months that were 
delayed because of a medical question that just took forever to 
get resolved back and forth--one which turned out not to be a 
serious one in the end--but, nonetheless, this might have 
discouraged another applicant from continuing the process, 
taking as long as it does. And, of course, we're talking about 
recruiting people across the economic spectrum, those that are 
not as well off, and we're trying to attract more and more 
volunteers coming from the communities that aren't necessarily 
in a position as to afford the additional costs associated with 
the kind of additional medical examinations that are required 
here, so I would strongly urge, as a way to try to bring down 
that cost, not miss people who might otherwise be willing to 
continue the process. This is something very, very valuable.
    Mr. Tschetter. It is a major issue with us, and I fully 
would agree with you, that we need to review and look at all 
components of this process, and we are doing that. And the 
other part of it, that our IG's office is looking into, is why 
those 50-plusers that have, somewhere along the process, 
decided not to go forward, it'll be of value for us to 
understand why and when they dropped out, and may give us some 
insight into how we may change some of this process. This is 
work in progress, and this is----
    Senator Dodd. Yes.
    Mr. Tschetter [continuing]. Work that needs to be done, 
there is no question about it.
    Senator Dodd. And particularly with a lot of the older 
volunteers, as well, obviously, as you point out what happens 
with the aging process. But, nonetheless, considering the 
tremendous abilities and talents that retirees or people who 
want to take their life experiences and share them, it seems to 
me that looking for ways in which that person might be able to 
fit into a situation that would be less medically challenging 
than others would be very worthwhile here. And I just can't 
tell you the number of people I've encountered who would love 
to have that experience, would like to do it, but feel as 
though they're going to not be able to get through this process 
because of medical issues that arise.
    Now, some are so serious, obviously you can't run the risk, 
but with others, it seems to me we ought to try and have much 
more flexibility inorder to take advantage of these talents out 
there, and considering the value they can provide for these 
communities or people where we want to serve, have some way to 
judge that a bit differently, again, so that we're not losing 
the talents of people who might otherwise serve. What are we 
doing about that? What steps has the Peace Corps taken to try 
and have some sort of differentiating criteria when it comes to 
older people? Are we setting the same standard for the 22-year-
old we do for the 65-year-old?
    Mr. Tschetter. No. We do have some flexibility and do make 
exceptions, and--there's two or three things that we're doing. 
First of all, we have 9--I'm sorry, we have 10 pilot countries 
that are part of the 50-plus-initiative guidance. And so, we're 
relying heavily on those countries with regard to the 50-plus 
people that they have. And, for example, South Africa is one of 
them. And I've met with 18 50-plus volunteers in Johannesburg 
not too long ago. We had a delightful, insightful conversation 
about, first of all, the challenges that they had to go through 
medically as they were applying, and now the experiences 
they're having in country.
    So, we try to be real flexible with regards to the medical 
issue that's there, and, if possible, make an exception, to 
place them near the kinds of medical help that they may need.
    So, we're paying a lot of attention to the medical issues, 
especially in the 50-plus area, and it is not, across the 
board, the same standard that a 22-year-old would be required 
to have, medically. So, there's work in progress on that right 
now.
    Senator Dodd. I know one of the things we're trying to do, 
obviously, is to try and recruit, where we can, some more 
experienced----
    Mr. Tschetter. Yes.
    Senator Dodd [continuing]. Volunteers, and obviously the 
very effort to achieve that goal depends upon the ability to 
attract people who have experience.
    Mr. Tschetter. Right.
    Senator Dodd. And so, the medical issue becomes a barrier, 
in a sense, to achieving that goal. So, my hope is, you'll 
continue to pursue that. And I'd like to know exactly what 
those medical costs are, being borne by an applicant, and 
whether or not that's having any adverse effect on the number 
of people, we're trying to recruit from various sectors of our 
economy and country here, from actually completing the process 
or even beginning the process, to begin with.
    Mr. Tschetter. I'll get some answers for you.
    Senator Dodd. All right. And that will be helpful.

    [The information referred to above, follows:]


Response from Mr. Tschetter:
    At present, the agency only tracks the cost of the fixed 
reimbursement amounts given to applicants for required medical tests 
based on gender and age. These tests cost the Agency approximately one 
million dollars annually. We understand that the OIG in its evaluation 
of the Peace Corps' medical clearance process may have sought to obtain 
anecdotal information on this subject. We have no way of knowing, 
outside of the fixed reimbursements that Peace Corps pays, how much an 
applicant may have paid for additional medical exams or tests needed as 
part of the medical screening process.


    Senator Dodd. Let me raise, if I can with you, the third-
goal issue. And, again, this is an issue that's been talked 
about since the Peace Corps's inception----
    Mr. Tschetter. Yes.
    Senator Dodd [continuing]. A way to try and take advantage 
of the 180,000 of us that have come back, and who want to find 
ways to participate. And so, it's always been a struggle to 
find ways to give fulfillment to that third goal. I was talking 
to Harris Wofford, who was actually with President Kennedy the 
day they launched off the first volunteers from the South Lawn 
of the White House. And according to Harris Wofford, they 
walked back into the Oval Office that day, and President 
Kennedy turned to whoever was gathered there and said, ``You 
know, this is going to be remarkable,'' words to that effect, 
``that in--40 or 50 years from now, there'll have been a 
million returned volunteers. Obviously, the number is far short 
of that goal, at 180,000. But the point he wanted to make was 
what a valuable asset this will be, to have that many people in 
the country who will have had experience in other nations, 
bringing that back, and giving this country a better 
opportunity to have a world view, to understand what other 
people's aspirations and hopes are, and the like.
    And so, to a large extent, that idea of not only 
volunteers, giving the world a better view of who we are, as 
Americans, but, of course, coming back and giving Americans a 
better opportunity to view what the rest of the world was like, 
has been critically important.
    And so, I wonder what we can do here. The provisions in 
this bill that we would establish to fund a--dedicated to 
supporting the third-goal activities I've laid out here. What 
is your reaction to that, Mr. Director?
    Mr. Tschetter. I was really encouraged to see third goal as 
a part of the bill. I clearly believe that the third goal is 
our weakest link in the Peace Corps's 46 years of success. 
However, I will add that I think there's a lot more that has 
happened, positively, with regard to the third goal in America 
than any of us realize. It's immeasurable. As an example, I can 
think of my wife's and my experiences as returned volunteers. I 
don't know how many talks we've given on the Peace Corps in our 
Peace Corps experience. Hundreds over the 40 years.
    Senator Dodd. Yes.
    Mr. Tschetter. Did we keep track of them? No, not really.
    Senator Dodd. Yes.
    Mr. Tschetter. But, as recently as 2 months before I came--
became director of the Peace Corps, I gave a talk at a service 
club, on the Peace Corps. And the people were as interested 
then as they--had I walked off the airplane from India the day 
before, and it was 40 years of stories.
    So, there's a real opportunity here, and a real challenge. 
So, I really look forward to the opportunity to sit down with 
the subcommittee or the appropriate group to talk about how we 
can strengthen the third-goal success. The $10 million, of 
course, would need to come from somewhere, if we went forward 
with that, so we'd need to wrestle that issue to the ground. 
I'm intrigued, however, with the idea of a foundation and 
attracting outside funds to create a Peace Corps Foundation 
that could then be utilized in third-goal initiatives. So, I'm 
very supportive of it. It is not one of my three major 
initiatives that I launched earlier this year, but I can easily 
be talked into putting that high on my list of matters to give 
attention to, so I welcome the opportunity.
    Senator Dodd. Well----
    Mr. Tschetter. I think, together, we can figure out 
something that will make sense, and make a difference.
    Senator Dodd. Yes. And I want to come back to the issue of 
dealing with the communications and comments and so forth. I'm 
a little concerned that if we end up having sort of a policy, 
here, given this day and age, of limiting, in some ways, 
people's ability to communicate freely as volunteers, we'll end 
up causing some restraints here that I would be worried about. 
Again, given the nature of what a Peace Corps volunteer is, and 
I think that there is some confusion about the role of 
volunteers in this organization--an organization dedicated, as 
you pointed out appropriately in your opening comments here, to 
the volunteer. This is a whole different concept compared to 
the relationship between Federal agencies and Federal 
employees. And getting people to understand that fundamental 
distinction sometimes is difficult. Dealing with a volunteer is 
different than dealing with employees involved in an agency, or 
a congressional office, for that matter. And with that in mind, 
we have to be wary of excessive restraint on communication. 
This is something that I'm very worried about. And I gather you 
are, as well, so----
    Mr. Tschetter. Yes. And may I just comment; that, again, I 
think it is an issue that we should sit down and try to resolve 
it in a way that makes sense both from a first amendment 
standpoint, as well as from the issues that our country 
directors face with regards to the impact they may have on the 
country. So, it's certainly a resolvable matter that we'd be 
willing to wrestle to the ground.
    Senator Dodd. Thanks very much.
    Senator Corker.
    Senator Corker. Mr. Chairman, I know we have some other 
witnesses, and probably need to move on to them. I'm going to 
just be fairly brief, anyway, and that is to, first of all, 
say, I think we have a person heading the Peace Corps that is 
unique, from the standpoint of how they've arrived at the Peace 
Corps. He's been there 10 months. And I know that the way that 
we, as Senators, deal with issues is through legislation. 
That's just what we do. And the way that management deals with 
issues is through making sure they have good management 
principles in place, and guidelines, and those kinds of things. 
And I think that sometimes in our striving to make an 
organization better, from the Senate side, if you will, we can 
create laws that can, in fact, have a good purpose, but maybe 
hamstring. And I think what we have here is someone who can 
give us constructive input. I think that the bill that you've 
put forth has truly caused us to raise some good questions, but 
I think they're questions that Mr. Tschetter can respond to. 
And what I hope will happen, and I know will happen, is that 
hopefully he'll respond and we'll have the opportunity to, 
maybe, look at this legislation, amended, if you will, to 
really take into account the balance between some goals that 
the legislation has, but balance that with some management 
objectives, to really give it the flexibility to bring out the 
best in the organization and truly empower the volunteers. So, 
I look forward to that.
    I would like to say that, in this testimony--and this is 
certainly my first with the Peace Corps--I am struck by the 
length of time that it takes to become a Peace Corps volunteer. 
If I had had 9 months to think about running for the Senate, I 
am sure I would be doing something else. That's a long time. 
[Laughter.]
    I'm very glad to be here, but--it seems that people do, in 
their life, reach a point where they want to do something 
meaningful, and this happens over and over and over again, I 
know, in people's lives. But it seems like, to be able to catch 
those people when they're available and when they're ready is 
an important thing for the Peace Corps to be able to do.
    I would like for you to just expand a little bit on--how 
long should it take. I mean, 9 months is--for a volunteer, is a 
long, long time, and people have other things in life they need 
to do, and want to do. So, what would be a goal of management? 
Two months? Thirty days? Two weeks?
    Mr. Tschetter. No. [Laughter.]
    Well, that's a very difficult one to answer. It's an 
interesting process, because, first of all, the person has to 
get cleared, if you will, from a safety and security 
standpoint, and then the background check. Then there's the 
medical process, which hangs over that, and that is clearly the 
longest piece of the process. And then, of course, there's the 
matching of the individual to the need, to taking the skill set 
and matching it to the country, and putting that all together. 
So, there are some valid reasons for the length of time.
    Is 9 months too long? I think it is. If you were to press 
me on a number, I'd say, ``We should be able to do this in 6 
months.'' But, when I look at the reality of all the pieces 
that have to move through the volunteering process, I can't see 
it being a 2-month process, or even a 3-month. Sometimes it 
does happen. I saw a volunteer in Jamaica, just a couple of 
weeks ago, and, as we were dialoging--she said she was cleared 
in less than 3 months. So, it's a timing issue. It matched up 
with her graduation from the university and the need of that 
program, which left on July 4th for Jamaica, and so on.
    So, there's a lot of dynamics that impact the length of 
time, but I think we can make a difference in that timeframe, 
and clearly the medical clearing process would be probably the 
biggest single factor that we could streamline to shorten it 
up.
    Senator Corker. Well, it seems to me that--I know you have 
wonderful, wonderful volunteers, but it seems like that many 
really, really good volunteers are, in many cases, like heat-
seeking missiles; I mean, they want to go do something, they 
want to change the world, they want to be involved in that. And 
it does seem like a 9-month process----
    Mr. Tschetter. Yes.
    Senator Corker [continuing]. Doesn't match up to people who 
really want to go out and solve many of the world's problems. 
So, I would stress to you that you really focus on that. I know 
that you have to be prudent and make sure people are matched up 
properly.
    I know that Senator Coleman came in a little bit late, and 
missed a big part of the questioning, so I'm going to defer to 
him, at this point, so we can have time for other witnesses.
    But, thank you very much for your testimony.
    Mr. Tschetter. Thank you.
    Senator Corker. And I look forward to the amended 
supercharged Dodd Peace Corps bill coming back to us.
    Thank you.
    Mr. Tschetter. Thank you.
    Senator Dodd. Senator Coleman.
    Senator Coleman. Thank you, Mr. Chairman. Mr. Chairman, I 
want to assure the chairman, first, that I understand the 
Chair's concerns about excessive constraint, and I know he's 
trying to strike a balance here. And I want to apologize to the 
Chair in my questioning about the--under the input, at all, 
would--in--for any undermining the--of the worthwhileness, the 
integrity of this bill. This--I think if the chairman himself 
just simply dictated things that he thought would make the 
Peace Corps better, that would be worthwhile for the Senate to 
consider, without anybody. I mean, I have--I don't think there 
is a stronger advocate in the U.S. Senate than the chairman, 
and I've seen that in my time here. My job just would have been 
made much easier, perhaps, as I looked at this, to have some 
input from Mr. Tschetter up front, but that's from my 
perspective. But I wanted the chairman to understand that I 
deeply appreciate the kind of commitment and his efforts, and 
whatever he puts on the table starts with the presumption that 
it's worthwhile for me to look at. I just need some other 
information. So, I want to assure that to the chairman.
    Mr. Tschetter, I hope, then, we get the feedback. I want to 
work on this bill, and I'll work with the Chair to--because our 
goal is the same, and that is to strengthen Peace Corps. And I 
appreciate the chairman's leadership in that regard.
    Senator Dodd. Just one point of reference you might check 
on, Director, and I don't know the specifics of this, I should 
remember, but as I recall, when I joined the Army, it was 
pretty quick. [Laughter.]
    Mr. Tschetter. Two weeks. [Laughter.]
    Senator Dodd. They didn't take 9 months to decide they 
wanted me. And I'm not suggesting that this would be that 
quick, but by comparison, I know, if you show up at your 
recruiting station in Alexandria or Maryland somewhere today, 
I'll----
    Mr. Tschetter. Are you suggesting that should be our goal?
    Senator Dodd. No. [Laughter.]
    But I would just guarantee you that they'll accept you 
pretty quickly in the process. So, again, I think, to pick up 
on Senator Corker's comments here, even 6 months may be a 
little long. And, again, in the case of anecdotal evidence, I 
ought to be careful to say how long it is. And, by the way, my 
nephew is having a wonderful, incredible experience. I've been 
a very poor recruiter, given all the nieces and nephews I have, 
I finally got one. [Laughter.]
    But despite his incredible experience, because of a 
relatively minor medical issue it took him almost a year to 
clear. I think it was minor, anyway. So, the idea of getting 
this thing expedited further is clearly something that's got to 
be on the agenda today. And, again, by comparison passing the 
medical tests and so forth to wear the uniform of our country 
is something we do pretty quickly here.
    We'll probably have some additional questions for you, and 
so, we'll submit those and ask you to get back to us, but we 
thank you for your testimony here this morning.
    Now I'd like to invite our next witnesses: Mark Schneider, 
former Director of the Peace Corps, to join us, if I can. And I 
think we are going to bring up David Kotz as well--am I 
pronouncing that correctly--Kotz?
    Mr. Kotz. Kotz, yes.
    Senator Dodd. Yes. David, thank you very much.
    [Pause.]
    Senator Dodd. We thank both of you for being here, and 
we're happy to receive your testimony.
    Good morning. Thank you both for coming.

  STATEMENT OF HON. MARK L. SCHNEIDER, FORMER DIRECTOR OF THE 
PEACE CORPS; SENIOR VICE PRESIDENT AND SPECIAL ADVISOR ON LATIN 
      AMERICA, INTERNATIONAL CRISIS GROUP, WASHINGTON, DC

    Mr. Schneider. Thank you, Mr. Chairman.
    Let me express my appreciation to you, Senator Dodd--you're 
a returned Peace Corps volunteer from my era--for the 
invitation to appear before the subcommittee this morning.
    I think it's clear that every one of the 187,000 returned 
and serving volunteers recognize your commitment and leadership 
over the past four decades in support of the Peace Corps, and 
we thank you for that legacy of leadership.
    I want to thank Senator Corker, Senator Coleman, for having 
been here earlier for support of the Peace Corps.
    My wife and I served as Peace Corps volunteers in El 
Salvador 40 years ago. By the way, she's here today. And those 
2 years at a small barrio on the outskirts of San Salvador were 
still the most demanding and the most rewarding of our lives. 
I, of course, have also had the rare and enormously special 
privilege of being able to serve as Director of the Peace 
Corps, during the last 2 years of the Clinton administration, 
and there's no better job in Washington.
    I've worked in USAID, the State Department, international 
organizations, and now with the International Crisis Group, 
which is a field-based, nonprofit conflict-prevention 
organization that analyzes and reports on the causes of 
conflict in some 60 countries, from Haiti to Pakistan, from 
Iraq to Sudan, from Kosovo to Colombia.
    I've been able to visit volunteers in dozens of countries 
around the world, including on trips since 9/11. I can tell 
this committee, with absolute conviction, that there is no 
other program that the U.S. Government supports that provides 
greater benefit than the Peace Corps: In helping other 
communities build their knowledge and their institutions; in 
conveying to the world around us who we really are as a people 
and as a country, which is more essential today than ever 
before; and in broadening this country's awareness of the 
complexity, challenge, and, really, the common aspirations of 
other peoples around the world.
    And I should say that that's why I'm convinced that this 
legislation contains three critical elements to help the Peace 
Corps double in size to 15,000 volunteers by the time it 
celebrates its 50th anniversary, on March 1, 2011. And those 
elements are, first, of authorizing the necessary funds; 
second, empowering volunteers--and I think that the key here is 
to see that as a means to promote better management, improve 
programming and site selection, and, therefore, safer and more 
satisfied volunteers; and, third, trying to remove some of the 
financial, medical, and bureaucratic obstacles to recruiting 
senior volunteers.
    I would also suggest one other provision for the 
committee's consideration, and that is to recommend to the 
Peace Corps that it pursue additional efforts to recruit people 
of color as Peace Corps volunteers. We've just been creeping 
up, from the time I was Director, when it was just about 15 
percent, to, now, 16 percent of our volunteers coming from 
ethnic and racial minority groups. I still think we can do 
better. And so, I would urge that we consider additional 
targeted steps to do so.
    One example would be expanding the Master's International 
and Peace Corps Fellows Programs at Historically Black and 
Hispanic Colleges and Universities.
    Now, the three elements:
    First, the money. And, simply stated, the resources have 
not matched the rhetoric of those who have called for doubling 
the size of the Peace Corps. This bill provides the 
authorization that's needed, but, as we know, it takes 
appropriations. And so, I would urge the committee to consider 
what it might be able to do to ensure that the first year's 
appropriations in the bill does match the $336 million mark 
approved by the House of Representatives when this measure goes 
to the President for final approval. As you know, the Senate 
Appropriations Committee approved a level much lower.
    Now, there are some 20 countries today that want the Peace 
Corps to either establish or increase the size of their 
volunteer programs. And, as we saw after 9/11, there is an 
actual jump in the number of Peace Corps applicants. And I 
truly believe that if we communicate to potential volunteer 
communities across this country that we have opportunities for 
them to serve, they will come.
    Second, I think the array of measures that are in title 2, 
that are designed to empower volunteers, will, in fact, 
contribute to the Peace Corps's ability to expand by 
contributing to better management, better programs, and greater 
volunteer satisfaction.
    Now, it's crucial--you said it here, and I want to 
underscore--the Peace Corps is about volunteers, not staff. The 
role of staff in Washington, and the role of staff in the 
field, is to find ways to help volunteers to succeed. And I 
think most staff, many of whom are returned Peace Corps 
volunteers, would agree with that sentiment.
    Now, you've heard some of the good news that's reflected in 
the current Peace Corps volunteer survey, and I think it's also 
just impressive, if you've gone through the list of the 
questionnaires, that some 75 percent took the time to fill out 
that questionnaire--92 percent said they definitely intend to 
complete their 2-year term, 80 percent said their host country 
would benefit if the Peace Corps program were maintained or 
expanded. And, by the way, 85 percent now, 88 percent when I 
was Director, said that they would join again, and they would 
recommend to their friends to join. Those--that's the good 
news.
    But, somewhere between 16 and 28 percent, in this latest 
survey, indicated less than full satisfaction with site 
selection, job assignment, and administrative support. 
Similarly, with respect to technical support and project 
feedback from staff. Now, while it's a small percentage, it's a 
significant percentage. It just seems to me that these are 
areas where the kind of measures in the bill to promote greater 
volunteer involvement and empowerment would help.
    Finally, I think you should also view the provisions of the 
bill to encourage seed money going to volunteers as a way to 
empower volunteers. And it's not as if this is new. As you've 
heard, the small project fund at the USAID provides--usually 
for Peace Corps volunteers--exists: The Peace Corps Partnership 
Program. The problem is, from the recent survey, about 40 to 45 
percent of the volunteers have not used those services, have 
not been able to get their projects approved in order to use 
those funds. And I was interested in the discussion--Senator, 
you said it best--when it comes to other sources, Peace Corps 
volunteers, for the last 40 years, they have solicited funding 
for Peace Corps community projects everywhere possible--in the 
community, from businessmen, from local employees of the 
Embassy, from their friends at home, churches, Rotary Clubs, 
you name it. We had a survey question in 1999, and there were 
about 50 different sources of funds the Peace Corps volunteers 
had used.
    With respect to the seed money, the 1 percent that you've 
indicated in the bill, it really just provides an additional 
source of funding to permit more volunteers to use it for those 
kinds of projects; and there's a limitation on the size, which 
I think is appropriate.
    Now, the third way that you've described in this bill to 
move, it seems to me, to expand the size of the Peace Corps 
appropriately is to try and remove the obstacles to recruiting 
experienced volunteers. Medical screening procedures, we know, 
if they're not broken, they're at least slightly impaired, and 
they definitely need to be fixed. And I think the Director's 
indication that they're looking at it, I know that you're going 
to hear from the inspector general about this--but this is an 
area where we must do better.
    And, finally, with respect to the 9 months, that's just too 
long. I was hoping that we would get it down to between 4 and 6 
months, as average. There may be some individual instances. But 
there shouldn't be any reason why we can't do that.
    Finally, just let me mention that volunteers today do much 
the same things that we did, in terms of trying to reduce 
poverty in their countries and to promote change. But some of 
the conditions are different. You now have HIV/AIDS. You now 
have climate change. You have information technology. You have 
to deal with that. And you also have the reality of a reduced 
regard for the United States in many parts of the world. And I 
believe that the Peace Corps has come up with answers in each 
of those areas.
    Generally, the answer comes from the volunteers in the 
field, not from the staff in Washington. And I would just hope 
that this bill would be approved and help us celebrate Peace 
Corps's 50th anniversary, in 4 years, with 15,000 more 
volunteers working across the globe to come up with more of 
those answers.
    Thank you.
    [The prepared statement of Mr. Schneider follows:]


                Prepared Statement of Mark L. Schneider

    I want to express my appreciation to the chairman, Senator Chris 
Dodd, a fellow returned Peace Corps volunteer from my volunteer era, 
for the invitation to appear before the Subcommittee on Western 
Hemisphere, Peace Corps and Narcotics Affairs this morning in support 
of the Peace Corps Volunteer Empowerment Act. Every one of the 187,000 
returned and serving volunteers recognize your commitment, dedication 
and influence over the past four decades in support of the Peace Corps 
and its three goals. We all thank you for that legacy of leadership.
    I also want to express my appreciation to the ranking member 
Senator Bob Corker and the members of the committee for the opportunity 
to appear here today. And although not a member of the committee, I 
want to express the appreciation of the Peace Corps community for your 
original co-sponsor on this legislation, Senator Ted Kennedy, not only 
a friend of the Peace Corps, but my boss for nearly six years a long 
time ago.
    My wife and I served as Peace Corps volunteers in El Salvador 40 
years ago, and those two years in a small barrio on the outskirts of 
San Salvador were the most demanding and the most rewarding of our 
lives. I also had the rare and enormously satisfying privilege of 
serving as director of the Peace Corps for the last two years of the 
Clinton administration. I have worked in USAID, the State Department, 
in international organizations, and now with the International Crisis 
Group, a field-based non-profit organization that analyzes and reports 
on the causes of conflict in some 60 countries.
    I have been able to visit volunteers in dozens of countries around 
the world, including on trips since 9/11. I can tell this Committee 
with absolute conviction that the Peace Corps is the single most cost 
effective investment this country makes in pursuit of its foreign 
policy goals-in helping other communities build their knowledge and 
their institutions, in conveying to the world around us who we really 
are as a people and a country-which is more essential today than ever, 
even more than it was during the Cold War, and in broadening this 
nation's awareness of the global community.
    That is why I am convinced that this legislation contains three 
critical elements to enable the Peace Corps to double in size to 15,000 
volunteers by the time it celebrates its 50th anniversary on 1 March 
2011.
    Those elements are first, authorizing the necessary funds; second, 
empowering volunteers which will mean better management, improved 
programming and site selection, safer and more satisfied volunteers and 
third, removal of financial, medical, and bureaucratic obstacles to 
recruiting senior volunteers.
    I also will suggest one other provision and that is to aggressively 
pursue additional people of color as Peace Corps volunteers. We have 
been creeping up to 16 per cent of our volunteers coming from ethnic 
and racial minority groups. We can do better and I simply would urge 
additional targeted steps to do so--including expanding Master's 
International and the Peace Corps fellows programs at historically 
black and Hispanic colleges and universities.


    Show Me The Money: The first indispensable element in the bill is 
its authorization of the necessary growth in funding in FY 2008, 
through FY 2011 to permit the Peace Corps to reach that goal. It is a 
goal that President Clinton enunciated and that President Bush has 
supported. Simply stated, the resources have not matched the rhetoric. 
This bill provides the authorization. I hope that the committee also 
will act to see that the first year's appropriations of $336 million, 
as passed by the House of Representatives in the FY 2008 State-Foreign 
Operations Appropriations bill will be the final mark when the measure 
goes to the President for his signature.
    As you know there are nearly 20 countries today that want the Peace 
Corps to establish programs. As we saw after 9/11 when there was jump 
in Peace Corps applications, if we communicate to potential volunteer 
communities out across this nation that we have opportunities for them 
to serve, they will come.


    Empower Volunteers: The second element enabling the Peace Corps to 
expand with better management, better programs, and greater volunteer 
satisfaction which I want to endorse is the array of measures in Title 
II to empower volunteers.
    I would emphasize that we are not starting at zero. Just as an 
example-there is a mandate for Volunteer Advisory Committees (VACs) in 
each country in section 202 and then a requirement for staff to listen 
to them. I cannot think of a measure that makes more sense. Most but 
not all countries already have established VACs. Best practices reports 
of the inspector general on safety issues have cited their importance. 
They should be required.
    Empowering volunteers is crucial because the Peace Corps is about 
volunteers, not staff. The role of staff in Washington and in the field 
is to find ways to enable volunteers to succeed. By the way, most 
staff--many of whom are returned volunteers--would agree.
    If you look over the years at the Peace Corps volunteer surveys, 
which now are conducted every two years, and ask volunteers about every 
aspect of their pre-service, training, program, satisfaction, and 
concerns, the strongest link exists between two elements of a 
volunteer's experience, an adequate site where they live and work and 
an adequate program for them to contribute their energies and skills.
    I have personal experience on selecting sites, since my wife and I 
extended for several months specifically to survey all of the existing 
communities in a public health program to check with volunteers on 
potential living quarters and work conditions. As director, I urged 
that volunteers be part of the process of evaluating which existing 
sites and programs should be expanded or replaced. The legislation 
would mandate that requirement.
    The other provisions of the Title II relating to training 
curriculum and staff performance also deserve support.
    Let me just add again, that these provisions build on the lessons 
already learned from volunteer statements in every volunteer survey 
over the past several years, as well as from the thoughtful individual 
volunteer experiences that you are going to hear about from my good 
friend Chuck Ludlum and his wife, Paula Hirschoff. They should be 
commended for their strong commitment to the Peace Corps, displayed 
during their current second volunteer tour in Senegal, their research 
on parts of this bill and their dedication to continued improvement of 
the Peace Corps.
    Let me note there is good news with respect to some of these issues 
in the current 2006 volunteer survey, and in the last volunteer survey 
when I was director. Both show a continuing worldwide global 
satisfaction rate on the part of volunteers that I suspect would be 
hard to match in any organization.
    There were more than 80 individual questions with about a dozen 
choices and then open-ended questions and nearly 75% of all currently 
serving Volunteers responded, which is pretty amazing. In 1998, it was 
the same, slightly lower in 1999. A quick listing of some of the 
results may be particularly relevant.
    Of all volunteers who responded:


   92% said they definitely intended to complete their 2 year term. In 
        1999, it was 93%.

   80% said the host country would benefit if the Peace Corps program 
        were maintained or expanded.

   94% found it rewarding personally.

   85% would probably or definitely join again; in 1999, it was 88%, 
        with the same percentages saying they would recommend to 
        friends.

   95% said they had been moderately, considerably or exceptionally 
        successful in terms of the Peace Corps second goal of helping 
        people from other cultures better understand America.


    However, the surveys also provide additional support for the 
empowerment provisions of the legislation because the views of 
volunteers on staff support continue to be somewhat discouraging. A 
strong majority were adequately, considerably or exceptionally 
satisfied with staff support, but somewhere between 16% and 28% were 
dissatisfied with regard to site selection, job assignment, and 
administrative support, and even greater unhappiness with respect to 
technical support and project feedback. That is too high a negative 
review. In each of these areas, bringing greater Volunteer input into 
decision-making will strengthen Peace Corps management and programming.
    On the positive side, the most satisfaction with staff is in 
relation to safety and health which demonstrates not only that the 
Peace Corps is committing additional resources but also that there is 
more volunteer input.
    I also would add that I believe that the digital Peace Corps will 
enable volunteers to get more of that support from each other by 
tapping into the best practices in their country and region and the 
Peace Corps now and in the past.
    Finally, I would view the provisions of the bill (Section 101, 102) 
that seek to expand volunteer access to seed funding for their projects 
through a Peace Corps fund or by obtaining donations or grants from 
various sources as part of the empowerment process.
    Again, these provisions build on existing programs such as the 
Small Project Assistance Fund at USAID--but in the current survey, 41 
per cent of Volunteers had not used it; the Peace Corps Partnership 
fund, but 44% had not used it; and on ``other'' resources, including 
family friends, service clubs, churches, etc. Here I believe it is 
important to note that Peace Corps volunteers have been soliciting 
anyone they can wherever they can for a long time if they thought it 
would help implement community projects. I can recall wandering around 
San Salvador with the community council members from Colonia San Juan 
Bosco to solicit funds for the community newspaper we were starting.
    In some individual instances, volunteers may not have been 
encouraged to seek outside resources-although I believe that is 
relatively rare--and there also is a constraint that volunteers do not 
want to be seen as ``Daddy Warbucks.'' These provisions encourage the 
use of project funding but do not make it mandatory, which would be a 
mistake.
    The provisions with respect to protecting the rights of Peace Corps 
volunteers also are positive and worthy of support.


    Recruiting Senior Volunteers: Removal of obstacles to recruiting 
experienced Volunteers is the third element in the bill which will help 
move us toward the goal of doubling the size of the Peace Corps. The 
current Peace Corps Director, returned PCV Ronald Tschetter, has 
undertaken an initiative in this area and the legislation hopefully 
will be seen as a way to advance the common objective of increasing 
experienced Volunteers,
    On the health side, while reforms to the medical screening process 
are important to every incoming applicant, they are critical with 
respect to senior Volunteers. I think the specific provisions provide 
for greater transparency, greater due process, and greater fairness. By 
publishing the medical screening guidelines and process with full 
disclosure, enabling changes to be proposed, permitting appeals, and 
reimbursing for medical tests required by the Peace Corps, the system 
will improve.
    The non-discriminatory treatment of retirees who serve as Peace 
Corps volunteers in terms of their ability to resume medical coverage 
from institutions in addition to the federal government should be 
pursued. And the study of the costs of extending continuing coverage to 
volunteers following completion of service from one to six months also 
is desirable.
    On the financial side, the proposals again would go far to 
encouraging seniors to join the Peace Corps.
    Finally, I would simply support the effort to enhance the third 
goal through expanding funding for programs like World Wise Schools, 
for supporting efforts to enable non-profit organizations with returned 
volunteers to conduct programs that link their home communities with 
their former communities and with the global community. I would urge, 
however, that the funding for this grant program be in addition to the 
funds needed each year to meet the target for doubling the size of the 
Peace Corps. I also think that NPCA president Kevin Quigley, also an 
RPCV, will have valuable insights in this area.
    Mr. Chairman, I was the Peace Corps director on the 40th 
anniversary of the speech that then Presidential candidate John F. 
Kennedy made at the University of Michigan on October 13, 1960. I 
traveled to the steps of the Michigan Union. Although his speech began 
at 2 a.m., I was convinced to start mine at midnight to an audience 
gathered to commemorate that event, including some of the students who 
had been there 40 years earlier.
    President Kennedy challenged young people, and increasingly older 
people as well, to serve our country and the cause of peace in a new 
way. His idea for a new type of service appealed to Americans who 
wanted to lift the hopes of people in developing countries and to 
strengthen international understanding in a world divided by the Cold 
War. Our world today is at least as divided in this age of extremism 
and terrorism. That is why the Peace Corps remains important.
    The Peace Corps has grown to symbolize our country's enduring 
commitment to helping people in developing countries help themselves. 
Some 7,800 volunteers serve in 73 countries, and in virtually every 
sector of development.
    Because millions of individuals awaken each day to poverty, hunger, 
and ill health, Peace Corps Volunteers still are needed at the core of 
our work-teaching in classrooms, carrying health and nutrition messages 
to distant villages, and working with farmers to find more sustainable 
ways of growing food.
    Today's Peace Corps volunteers also are responding to new 
challenges. They are working with communities of Africa to prevent the 
spread of AIDS, a disease that has inflicted a tragic toll on the 
people of Africa. As director I imposed a requirement that all 
volunteers then serving in Africa and all new volunteers would be 
trained to be HIV/AIDS prevention educators to help their communities 
confront this pandemic. It marked the first time that the Peace Corps 
mobilized every volunteer to join in a continent-wide campaign against 
a specific disease. I am pleased that this administration has built on 
that foundation and actually expanded the number of volunteers working 
on HIV/AIDS as a primary assignment. Volunteers have achieved 
innovative and countrywide impact on expanding prevention education--
some with public health training were working as health educators but 
others, whose primary assignment was in education and agriculture and 
small business, also used their ideas, know-how and determination in 
ways I am convinced have saved lives.
    Today's Peace Corps volunteers also are helping people in 
developing countries take part in the information technology revolution 
that all of us now take for granted. They are bridging the digital 
divide by helping local entrepreneurs create web sites to market their 
goods over the Internet, helping extend health data bases and training 
teachers to develop computer literacy programs. That is why the 
provisions of this legislation to promote the digital Peace Corps 
internally are so essential. I am convinced that there can be a vast 
expansion of public/private partnerships with AOL, Hewlett Packard, 
Google, and others in the dot.com community. We had initial grants of 
technical support and equipment worth more than a million dollars to 
use information technology when I was director. That program clearly 
can be expanded.
    What has not changed about the Peace Corps over the last 45 years, 
and what unites volunteers of the Kennedy era with volunteers of the 
new millennium, is the spirit of service and the same goal of 
contributing to world peace and international understanding by 
fulfilling the three goals of the Peace Corps:



   helping people in developing countries address social and economic 
        needs;

   promoting a better understanding of Americans among the people they 
        serve and;

   ``bringing the world back home'' to promote greater understanding 
        by Americans of the world, of the people who share that world 
        with us, what the face each day and how their lives intersect 
        with our own.


    Senator Dodd. Thank you very much, Mark, appreciate it very 
much.
    Mr. Kotz, thank you very much.

   STATEMENT OF DAVID KOTZ, INSPECTOR GENERAL, PEACE CORPS, 
                         WASHINGTON, DC

    Mr. Kotz. Thank you. Good morning. I'm honored to testify 
today, before this committee, on the subject of the Peace Corps 
Volunteer Empowerment Act. I believe that the committee and 
Congress's involvement in the Peace Corps is helpful to our 
office, the Office of Inspector General, in strengthening the 
accountability and effectiveness of the Peace Corps. I plan to 
focus my time today on the items in the bill that relate to the 
medical clearance process.
    The Office of Inspector General is currently undertaking a 
comprehensive 8-month study of the Peace Corps medical 
clearance system and process. It is important to point out to 
the committee that, in the course of conducting this study of 
the medical clearance system, we are systematically analyzing 
many of the same issues that the Peace Corps Volunteer 
Empowerment Act also addresses: The adequacy of the screening 
review process and policies, the medical screening guidelines, 
the screening review timeframe, guidance to applicants, 
transparency, interoffice communication, customer service, 
staff training, the appeals process, and the reimbursement fee 
schedule. Our study is ongoing, and should be finalized in the 
fall.
    Our office's study marks the first time that any entity has 
been able to reach out to a subsection of the general public--
that is, applicants who entered the medical screening process, 
but withdrew their application to become Peace Corps 
volunteers--to survey them about their experiences in the 
medical clearance process.
    While the study is not complete, and I am somewhat 
reluctant to present definitive determinations, we do have some 
preliminary information that we can share with the committee 
today.
    Our results to date show that 82 percent of applicants who 
withdrew their application withdrew during the medical 
clearance process. Our results also show that, when asked why 
they withdrew from the application process, the four most 
frequently cited reasons were: Medical screening took too much 
time; burdensome medical costs; burdensome dental costs; and 
poor communication with medical screening. Overall, 63 percent 
of applicants who applied, but did not serve, answered that 
they were not at all satisfied, or minimally satisfied, with 
the medical clearance system.
    We have also identified the following specific issues with 
the medical clearance system, and plan to offer recommendations 
to address each of these areas of concern:
    Quality improvement in the Peace Corps Office of Medical 
Services has been lacking. The staff within the Peace Corps 
have reported that our office's current study of the medical 
clearance system was one of the first opportunities in which a 
Peace Corps staff member was asked their opinion on systems and 
processes. We recommend that the Agency develop quality-
improvement feedback mechanisms for Peace Corps staff to 
identify aspects of the medical screening process that can be 
improved.
    Two, Peace Corps has identified, but not prioritized or 
implemented, technological improvements that would have a host 
of benefits to applicants, including streamlining the medical 
clearance process, improving transparency and communication 
with applicants, and improving medical records management and 
storage. We recommend that the Peace Corps use its online 
presence to post information such as the bill's proposed 
detailed description of the medical screening process, to 
improve transparency and communication with applicants about 
the medical clearance system.
    Three, numerous applicants reported that they and their 
healthcare providers found the medical kit guidance and 
instructions, that explained the forms that the applicants are 
required to fill out, to be confusing. We recommend that the 
Peace Corps improve the medical kit instructions by eliminating 
contradictory guidance and by highlighting the most critical 
information.
    Four, medical screening customer service needs to be 
significantly improved. Our report would detail specific 
recommendations to improve the customer service component of 
the process, including establishing customer service training 
and standards, and mechanisms for customer service feedback.
    Five, 50-plus applicants take nearly twice as long to clear 
medical screening, compared to applicants under 50 years of 
age; and thus, the problems with the medical screening process 
take on an even greater sense of urgency in light of the 
director's 50-plus initiative.
    Six, applicants and Peace Corps staff uniformly report that 
the applicant reimbursement fee schedule for required medical, 
dental, and eye examinations is not adequate and should be 
increased. While we agree with the Agency that full 
reimbursement for medical costs required by Peace Corps is not 
attainable without a significant increase in appropriations 
dollars, we strongly recommend that the reimbursement schedule 
be increased.
    Seven, and perhaps of greatest concern, our study has found 
that several of the recommendations for improvement to the 
medical clearance system were recommended in prior reports 
dating back to 1992, but never implemented.
    Overall, our preliminary findings indicate that the medical 
clearance system is in need of significant improvement. While 
there are particular aspects of the Peace Corps Volunteer 
Empowerment Act to which we concur, there are other areas where 
we feel the concerns behind the bill's provisions can be 
addressed in different ways. We have certain concerns with the 
bill's provision that providing a list of countries available 
who accept volunteers with medical accommodations may lead to 
false expectations on where these volunteers may serve, and 
result in misinformation and more confusion. We agree 
wholeheartedly with the concerns that have been expressed 
regarding the outdated nature of the medical screening 
guidelines. These guidelines must be reviewed, at a minimum, 
annually to ensure that they represent the most currently 
available medical evidence.
    However, posting the medical screening guidelines online is 
not the only solution to providing applicants with answers to 
their medical screening concerns, nor is it necessarily the 
best, in our opinion. The medical screening guidelines are a 
tool for making complex medical decisions used by medical 
professionals. If the medical screening guidelines were posted 
online, it could lead to applicants without medical backgrounds 
misinterpreting their eligibility, and more confusion on the 
part of applicants.
    With regard to the establishment of a process for 
applicants and other interested parties to propose changes to 
the medical screening guidelines, we note that, while it is 
important to provide mechanisms that give voice to applicants' 
feedback and concerns, questioning the medical validity of 
screening guidelines may actually lead to even longer and 
costlier processing lengths.
    In conclusion, we applaud Senator Dodd and the committee's 
interest in the Peace Corps. We plan to finalize our 
comprehensive medical clearance system study shortly and 
aggressively encourage the Agency to implement our 
recommendations to repair a medical clearance process that 
needs a great deal of improvement. We also plan to follow up 
with many of the additional good measures provided by the bill.
    While we support aspects of the bill, we also feel that, 
with Congress's support, these measures can be implemented 
without legislation. We hope to continue our excellent dialog 
with Senator Dodd's office, and other offices, to ensure that 
the necessary improvements are made to the medical clearance 
system and other aspects of the Peace Corps.
    Thank you.
    [The prepared statement of Mr. Kotz follows:]

                  Prepared Statement of H. David Kotz

                              INTRODUCTION

    Good morning. I am honored to testify today before this committee 
on the subject of the Peace Corps Volunteer Empowerment Act as the 
Inspector General of the Peace Corps. The purpose of the Office of 
Inspector General is to prevent and detect fraud, waste, abuse, and 
mismanagement and to promote economy, effectiveness, and efficiency in 
government. I appreciate Chairman Dodd, as well as the other members of 
the committee, for their interest in and commitment to the Peace Corps. 
I believe the committee's and Congress' involvement in the Peace Corps 
is helpful to our office, in strengthening the accountability and 
effectiveness of the Peace Corps. By introducing this bill and 
expressing interest in the Peace Corps, Congress is helping the Peace 
Corps Office of Inspector General identify the necessary changes and 
improvements in the Peace Corps. Through the committee's commitment to 
improving the Peace Corps, whether through legislation or continued 
dialogue, Congress and the Office of Inspector General can help ensure 
that these critical improvements are implemented by the Agency. It is 
my hope that the committee remains committed to the issues raised in 
the legislation and the continued improvements to the Peace Corps in 
the future.

           DESCRIPTION OF THE MEDICAL CLEARANCE SYSTEM STUDY

    I plan to address several of the items in the bill; however, the 
matters that I will devote most of my time to relate to the Medical 
Clearance process. The Office of Inspector General is currently 
undertaking a comprehensive eight-month study of the Peace Corps 
Medical Clearance System and process.
    It is important to point out to the committee, that in the course 
of conducting this study of the Medical Clearance System, we are 
systematically analyzing many of the same issues that the Peace Corps 
Volunteer Empowerment Act also addresses: the adequacy of the screening 
review process and policies; the medical screening guidelines; the 
screening review timeframe; guidance to applicants; transparency; 
interoffice communication; customer service; staff training; the 
appeals process; and the reimbursement fee schedule. Our study is on-
going and should be issued shortly.
    This study that our office is conducting is the first of its kind, 
and also marks the first time that the Peace Corps has received the 
Office of Management and Budget approval to reach out to a subsection 
of the general public, applicants who entered the Medical Screening 
Process but did not become Peace Corps volunteers, to survey them about 
their experiences in the medical screening process. The Office of 
Inspector General recognizes that this population of former applicants 
is a rich and untapped resource for identifying strengths and 
weaknesses in the Medical Clearance System. Through their responses, we 
hope to gather data unique to this group of applicants, which will 
yield findings and recommendations that will improve Peace Corps' 
applicant retention during the Medical Clearance System.
    One of the goals of our study is to determine whether frustrations 
with the Medical Clearance System have become a barrier to service in 
the Peace Corps or have otherwise contributed to applicants' decision 
to discontinue their Peace Corps applications. The Office of Inspector 
General has reached out to 3,330 volunteers and applicants in our 
survey and to date has collected detailed responses on the Medical 
Clearance System from 864 individuals. We are analyzing responses from 
those applicants who withdrew their application and particularly with 
respect to the question, ``At what stage did you withdraw your 
application?'' Our results to date show that 82% of the respondents 
withdrew their application during the medical clearance process. Our 
results also show that when asked why they withdrew from the 
application process, the four most frequently cited reasons out of the 
19 provided, which included reasons such as ``returning to school'' or 
``personal/familial reasons'' were ``medical screening took too much 
time,'' ``burdensome medical costs,'' ``burdensome dental costs,'' and 
``poor communication with medical screening.''
    When asked the question, ``Were you satisfied with the Peace Corps 
Medical Clearance process?'' 63% of applicants who applied but did not 
serve, answered that they were not at all satisfied or minimally 
satisfied. However, 19% said they were more or less satisfied and only 
12% stated they were very satisfied or extremely satisfied.\1\ When the 
same question was asked to current volunteers (those who persevered 
through the process and served), ``Were you satisfied with the Peace 
Corps medical clearance process?'' 28% said they were not at all 
satisfied or minimally satisfied and nearly half of the volunteers 
(49%) said they were more or less satisfied with the medical clearance 
process. For the last five years, the number of applicants the Office 
of Medical Services has medically qualified for service has exceeded 
the number of volunteers requested by Peace Corps posts.\2\ Therefore, 
if your measure of the effectiveness of the Medical Clearance System is 
whether the Agency is able to medically screen in the number of 
volunteers requested by Peace Corps posts, then, yes, it would appear 
that the Medical Clearance System is working. However, our preliminary 
results show that the Medical Clearance System and process has, in fact 
turned away numerous individuals from continuing their application 
process, and that an overwhelming percentage of those who withdrew 
their application withdrew at the medical screening stage and expressed 
negative views on the medical screening system demonstrates that while 
the Medical Clearance System may not be entirely broken, it is 
certainly in need of repair.
---------------------------------------------------------------------------
    \1\ Due to the fact that the Office of Inspector General Peace 
Corps Medical Clearance System survey is open and will continue to 
collect responses until August 20, 2007, these results are preliminary, 
and may change. To date we have received 152 surveys from applicants 
who did not serve in Peace Corps.
    \2\ In Fiscal Year 2006, Peace Corps posts requested 4640 
volunteers; the Peace Corps Screening unit medically qualified 5323 
applicants for service.
---------------------------------------------------------------------------
    In addition to our survey, our evaluation of the Medical Clearance 
System includes a case study portion requesting electronic journals and 
teleconferences with current 50-plus applicants and extensive face-to-
face interviews with Peace Corps staff including screening staff, 
screening nurses, Office of Medical Services managers, and policy 
makers. Our office has been working with the Agency, the 50-plus 
Initiative Work Group that the Agency has put together, and the 
National Peace Corps Association to understand how the Medical 
Clearance process can be improved. We look forward to sharing more 
information with the committee and Chairman Dodd when the study is 
completed and working together to improve the process for applicants 
and the Agency.

         MEDICAL CLEARANCE SYSTEM PROBLEMS LIST AND DESCRIPTION

    While the study is not complete and I am somewhat reluctant to 
present definitiveinformation, we have identified the following issues 
with the Medical Clearance System:


          1. quality improvement in the Office of Medical Services has 
        been lacking. The quality improvement unit within the Peace 
        Corps' Office of Medical Services has not been proactive in 
        developing performance measures, leading quality improvement 
        initiatives, or collecting staff feedback to analyze and track 
        screening performance in order to identify areas for 
        improvement, nor have they systematically updated the medical 
        screening guidelines or the country health resources database 
        as required. As a result, screening nurses have developed their 
        own, additional criteria, based on research they collected 
        about medical conditions and advances in medical diagnosis. The 
        quality improvement unit is currently working with the 
        screening nurses to incorporate their research into the new 
        medical screening guidelines. In addition, the posts have not 
        been required to annually update their information in the 
        country health resources database and therefore, the list of 
        countries who can accept medical accommodations has not been 
        updated in real time and applicants are being restricted from 
        serving in countries that could have accommodated them.


          2. Peace Corps has identified but has not prioritized or 
        implemented technological improvements that would have a host 
        of benefits to applicants including streamlining the medical 
        clearance process, improving transparency and communication 
        with applicants, and improving medical records management and 
        storage. These technological enhancements are critical to 
        improving numerous aspects of the medical clearance process 
        including reducing screening time. For example, while 75% to 
        80% of the Peace Corps applications are submitted online, the 
        medical kit, a packet with examination forms and instructions 
        for the applicant and the medical or dental provider, is in a 
        paper format which must be collated and mailed to the 
        applicant. Screening nurses reported that approximately 95% of 
        the medical kits they receive are missing required 
        documentation and that is a major reason why medical screening 
        is delayed. Although the Office of Medical Services has 
        requested that the Agency's information technology group place 
        the medical kit online as far back as several years ago, as of 
        this date, this has not occurred.


          3. Numerous applicants reported that they and their health 
        care providers found the medical kit guidance and instructions 
        to be confusing. Other applicants reported that they were 
        overwhelmed by the medical kit guidance because it is presented 
        in a 32 page book. One volunteer wrote:

                  The way it was organized took many times to read and 
                reread to figure out which doctor needed what. It 
                wasn't completely unclear, because obviously I'm here, 
                but I remember it took several times to read it to make 
                sense of it for me, and then even my doctors had some 
                questions about what was needed. Certain tests I 
                thought might be unnecessary, because I knew I hadn't 
                any of those diseases, but my doctor was afraid not to 
                run them, so I paid for them anyway! In the dental 
                forms I didn't realize you needed a certain x-ray exam, 
                so I had to go back to see the dentist twice (out of my 
                own pocket). My gynecologist was unclear even about 
                some of the paper work.

          Other volunteers wrote:

                  Some of the instructions were partially repeated, 
                forms were called by a variety of names, and in one 
                case I felt it was necessary to cut a portion out of 
                the booklet based on the instructions. Those items to 
                be filled out by the applicant need to be organized and 
                clearly separated.

                  Information had inconsistencies, and was often 
                confusing. Calling the help telephone numbers did no 
                good as you seldom got through, messages you left were 
                usually not returned, but, most frustrating, whenever 
                you did reach a person they usually told you they 
                couldn't help you and would transfer you to another 
                department, who would then tell you they couldn't help 
                you and transfer you right back.


          4. Medical screening customer service needs to be 
        significantly improved. Applicants reported that despite 
        calling the 800 number multiple times to reach a screening 
        nurse, they were unable to reach a customer service 
        representative and sometimes unable to even leave a voicemail 
        message because the voicemail was full. In addition, some 
        applicants who did reach a customer service representative, 
        reported that they were rude or unhelpful.
          One of the current 50-plus applicants who is participating in 
        the case study had this to say about calling with a medical 
        screening question:

                  I left a message on the nurse line yesterday (June 
                11), and have not received a response yet. I just tried 
                again to call (June 12, 11 :45 am), and wasn't able to 
                leave a call-back message, as the voice-mail box was 
                full. I never received a call back this time.

          Another 50-plus applicant wrote:

                  I sent a fax on Saturday afternoon, July 7, asking 
                for clarification of what was wanted. As of Monday 
                evening, July 9, I had not received a reply. This 
                morning, July 10, I still hadn't received a reply, and 
                I needed to know because I'm having blood drawn for 
                another purpose soon. So I called the nurse station. I 
                think this was the first time I've called there that a 
                person picked up, and she then transferred me directly 
                to the screening nurse and I was able to get my answer. 
                She told me my fax was probably in a pile of about 20 
                that she had to deal with, now in their busy season.

          One applicant who did not serve had this to say about medical 
        screening customer service:

                  I don't know where to begin here, since my experience 
                was so negative. For one thing, you have to have live 
                people available, and you MUST get back to people and 
                answer their voicemail and e-mails in a timely fashion. 
                You must be clear and specific about your objections, 
                and please try to be helpful and supportive rather than 
                cold and distant during this difficult process.

          Our evaluation intends to make several recommendations that 
        will affect the customer service provided to applicants during 
        the medical clearance process.


          5. Numerous Peace Corps staff and applicants reported that 
        veterans affairs hospitals do not have the resources to 
        adequately screen applicants for Peace Corps medical clearance. 
        The veterans affairs hospitals are highlighted as a resource 
        for applicants to get free physical exams covered by Peace 
        Corps; however, many applicants are unaware of this resource. 
        Other applicants reported that veterans affairs physicians' 
        were rude, did not honor their appointments, and that the 
        physical exam was not complete. This required applicants to 
        spend hundreds of dollars to complete follow-up tests and 
        exams.

          One applicant who did not serve wrote:

                  Provide a facility in order to do the medical 
                clearance process much like the one that is done for 
                the armed forces.

          Another volunteer provided the following feedback:

                  Misinformation about availability of using 
                government/military medical facilities. I was denied 
                this option when I tried. Also, unnecessary tests were 
                required as follow-up for conditions or past 
                procedures, which were not medically indicated and 
                furthermore were not reimbursed by PC.


          6. 50-plus applicants take nearly twice as long to clear 
        medical screening compared to applicants under 50 years of age. 
        According to the Office of Medical Services executive summary 
        reports, it takes approximately 34 days to medically qualify an 
        applicant under the age of 50, whereas it takes between 68-73 
        days to medically qualify an applicant over the age of 50. 
        Additionally, as a group, 50-plus applicants are more likely to 
        appeal their case if they are deemed medically not qualified. 
        The 50-plus population comprises 5% of the total volunteer 
        population; however, they make up 25% of the cases reviewed by 
        the Medical Screening Appeals Board. The 50-plus applicant 
        population does have a different medical screening experience 
        and therefore, it is critical for significant improvement to be 
        made to the Peace Corps Medical Clearance System in order for 
        the director's laudable goal of significantly increasing the 
        percentage of 50-plus volunteers to be achieved.


          7. In 2006, the average Federal Employees' Compensation Act 
        claim amount paid to 50-plus volunteers was $9,109 compared to 
        $5,667 paid to under 50 volunteers. In 2006, 29% of the 50-plus 
        population in the field became a Federal Employees' 
        Compensation Act claimant, compared to 12% of the under 50 
        population. An effective screening process protects volunteer's 
        health and safety and saves the Agency and taxpayer's money by 
        resulting in fewer medical evacuations and Federal Employees' 
        Compensation Act claims.


          8. The five-year rule is a significant detriment, not a 
        benefit to the Medical Clearance System and Office of Medical 
        Services screening unit. Where experience and a comprehensive 
        knowledge base of Peace Corps post conditions and medical 
        accommodations are indispensable to screening applicants 
        efficiently, productively, and safely, the effect of the five-
        year rule is to essentially force the most experienced and 
        dedicated nurses to leave the Agency. These nurses are replaced 
        with new nurses who require extensive training and who only 
        reach acceptable levels of efficiency screening applicants 
        after one year. The turnover caused by the five-year rule also 
        reduces all screening teams' productivity and creates an 
        unnecessary bottleneck in the application process.


          9. Applicants and Office of Medical Services staff uniformly 
        report that the applicant reimbursement fee schedule for 
        required medical, dental and eye examinations is not adequate 
        and should be increased. According to the preliminary results 
        of our survey, 21% of applicants and volunteers did not have 
        health insurance when they applied to the Peace Corps with the 
        majority spending $101-$500 in out-of-pocket expenses for 
        required medical exams and lab work.\3\
---------------------------------------------------------------------------
    \3\ The majority (39%) of applicants who applied but did not serve 
in the Peace Corps spent $101-$500 in out-of-pocket expense for 
required medical exams and lab work compared to the majority (45%) of 
volunteers who spent $101-$500 in out-of-pocket expense for required 
medical exams and lab work

---------------------------------------------------------------------------
          One volunteer wrote:

                  Tell us in advance that we'll probably have to have 
                (and pay for) follow-up examinations or tests. The 
                reimbursement is inadequate for most situations, even 
                at a public health clinic.


          10. And perhaps of greatest concern, our study has found that 
        several of our recommendations for improvements to the Medical 
        Clearance System were recommended in prior reports dating back 
        to 1992, were accepted by the Agency but were never 
        implemented. An evaluation conducted by McManis Associates, 
        entitled ``Report on the Screening and Medical Clearance 
        Process'' issued in 1992 gave the recommendation that:

                  A process needs to be established to institutionalize 
                and standardize the procedures for updating and 
                revising medical screening guidelines and medical 
                screening policy.

          Discussion to develop a process for reviewing and updating 
        the Medical Screening Guidelines was proposed in 2005, begun in 
        October 2006 and is anticipated to be completed by October 
        2007; this is 15 years after the problem was identified. 
        Additionally, several Office of Medical Services staff cited 
        the 2002 Pugh Ettinger McCarthy External Evaluation of the 
        Volunteer Health System as an excellent evaluation of the 
        Medical Clearance System and agreed with its recommendations 
        including, the need for collecting applicant and volunteer 
        feedback, development of quality performance controls and 
        indicators, and noting the effect the five-year rule has had in 
        ``challeng[ing] succession planning in management and 
        limit[ing] organizational memory.''


    In light of our preliminary findings from our comprehensive Medical 
Screening System survey, we conclude that the Medical Clearance System 
is in need of significant improvement. Particularly in light of the 50-
plus Initiative, the Peace Corps needs to fix the Medical Screening 
Process. In a number of cases, the problems with the Medical Screening 
Process are not new, and in fact, some changes have been suggested by 
Peace Corps employees and prior studies, but these changes have not 
been implemented.

          HIGH LEVEL RECOMMENDATIONS FOR IMPROVEMENTS TO THE 
                       MEDICAL CLEARANCE SYSTEM.

    The Medical Screening System is a critical aspect of the volunteer 
delivery process. The Medical Screening System is responsible for 
striking the delicate balance between medically screening in and 
screening out applicants in order to provide overseas posts with 
healthy, able and productive volunteers. While again our study has not 
been completed, our office has worked with the Medical Screening System 
Agency stakeholders and has identified specific action items for fixing 
the issues with the Medical Screening System:
    We recommend that the quality improvement unit work with Office of 
Medical Service managers to develop performance measures and staff 
feedback mechanisms to systematically identify, justify to the Agency, 
and implement improvements to the Medical Clearance System.
    Some of the performance measures identified are the following:


Employee and staff:
Percent of Office of Medical Services employees that rate their job 
satisfaction as excellent
Timeliness and Flow:
Percent of screenings with decision made within 90 days of receipt
Timeliness and Flow:
Percent of incomplete medical records
Timeliness and Flow:
Percent of requests for records not delivered in 48hours
Efficiency and accuracy:
Cost per screening
Effectiveness:
Percent of Peace Corps volunteers with accommodations that complete 27 
months of service
Effectiveness:
rate of mental health Early Terminations


    In addition, the Quality Improvement unit within the Office of 
Medical Services should take a more proactive role in leading quality 
assurance and quality control initiatives. Quality improvement should 
be conducted on two tiers, operational on a day-to-day process level 
and on a strategic level. Office of Medical Services staff reported 
that our Office's current evaluation of the Medical Clearance System 
was one of the first opportunities in which a Peace Corps staff member 
was asked their opinion on systems and processes. We recommend that the 
quality improvement unit develop quality improvement feedback 
mechanisms for Office of Medical Services staff to identify areas and 
processes in the medical screening process that can be improved and 
suggest improvements. Discussion and data analysis will identify the 
best ways to make these process and strategic improvements. Quality 
improvement leadership and staff should undergo quality improvement 
training to better equip the unit with the tools and knowledge to 
implement this recommendation.
    To ensure Agency accountability to the Medical Clearance System, we 
recommend that performance measures and other indicators developed by 
the quality improvement unit and Office of Medical Services managers be 
written in an annual report that tracks the efficiency, effectiveness 
and productivity of the Medical Clearance System. We further recommend 
that this report be included in the Office of Medical Services report 
``Health of the Volunteer.''
    We also recommend that the Quality Improvement unit in the Office 
of Medical Services lead the effort in reviewing the medical screening 
guidelines at a minimum annually or as updates are required.
    We applaud Senator Dodd's office for the concern with applicants' 
ability to obtain information on their likelihood of being medically 
qualified by the Peace Corps before they spend significant sums of 
their own money on required medical exams and tests. We also agree 
wholeheartedly with the concerns that have been expressed regarding the 
out-dated nature of the medical screening guidelines. These guidelines 
must be reviewed at a minimum annually to ensure that they represent 
the most currently available medical evidence. However, posting the 
medical screening guidelines online is not the best solution to 
providing applicants with answers to their medical screening concerns, 
nor it is necessarily the best in our opinion. The medical screening 
guidelines are a tool for making complex medical decisions used by 
medical professionals. If the medical screening guidelines were posted 
online, it could lead to applicants without medical backgrounds 
misinterpreting their eligibility and actually lead to more confusion 
on the part of applicants. It also has the possibility of resulting in 
the Agency unnecessarily dissuading perfectly able, healthy and 
productive applicants from becoming volunteers. Further, telling the 
applicants the answers they need to give in order to be medically 
cleared may encourage and invite fraud, which would, in the end, 
jeopardize their health and safety in the field. In our view, 
applicants would receive the most accurate answer of whether or not 
their particular condition will preclude them from serving in the Peace 
Corps by having the opportunity to speak to a screening nurse, rather 
than by reviewing the information online.
    We respectfully suggest that since the underlying reason that the 
authors of the bill may have recommended the posting of the medical 
screening guidelines online relates to the high levels of frustration 
that applicants feel with regard to the customer service element of the 
Medical Screening System, our evaluation will make several 
recommendations that address needed customer service improvements and 
that will make screening nurses more accessible to applicants.
    We recommend the Agency strategically use technology to streamline 
the Medical Clearance System. As the bill correctly points out, the 
Peace Corps can use the internet and technology to streamline the 
Medical Clearance System and provide more transparency and 
accessibility to applicants. We strongly support those aspects of the 
bill. Improvements in technology that we have identified that will 
improve the Medical Clearing System are:


   Immediate scanning of applicant's paper medical records prior to 
        review by the screening nurses. This change in the Medical 
        Screening System will help segue the department toward a full 
        electronic medical records system and will remedy the current 
        administrative problems of inadequate storage and the 
        difficulty sometimes faced locating and processing paper files.

   Posting the Medical Kit online.


    We recommend Peace Corps use its online presence to post 
information to improve transparency and communication with applicants 
about the Medical Clearance System. We recommend that the following 
measures be put into place to improve transparency and communication 
for applicants:


   Create an Online Toolkit Medical Screening Checklist.

   Expand Status Checks and Incorporate Automated E-mail Messaging to 
        Applicants every time an applicant's status is changed.

   Publish the ``Comprehensive Medical and Dental Package'' online.

   Modify the Health Status Review to include timeframes for questions 
        regarding family counseling.

   Consolidate location of instructions and forms.

   Communicate a detailed description of the Medical Screening process 
        and the country placement process.

   Post the most typical conditions for which the Agency (1) does not 
        normally accept applicants, (2) medically accommodates 
        applicants, and/or (3) delays an applicant's entry into duty 
        and update this list on a routine basis and as needed.


    We agree with the bill's Section 301(4), that a detailed 
description of the medical screening process applicable to Peace Corps 
applicants, including definitions of all applicable terms, should be 
posted on the Peace Corps website and on My Toolkit. We strongly concur 
that there should be a more detailed description of the Medical 
Clearance process that helps set applicant expectations for the amount 
of time the medical clearance will take including scheduling doctors 
appointments, waiting for test results, completing follow-up tests and 
review of medical documentation by a screening nurse. We also strongly 
agree with providing more information on the medical dispositions that 
can result from the screening process and improving information 
regarding the implications of a failure to disclose medical information 
as indicated in Section 301(5) of the bill.
    We concur with Section 301(1) of the bill, that a list of medical 
conditions that typically disqualify individuals from serving, and a 
list of conditions that typically lead to medically accommodating a 
volunteer should be provided to all applicants, and note that this list 
is currently posted on the Peace Corps application site and is included 
in recruitment kits sent out to applicants. However, more detailed 
information should be provided and the list should be updated on a 
continuous basis. We recommend that the Office of Medical Services 
continually update the list of medical conditions. Numerous applicants 
stated that the online document does not list all conditions, and the 
following quote from one of the volunteers who responded to our current 
survey highlights the importance of providing this information to 
applicants:

                Did not know that getting PRK/LASIK eye enhancement 
                surgery would delay my medical clearance for a year. 
                This was not known to me and was the reason I did not 
                finish my medical clearance.

    We agree with the bill in that the Peace Corps can and should do a 
better job at providing medical clearance information to applicants. We 
do however, agree with the Agency that if some of the Peace Corps 
Volunteer Empowerment Act provisions for the Medical Clearance System 
were implemented without an understanding of the interwoven systems of 
recruitment, medical screening, legal screening and placement, the 
result could actually lengthen the medical screening process and could 
result in volunteers being placed in countries that cannot provide the 
resources needed to accommodate their health conditions. However, upon 
the conclusion of our study, we plan to recommend specific improvements 
that address the majority of the concerns that are raised in the Peace 
Corps Act Volunteer Empowerment Act: transparency, communication and 
customer service.
    We recommend that the Office of Medical Services improve the 
Medical Kit instructions by eliminating contradictory guidance and by 
highlighting the most critical information.
    We recommend that the Office of Medical Services recognize customer 
service as a core value of the screening process, the importance of 
coaching applicants through the Medical Clearance System, and that the 
Office of Medical Services implement ``Coaching through Clearance,'' 
for applicants.
    In addition, the following specific improvements will improve 
customer service, communication and transparency for applicants:


   Establish customer service training and customer service standards.

   Establish mechanisms for customer service feedback.

   Establish a Screening Nurse e-mail address that can be checked by 
        Screening Assistants and forwarded onto the proper screening 
        nurse.

   The direct telephone extension of the screening assistant should be 
        included in the Medical Kit.

   Improve the Medical Clearance System customer service line so that 
        the line always rolls to another phone until a live person is 
        reached.


    We recommend that the regional recruiters cease providing 
applicants with information about Veterans Affairs Hospitals as a 
convenient and financial resource for completing the physical exam 
requirements of the Medical Kit.
    We recommend that the Agency exempt several positions in the Office 
of Medical Services from the five-year rule to the extent allowed under 
the law. Peace Corps is unique in that it hires and extensively trains 
experienced and knowledgeable nurses but then by virtue of the five-
year rule, it loses that experience and knowledge prematurely. This 
practically has the effect of increasing the likelihood of errors in 
medical judgment, causing potential harm to Peace Corps volunteers. If 
one combines the drastic effect of the five-year rule with the 
nationwide nursing shortage, for example, and the present-day reality 
that trained, experienced, and passionate screening nurses are becoming 
increasingly more difficult to recruit and retain, the overall impact 
is substantial. While there are legislative impediments to wholesale 
exemption of positions in the Office of Medical Services from the five-
year rule, our final report will outline specific positions that we 
believe should be exempted from the five-year rule and the statutory 
and regulatory bases for these exemptions.
    We recommend that the reimbursement fee schedule be increased to 
meet average doctor bill rates for physical examinations, dental 
examinations, and eye glasses. We wholeheartedly endorse the concern 
expressed in the bill in Section 301(6), about the insufficiency of the 
reimbursement fee schedule for physical examinations, dental 
examinations, and eye glasses. One of the questions on our survey is, 
``What one thing would you do to make the Medical Clearance process 
better?''; a high percentage of respondents cited changes to the 
reimbursement fee schedule. This is somewhat surprising in light of the 
survey's results that 59% of applicants who did not serve and 32% of 
volunteers did not even submit a reimbursement claim.
    While we agree with the Agency that full reimbursement for medical 
tests required by Peace Corps is not attainable without a significant 
increase in appropriation dollars, we strongly recommend that the 
reimbursement schedule be increased. The justifications are two-fold; 
the current schedule has not been increased on a routine basis to 
account for inflation and does not take into account new clearance 
requirements, such as immunizations, that have been added to the 
Medical Kit. In addition to immediately increasing the reimbursement 
fee schedule, the Agency should review the reimbursement schedule 
annually and determine increases to the reimbursement schedule if 
either (1) new requirements are added to the Medical Kit and/or (2) 
already required tests and exams have increased in cost. Aside from 
annual reimbursement review and general increase of the reimbursement 
schedule, the current dental reimbursement amount of $60 should be 
increased to $100 or more because the costs of dental exams and x-rays 
is increasingly higher and fulfilling the requirements for dental 
clearance is one of the most burdensome components of the medical 
screening process.
    Our office feels strongly about this recommendation because not 
only does the current reimbursement schedule frustrate volunteers and 
deter desirable and qualified volunteers from completing medical 
screening, but the reimbursement schedule may also act as an unintended 
barrier to recruiting volunteers from diverse socioeconomic levels. 
There is a correlation between people of lower socioeconomic levels not 
having access to health insurance, increasing the cost burden for this 
demographic and further preventing them from finishing the application 
process or even applying to Peace Corps. If the committee and the Peace 
Corps are seeking to increase recruitment efforts for minorities and 
older Americans, removing the impediment of an inadequate reimbursement 
schedule is an important step.
    We also would like to provide the following additional comments 
about specific aspects of the Volunteer Empowerment Act's medical 
screening provision that we have not already addressed above.
    We have certain concerns with the bill's provision in Section 
301(1b) that providing a list of countries available to accept 
volunteers with medical accommodations may lead to false expectations 
on where these volunteers may serve and result in misinformation and 
more confusion. In addition, the list of medical accommodation 
countries is maintained by the Office of Medical Services, but is 
constantly changing and posting that information may not achieve the 
desired result of providing more accurate information to applicants.
    With regard to Section 301(2) of the bill that requires the 
establishment of a process for applicants and other interested parties 
to propose changes to the Medical Screening Guidelines, we note that 
while it is important to provide mechanisms that give voice to 
applicants' feedback and concerns, questioning the medical validity of 
screening guidelines may actually lead to even longer and costlier 
processing lengths. Screening nurses could potentially be overburdened 
by the tenacity of volunteers to seek other medical opinions that would 
medically qualify them. In addition, medical opinions provided by other 
physicians unfamiliar with the health conditions and standards 
necessary in foreign posts could pose serious health risks to that 
volunteer. Finally, screening nurses need a standard of medical 
criteria to base their decisions in evaluating an applicant's medical 
qualification. Changing this system fosters an environment of 
relativity and inconsistency as each screening nurse will have 
differing methods and criteria for qualifying applicants, which may in 
effect, compromise medical screening transparency.
    We very much concur with the intention of Section 301(3), of the 
bill that would require a process to allow volunteers to appeal 
rejections on medical grounds, and note that we have determined that 
there is an appeals process in place which provides applicants an 
opportunity to provide more data empowering the volunteer to advocate 
for themselves using new medical information. With respect to the right 
to base an appeal on the inadequacy of the medical screening 
guidelines, there is a process in place to update the medical screening 
guidelines that will be completed by October 2007. We endorse this 
effort and note that it is long overdue. Given that this review is 
underway, we do not think it is necessary to include the right to base 
an appeal on the inadequacy of the medical screening guidelines in the 
overall appeals process.

   COMMENTS ON OTHER SECTIONS OF THE S. 732 VOLUNTEER EMPOWERMENT ACT

    As I indicated, our analysis is focused on the Medical Clearance 
System. With respect to certain other aspects of the bill, I have the 
following opinions.
    We wholeheartedly concur with the laudable goal of doubling the 
number of Peace Corps volunteers by December 2009, but would caution 
that significantly increased appropriations are an absolute necessity 
to achieve this goal, as in some cases, the Peace Corps is stretched 
too thin today. In our view, it would be unwise to continue to expand 
posts without the resources to ensure that volunteers are properly 
supported.
    We applaud Section 306(b) of the bill that increases whistleblower 
protection for volunteers reporting the misconduct of Peace Corps staff 
as we feel that as much protection as possible should be provided to 
these whistleblowers. Because of their status as volunteers and not 
employees, currently volunteers are not afforded significant protection 
from retaliation for their whistleblower claims. Whistleblowers provide 
a great deal of critical information to our office with respect to the 
inner workings of the Agency and we need to make sure volunteers are 
protected when they provide this important information. Very often, our 
information comes from whistleblowers and complaints and our Office 
would not be able to prevent waste, fraud and abuse in the Agency 
without the help and support of volunteers acting as whistleblowers.
    We also applaud the committees' efforts to give the volunteers a 
larger role in evaluating various aspects of the Peace Corps. When the 
Office of Inspector General conducts evaluations, we focus entirely on 
the opinions and viewpoints of the volunteers, as they are the life 
blood of the Agency, and we uniformly uncover critical information 
regarding their sites, programs, projects and the abilities of the 
Peace Corps staff in country. We believe that Office of Inspector 
General inspections should not be the only mechanism for volunteers to 
share their view and provide feedback concerning activities at post. It 
is our opinion that the Agency should become even more volunteer-
centric and provide more opportunities for the volunteers to be 
involved in the decision-making process. Encouraging the use of the 
Volunteer Advisory Committee is an excellent idea. We also concur with 
the bill's efforts to provide more volunteer involvement in site 
selection and personnel aspects of a post. The volunteers' viewpoints 
and feedback must be considered when the Agency makes important 
decisions concerning site selection, training curriculum and personnel 
evaluation at post. Within Section 201 of the bill, there is a 
provision that these upward reviews and surveys of volunteers be 
provided to various Agency officials. We concur with a proposal 
expressed by others that our office also receive the results of the 
upward reviews conducted by volunteers on senior staff and programs. We 
too believe that this will be a source of valuable information and 
enhance the effectiveness of the Inspector General's Office in 
improving Peace Corps management and programs.

                           CONCLUDING REMARKS

    In conclusion, we applaud Senator Dodd and the committee's interest 
in the Peace Corps. We plan to finalize our comprehensive Medical 
Clearance System study shortly and aggressively encourage the Agency to 
implement our recommendations to repair a medical clearance process 
that needs a great deal of improvement. We also plan to follow-up with 
many of the additional good measures provided by this bill. While we 
support aspects of the bill, we also feel that with Congress' support, 
these measures can be implemented without legislation. We hope to 
continue our excellent dialogue with Senator Dodd's office and other 
offices to ensure that the necessary improvements are made to the 
Medical Clearance System and other aspects of the Peace Corps.

    Senator Dodd. Thank you very much. Very comprehensive 
testimony. We appreciate it very, very much, and I thank both 
of you for joining us here today.
    And, Director Schneider, Mark, we remember your service 
very, very well, not only as a volunteer, but as the Director 
of the Peace Corps, as well, and thank you.
    I think I saw both of you here for the testimony regarding 
implementing the proposals contained in the legislation which I 
have introduced. Just very quickly, is that accurate, in your 
assessment?
    Mr. Schneider. That would----
    Senator Dodd. They're implementing many of the 
suggestions----
    Mr. Schneider. Oh. I think that they're--he does--the 
Director does have a 50-plus initiative----
    Senator Dodd. Yes.
    Mr. Schneider [continuing]. And I think that that is going 
in the same direction. I would think that, sitting down, that 
several of the provisions in this bill, particularly related to 
the financial barriers, if you will, for 50-plus applicants, 
and also the medical screening, should move in the direction of 
permitting his initiatives goal to be achieved, which is to 
increase the number of 50-plus volunteers.
    Senator Dodd. Yes.
    Mr. Schneider. The second is that I think that the comment 
that he made with respect to support for the VACs is accurate. 
I think the issue there is, it's--as he said, there is one of 
the--Volunteer Advisory Committees that--where he said that 
there is one country where that didn't exist. My view is that 
that's so important that it should be mandated. And it 
shouldn't be up to an individual country director whether or 
not it exists, and it should exist, and I have no problem in 
providing that their recommendations then are taken into 
consideration with respect to the issues, as indicated; 
particularly, in my view, site selection and program and 
training. That's where volunteers see it.
    And I've always been of the view that it's extremely 
important for volunteer input on--into sites--where new 
volunteers are going to live and where they're going to work. 
Those are the two things that are most important about 
satisfaction for a volunteer. If the site is a place where they 
could live comfortably, in the sense of not being afraid and 
also being able to do their work, and if the--their role in the 
program makes sense.
    Senator Dodd. Let me, if I can, very briefly, here, I--Mr. 
Kotz, I want to ask you about this case that I raised with the 
Director involving the report in the Washington Post on the 
2003 political briefings. Do you have any information about 
that----
    Mr. Kotz. Well, our office has been in consultation with 
the Office of Special Counsel on that matter. The Office of 
Special Counsel has exclusive jurisdiction to investigate Hatch 
Act violations. So, we have spoken to them. Our investigator 
has met with them to talk about going forward with the 
investigation. So, we will be participating in, and assisting 
them in, the investigation, but they essentially have the lead 
in that investigation.
    So, I can certainly assure you that we are asking--the 
Office of Special Counsel is asking for a list of all political 
employees at the time, and then those political employees will 
be interviewed to determine whether they attended that 
particular briefing, and will be followed up, in terms of 
getting the information that you asked for previously today.
    Senator Dodd. And then you'd report back to this committee, 
is that how that would work?
    Mr. Kotz. Well, it's the Office of Special Counsel, 
essentially, that has the jurisdiction. We assist them. I'll be 
happy to do whatever you wish.
    Senator Dodd. We'll follow up with that and determine 
what's the proper----
    Mr. Kotz. OK.
    Senator Dodd [continuing]. Appropriate way to proceed.
    Mr. Kotz. But I did express to the folks in the Office of 
Special Counsel that, while they do have exclusive 
jurisdiction, since it's happening in, you know, the Agency 
that I am involved in----
    Senator Dodd. Yes.
    Mr. Kotz [continuing]. You know, I need to know what's 
going on, and to look into it further.
    Senator Dodd. Can I also quickly raise with you the issue 
of the Peace Corps volunteer in Bolivia, Walter Poirier, who 
disappeared back in 2001? I gather that investigation has been 
reopened?
    Mr. Kotz. Yes. Yes. About 6 months ago, our office decided 
to look again at that. Mr. Poirier is the only volunteer in the 
history of the Peace Corps who has gone missing, who hasn't 
been found. And so, our office, which is in charge of violent 
crimes against volunteers, considers that case still to be the 
No. 1 priority in our office. In order to go back in--and look 
at a search effort, I have asked the National Park Service to 
help us out. We have gotten several individuals, experts in the 
field, who have done searches in Grand Canyon, who have 
expertise in doing searches, to assist us. They have gone out 
to Bolivia to do initial efforts to look into that. We have 
gotten some documentation from the FBI, that were never 
previously provided, that we are looking at, even though this 
happened 6 years ago. And so, there is a renewed effort to do a 
targeted search. We're hoping to do one in September, to make 
another effort to find the missing volunteer. I'm in touch with 
Walter Poirier, Sr., on a biweekly basis, to talk to him about 
how we go forward on this case. But this is a very important 
matter for our office, and we continue to make every effort we 
can to try to see if we can find Mr. Poirier's remains.
    Senator Dodd. How helpful is the Embassy in Bolivia being?
    Mr. Kotz. Yeah, we have had a couple of issues, frankly, 
with the Embassy in Bolivia, in terms of their view that 
nothing else needs to be done. And we have essentially said to 
them that we don't need their assistance at all, but we would 
ask that they not be an impediment in the process. There were 
some impediments in our last trip when we went out there. We're 
hoping to, as I say, look to do a search effort in September, 
and we're certainly hoping that we won't have any further 
impediments----
    Senator Dodd. Well, perhaps Senator Corker and I could 
draft a letter to the Ambassador down there, and just urge the 
embassy to be cooperative in every way they can----
    Mr. Kotz. Yes.
    Senator Dodd [continuing]. And we'll try and work something 
up for the two of us to send down.
    Mr. Kotz. That would be great.
    Senator Dodd. Maybe Senator Biden or Senator Lugar to join 
us, as well, in that.
    Mr. Kotz. I would really appreciate--that would be great. 
We want to be able to, you know, have unfettered access to----
    Senator Dodd. Yes.
    Mr. Kotz [continuing]. The area, to bring in our experts 
and see what we can do, in terms of----
    Senator Dodd. The FBI has been helpful, I gather?
    Mr. Kotz. Yes. Yes. Yes. Generally.
    Senator Dodd. Very, very good.
    The safety and security of volunteers is something all of 
us care about this very, very much, obviously, and we're 
talking about a case in point. Any other additional suggestions 
or recommendations? There were concerns raised by the Director, 
that I was raising some security risks by things we were 
suggesting. Would you address that issue?
    Mr. Kotz. Yes. I mean, I think, you know, in a minimal way, 
there are some possibilities. I guess the issue was raised 
about fundraising, and so, that--I guess there was the 
possibility that volunteers would be some sort of target, 
although I think you could put mechanisms in place on that. The 
other matter that was raised related to administrative 
separation--I mean, I do agree with--as the Director says, that 
we should have the ability--our Peace Corps country directors 
should have the ability to administratively separate 
volunteers, if they're at a site. I mean, I think that's an 
issue. They need to be available, they need--we need to know 
where they are at all times, so something like the Poirier case 
can't happen again. But, again, I think that there are ways to 
work around that.
    We--our office, actually, in addition to the medical 
clearance study, is doing a comprehensive safety and security 
study. We're going out to 19 different posts to assess--there 
were many changes that were put into place in the Peace Corps, 
vis-a-vis safety and security, several years ago, and we're 
assessing whether those changes have been implemented in the 
appropriate way and whether there has been a change in the 
safety and security of volunteers as a result.
    Senator Dodd. Well, I'd appreciate it if you might take a 
look at these recommendations in this bill----
    Mr. Kotz. OK.
    Senator Dodd [continuing]. And any modifications you may 
suggest that would allow us to proceed with these provisions, 
but to minimize the security and safety issues to the extent 
they exist.
    Mr. Kotz. Absolutely.
    Senator Dodd. It would be very, very helpful.


       RESPONSE TO QUESTIONS BY SENATOR DODD FROM H. DAVID KOTZ, 
                  INSPECTOR GENERAL OF THE PEACE CORPS

    Below are noted the portions of the Bill (S. 732) that will have an 
impact on volunteer safety and security. The following are my 
recommendations of modifications to the Bill that should be made in 
order to minimize the security and safety issues:

Title I, Section 101 (Seed funding) and Section 102 (Charitable 
        fundraising):
    First of all, we agree with Mr. Schneider's remarks made during the 
hearing that some Peace Corps volunteers are already involved in 
fundraising activities, and this bill would provide more visibility, 
structure and oversight to those fundraising activities and thereby 
would increase those volunteer's safety and security. Secondly, and 
conversely, we recognize that encouraging volunteers who would not have 
engaged in fundraising on their own accord to engage in fundraising 
activities could increase the likelihood of volunteers being seen as a 
constant source of funds and could jeopardize their primary objectives 
and their safety and security. Lastly, a vehicle for funding volunteer 
projects already exists; the Peace Corps Partnership Program (PCPP).
    Modification recommended: Prior to establishing two new vehicles 
for funding volunteer projects, we suggest the Peace Corps investigate 
why volunteers are turning to alternative methods of fundraising 
instead of using the Peace Corps Partnership Program.Our office has 
already evaluated some of those issues in recent post reports and the 
agency is advised to consider our recommendations and make changes to 
PCPP to increase program clarity and decrease processing timeframe. We 
also suggest the Office of Private Sector Initiatives (OPSI) analyze 
whether aspects of the programs discussed in Sections 101 and 102 could 
be implemented into the Peace Corps Partnership Program to make the 
program more useful to volunteers.

Title I, Section 104 (Doubling the number of Volunteers with 
        significant work experience and adding 20 new sector specific 
        programs in 20 different countries):
    We wholeheartedly concur with the laudable goal of doubling the 
number of Peace Corps Volunteers with significant work experience by 
December 2009, but would caution that significantly increased 
appropriations are an absolute necessity to achieve this goal, to 
ensure that Peace Corps is not stretched too thin.
    Modification recommended: Make the expansion of posts contingent on 
additional funding. It would jeopardize volunteer safety and security 
to expand posts without providing the resources to ensure that 
volunteer sites are properly developed and that safe working and living 
conditions are provided for volunteers.

Title II, Section 201 (Participation in reviews of staff and programs), 
        Section 202 (VAC) and Section 203 (Input regarding site 
        selection and training curriculum):
    We applaud all three provisions under Title II of the Bill that 
encourage the use of volunteer feedback concerning post activities and 
providing insight to headquarters regarding post operations. We feel 
these provisions will improve dissemination of critical information and 
will ultimately increase the level of safety and security of our 
volunteers.
    Modification recommended: Title II, Sections 201, 202 and 203 
provisions will have a positive impact on volunteer safety and security 
and therefore, we have no modifications to make to these provisions.

Title III, Section 301 (Reforms to Medical Screening process):
    Posting medical guidelines online, discussed in Section 301(1) of 
the Bill may negatively impact volunteer's safety. As stated in my 
submitted written testimony, if the medical screening guidelines were 
posted online, it would tell the applicants the answers they need to 
give in order to be medically cleared and may encourage and invite 
fraud, which would, in the end, jeopardize their health and safety in 
the field.
    With regard to Section 301(2) and 301(3) of the Bill that require 
the establishment of a process for applicants and other interested 
parties to propose changes to the Medical Screening Guidelines and the 
right to base an appeal on the inadequacy of the Medical Screening 
Guidelines, we note that while it is important to provide mechanisms 
that give voice to applicants' feedback and concerns, questioning the 
medical validity of screening guidelines may actually lead to even 
longer and costlier processing lengths. In addition, medical opinions 
provided by other physicians unfamiliar with the health conditions and 
standards necessary in foreign posts could pose serious health risks to 
that volunteer.
    Modification recommended: We do not believe that modifications to 
these sections would ameliorate the concerns and thus, respectfully 
recommend removing Sections 301 (2) and 301(3) from the Title III, 
Personnel Issues and Benefits, portion of the Bill.

Title III, Section 306 (Protecting Rights of Volunteers):,
    We applaud Section 306(b) of the Bill that increases whistleblower 
protection; whistleblowers provide a great deal of critical information 
to our office with respect to the inner workings of the Agency and we 
need to make sure volunteers are protected when they provide this 
important information.
    Modification recommended: Section 306 provisions will have a 
positive impact on volunteer safety and security and therefore, we have 
no modifications to make to this provision.


    Senator Dodd And last, you raised the medical screening 
procedures. I think you've adequately covered that, the 
importance of it. And I think you heard Senator Corker, and he 
can comment on it, himself. But we really care about this very 
much, and this has got to be changed. I was sort of stunned 
that some of the recommendations go back to 1992.
    Mr. Kotz. Yes.
    Senator Dodd [continuing]. And things that have not been 
implemented, to move this along at a more rapid pace.
    And the seed money issues, I think you've addressed this, 
as well. Mark, I think you have outlined this issue. We talk 
about the country director having to approve----
    Mr. Schneider. Exactly.
    Senator Dodd [continuing]. Are there other steps that 
should be taken? Is that too light? Should there be something 
more?
    Mr. Schneider. No; I mean, I think that you have it right, 
in terms of putting a limit on the size.
    Senator Dodd. Yes.
    Mr. Schneider. You don't want a lot of money going there.
    Senator Dodd. Yes.
    Mr. Schneider. Having the country director essentially 
approve the proposal--this simply provides additional 
resources, and I don't see any reason why that should be of any 
concern, really. It's happening now. Peace Corps does it 
through both the Partnership Program and, in country, through 
special project funds, the small project funds that are run 
either by USAID or the Embassy.
    I will say that, on the question of safety and security, 
again, I've always felt that two things--the site selection and 
the program being adequate--are two of the most important 
things with respect to these--keeping the volunteers in the 
community and reducing the chances for anything happening. 
Where the most danger to volunteers occurs is when they travel. 
That's where the majority of accidents and crimes occur.
    Senator Dodd. Yes.
    Mr. Schneider. And so, the time that the volunteers stay in 
the community, the better off they are, and the better off we 
are.
    The other point, about the indication that we would be 
concerned about the provision in the bill with respect to 
limiting when you'd have administrative separation, the bill 
really says that you would have administrative separation for 
those causes found within the Peace Corps manual. And if there 
is an additional rationale or additional reason to increase the 
seriousness with which you view not being in a post for X 
amount of time, then it should be in the Peace Corps manual, 
volunteers should know that they are potentially going--they 
could be separated. The whole point about this provision, it 
seems to me, is to ensure that volunteers know the conduct that 
will result in their separation.
    Senator Dodd. That's the whole purpose.
    Mr. Schneider. And that's--seems to me----
    Senator Dodd. Yes.
    Mr. Schneider [continuing]. To be absolutely desirable.
    Senator Dodd. That's all we're trying to do. And I can't 
disagree at all. I mean, the notion, obviously, is--just an act 
of responsibility, that if you're not going to be where people 
think you're going to be, letting someone know is always just 
smart.
    Mr. Schneider. Right.
    Senator Dodd. But, obviously, if this becomes overbearing, 
then, obviously, you're crossing a line, in a sense. But we are 
trying to walk that line here, in case you are faced with 
another Poirier case.
    Well, OK. Well, thank you both. I may have some additional 
questions for you.
    Let me turn to Senator Corker.
    Senator Corker. Thank you both for your testimony. I found 
it very enlightening.
    Did either one of you have input into the bill as it was 
being drafted?
    Mr. Schneider. I did. I was able to make some suggestions 
about it. And, as I say, I think that the--the key elements are 
to increase the volunteer empowerment in ways that are, I 
believe, reasonable. I'm particularly of the view that 
additional requirements for volunteer input on the question of 
site selection, where they're going to live--future volunteers 
are going to live--that the volunteers have the best 
information about that, and that kind of input should be 
solicited.
    Senator Corker. Mr. Kotz.
    Mr. Kotz. Yes. No, I didn't have input in it.
    Senator Corker. You know, I was actually struck by the 
polling data that you had. And it's--seems like people are 
relatively happy in the Peace Corps. And, actually, the number 
of people that were, sort of, dissatisfied with their 
assignment, I thought, was pretty low. And, you know, it's a 
really--I know, a tough challenge. We have been involved in 
civic initiatives, and you have people who want to do good 
things, but finding the exact right spot for them, that really 
is challenging to them and really uses the best of their 
skills, and do it with the right kind of issues, is a real 
difficult thing to do. And my guess is that's one of the 
greatest challenges the Peace Corps has. And I know that what 
you're trying to do is empower that.
    I took--I got a little humor out of the fact that you 
mentioned that rhetoric and appropriations don't always match. 
And that's on both sides. And certainly seen a great deal of 
that over the last 6 months.
    Are there--I know you had input into the bill, and I know 
that you were in the same position as the Director is now. My 
guess is there were times when you felt like the Federal 
Government sort of worked against your ability to make things 
happen, I would guess. Is that----
    Mr. Schneider. I was pretty comfortable, at the moment when 
I was Peace Corps Director.
    Senator Corker. Yes.
    Mr. Schneider. Yes.
    Senator Corker. Is there anything about this bill, then--
what I'm really driving at is, is there anything about the 
bill, in codifying some of the things that are actually 
contemplated--sometimes we do sense-of-the-Senate kind of 
things, and sometimes we do goals and try to impress upon the 
people leading organizations where we'd like to see it go. But 
then, actually making a law regarding that sometimes can be 
confining, because it's in black and white, and you don't have 
the judgment of the circumstances at hand. Is there anything 
about this bill that you'd like to make--as proposed--you'd 
like to make comments in that regard?
    Mr. Schneider. There are just two things. One, I mentioned 
in my testimony. I do think that we could--the bill could 
encourage actions to promote the recruitment of minority 
volunteers. I think there's more things that we could do. We 
tried to do things when I was Director, and I still believe 
that we can do additional things. Targeting Master's 
International Program and the Fellow--Peace Corps Fellows. More 
directly, it's some of the--at some of the Historically Black 
Colleges and Universities, is one thing. I think we should do 
more of that. It's not that it's never been done, but I think 
it would be useful to encourage it.
    Second, I do think that the provision that deals with the 
initial $10 million for third goal, I would try and write it, 
perhaps, so that that additional money came in after you met 
that the basic appropriations each year for make--for growing 
the Peace Corps to 15,000, so that you would have a--it would 
kick in at that point.
    Senator Dodd. Yeah, we make it a specific line item.
    Mr. Schneider. In--I understand, but I'm saying that in the 
Peace Corps----
    Senator Dodd. I understand.
    Mr. Schneider [continuing]. You don't----
    Senator Corker. So, there's additional comments that you 
might have regarding the bill?
    Mr. Schneider. That's just about it.
    Senator Corker. I wonder if you could send those to both of 
our offices, in writing.
    Mr. Schneider. Sure.
    Senator Corker. And----
    Mr. Schneider. Be happy to.
    Senator Corker [continuing]. Mr. Kotz, do you have any--in 
looking at the bill as it reads, seems like a big focus of 
yours has been the medical application piece.
    Mr. Kotz. Correct.
    Senator Corker. And, Senator, I have to--Mr. Chairman, I'd 
say he has some excellent information for us to utilize in 
really looking at the application process. Any other comments 
regarding stipulations in the bill that you think, just based 
on your experiences, ought to be looked at?
    Mr. Kotz. I think there are a couple of areas in the 
medical screening process that we differ on, putting the 
guidelines online, allowing the volunteers or applicants to 
appeal based upon the guidelines, I think, might lead to longer 
processing times. So, those are the areas that I mentioned.
    It does highlight a lot of areas in the medical screening 
process that need improvement. We're hoping that, with our 
study that comes out, and our report, and aggressively 
encouraging the Agency, that a lot of these matters will be 
remedied through the normal channels.
    Senator Corker. Well, I look forward to hearing more 
written--or seeing more written input from both of you. Thank 
you both very much for your service and for what you've done to 
help us today.
    Thank you.
    Senator Dodd. Thanks very much. We look forward to hearing 
back from both of you, if you can.
    The last panel here, has been very patient, and we thank 
them for coming. Chuck Ludlam and Paula Hirschoff are here, and 
we thank them for travelling such a long way. The Chamber of 
Commerce of Senegal has obviously dressed you this morning 
promoting the garb. [Laughter.]
    Senator Dodd. We're delighted to have both of you here. 
Kate Raftery, country director for the Peace Corps in the 
Eastern Caribbean, is here. Ms. Raftery, thank you very much. 
Mr. Kevin Quigley is president of the National Peace Corps 
Association. And, last, Nicole Fiol, who is an applicant to the 
Peace Corps from Bayamon, Puerto Rico. I even said ``Bayamon'' 
correct, huh? [Laughter.]
    Well, thank you all for coming, and you've been very 
patient to listen to this earlier testimony. We appreciate it 
very much.
    I'll ask each of you to just take 5 minutes, if you would, 
and if you could do it in less time than that, it would be 
appreciated. But your full text and testimony will be a part of 
the record, I want you to know that here. However, to the 
extent you can get through it quickly and we get to the 
questions, it would be very, very helpful.
    So, we'll begin with you, Mr. Ludlam. And we know that you 
and your wife have come a long way to be here this morning. And 
you heard me say, at the outset, you've given us some valuable 
support as we've talked about this, listening to volunteers and 
ideas as we helped draft this proposal. So we thank both of you 
for making the effort to come here.

  STATEMENT OF CHUCK LUDLAM, VOLUNTEER, SENEGAL, PEACE CORPS, 
  WASHINGTON, DC; ACCOMPANIED BY PAULA HIRSCHOFF, VOLUNTEER, 
              SENEGAL, PEACE CORPS, WASHINGTON, DC

    Mr. Ludlam. It's a tremendous honor to be here, Senator, to 
be in front of an RPCV. You're a Senator, also, but we think of 
you more as an RPCV than anything else.
    Senator Dodd. Thank you, I do, too. [Laughter.]
    Mr. Ludlam. We appreciate the invitation.
    Ms. Hirschoff. My name is Paula Hirschoff, and I'm serving 
as a Peace Corps volunteer in Senegal. I was a volunteer in 
Kenya 40 years ago.
    Mr. Ludlam. And my name is Chuck Ludlam, and I'm serving as 
a volunteer, with my wife Paula, in Senegal. I was a volunteer 
in Nepal 40 years ago.
    Ms. Hirschoff. Chuck and I will testify together, 
alternating turns.
    With this joint presentation, we continue the partnership 
that characterizes our work in Senegal. We'll observe the 5-
minute rule, times two. [Laughter.]
    Mr. Ludlam. Paula and I are testifying here today, because 
we are loyal to the Peace Corps and the founding ideals, and we 
admire the volunteers' work throughout the world. We are among 
the few volunteers to serve again after a long gap in time, so 
we're among the first who can report, from the volunteer 
perspective, how the Peace Corps has changed over the last four 
decades.
    We wish we could report that all is well with the Peace 
Corps, but we regret to say this is not our view. We see the 
Peace Corps as a middle-aged bureaucracy, where hierarchy and 
rigid controls prevail. Volunteers sit at the bottom of the 
pyramid, where their needs are often ignored. What we need is 
an upside-down hierarchy, an inverted pyramid in which the 
support of the volunteers takes precedence.
    Senator Dodd, in your recent article in WorldView magazine, 
you said it best, this bill recognizes that the real heart of 
the Peace Corps lies in--not in Washington, but in the 
villages, like the one in which you served in the DR.
    Ms. Hirschoff. The volunteers with whom we serve are much 
the same as the ones we served with in the 1960s--idealistic, 
resourceful, and hardworking. You've been proud of the 
volunteers who have served in the past, and you can be proud of 
those in the field today. The volunteers can and should be 
trusted, and they deserve more support of management.
    Mr. Ludlam. We have also compared the Peace Corps 
bureaucracy to the one we knew in the 1960s. In many ways, it 
has become more risk-averse and less responsive. It often fails 
to listen to, respect, and empower the volunteers. We hear from 
volunteers in the field who believe they succeed despite the 
bureaucracy, not because of the support that it provides. They 
succeed by ignoring it and resisting it. The bureaucratic 
command-and-control approach stifles creativity and 
collaboration. This management approach works poorly with 
younger volunteers, and it is anathema to older, more 
experienced volunteers. These problems undermine the Peace 
Corps in various ways. Volunteers become demoralized or 
cynical. Their potential as agents of development are not 
realized. Dropout or early termination rates are too high. We 
believe that many RPCVs from our era would be dismayed to hear 
how much the bureaucracy today adversely affects the volunteer 
experience.
    Ms. Hirschoff. Of course, these are generalizations. We 
know there are many Peace Corps managers throughout the world 
who provide outstanding service and support to volunteers. But 
we believe the problems are prevalent enough to justify 
enacting this legislation.
    Mr. Ludlam. The legislation is well crafted to address 
these problems. We endorse it enthusiastically. We believe that 
our fellow volunteers join in that endorsement. The National 
Peace Corps Association recently conducted an online survey of 
PCVs and RPCVs regarding the legislation. The respondents 
overwhelmingly favored all of its provisions.
    Ms. Hirschoff. Turning now to the specifics of the bill, 
the key provisions give volunteers a substantial voice in 
personnel and program reviews, training curricula, and site 
choice and preparation. The legislation is premised on the 
notion that the expertise needed to strengthen and renew the 
Peace Corps lies at the grassroots with volunteers in the 
field. Volunteers know best who's supportive among staff. They 
know what programs are working at the village level. They know 
what they need, in terms of training and seed funding. They 
know what village sites are best suited to volunteers. The 
legislation would have the Peace Corps rely on their expertise 
in these crucial areas.
    Mr. Ludlam. We would like to comment primarily on two of 
the bill's most important provisions, section 201(a) and 
201(b).
    Section 201(a) mandates that the Peace Corps consult with 
volunteers confidentially before renewing or extending the 
contract of any manager. In substance, it mandates that the 
Peace Corps initiate what are called 360-degree reviews, or 
upward feedback personnel reviews, like those now common in the 
private sector, where employees assess their manager's 
performance. In collaborative organizations, these reviews are 
standard operating procedure. They can be a powerful tool for 
sensitizing management to the employee's viewpoint and 
encouraging collaboration towards common goals.
    The Peace Corps personnel should be judged primarily on how 
well they support the volunteers, because volunteers are the 
most important asset that the Peace Corps has. Only by 
supporting volunteers can the Peace Corps achieve its goal to 
serve as an effective agent of development. Accordingly, we 
believe that the volunteer's views should be given substantial 
weight in the personnel review process. All of the bill's 
provisions mandate that the Peace Corps bureaucracy listen to, 
respect, and empower volunteers, but only section 201(a) tells 
managers that their tenure with the Peace Corps depends on how 
well they do so. Because these reviews might seem to threaten 
their tenures, Peace Corps managers might not welcome volunteer 
participation. Indeed, we believe that section 201(a) is the 
provision that the Peace Corps is least likely to implement 
effectively on its own. That's why enacting this provision into 
law is imperative.
    Ms. Hirschoff. Section 201(b) is also critical. It mandates 
confidential consultations with volunteers on the design and 
continuation of the country-specific programs in which they 
serve, such as health, education, or agriculture. Some Peace 
Corps programs are better designed than others, some need to be 
redesigned, some simply are not working and should be 
abandoned; thus, freeing resources for more effective programs.
    Volunteers see the results of these programs daily in their 
villages. Because they're donating 2 years of their time, 
volunteers deserve to be placed in programs that give them a 
reasonable opportunity to achieve sustainable results. And, of 
course, our host countries deserve sustainable results, as 
well. We view the first goal of Peace Corps, to serve as an 
agent of development, to be its highest priority. And, for 
that, program design is crucial.
    Taken together, sections 201(a) and (b) institutionalize a 
process for continual renewal of the Peace Corps, led from the 
grassroots. None of us will know how widespread the management 
problems are until sections 201(a) and (b) are enacted and the 
results of these confidential surveys reviewed.
    Mr. Ludlam. Our written testimony comments in depth on each 
provision of the bill. The legislation will strengthen the 
development role of the Peace Corps by providing seed funding 
for volunteer projects and overhauling the rules regarding 
fundraising by volunteers. The legislation will help the Peace 
Corps reach its goal of recruiting more experienced volunteers 
by removing troublesome disincentives. These include retiree 
health insurance and medical screening process. And the 
legislation will confirm and clarify certain volunteer rights.
    Ms. Hirschoff. We're pleased that you do not assume that 
the Peace Corps management always speaks for volunteers. In the 
private sector, management and labor often have different 
perspectives on the workplace, and the same is true of Peace 
Corps managers and the volunteers.
    Representatives of management are posted here in 
Washington, so you will hear from them. It's more difficult for 
volunteers to make themselves heard. Yet, this legislation and 
hearing demonstrate that you are listening to volunteers, and 
for that we are grateful.
    Mr. Ludlam. Given the problems we've discussed, you may 
wonder if we recommend that older volunteers and RPCVs serve as 
volunteers. And our answer is yes, absolutely. Older and 
second-time volunteers often have special insights into how to 
launch and sustain development projects. Also, older volunteers 
tend to speak up about the quality of staff support, program 
design, training curricula, and site placement. In our view, 
the more older volunteers the Peace Corps recruits, the better, 
both for development and Peace Corps reform.
    To be clear, you will substantially strengthen the hand of 
the volunteers, the young and the not so young, and the cause 
of Peace Corps reform, if you enact this legislation into law.
    We've heard, this morning, that the Peace Corps management 
is largely opposed to enacting legislation to listen to, 
respect, and empower volunteers. We're sad to hear this. But 
this opposition is useful, in one respect; it is evidence of an 
attitude towards volunteers that is consistent with that which 
we have just described. And, more than anything we can say, 
this position regarding the legislation and empowering 
volunteers demonstrate how important it is to enact this 
legislation into law.
    Ms. Hirschoff. In conclusion, the Peace Corps has had a 
powerful and positive influence on our lives. In the four 
decades since we first served, we've never stopped thinking of 
ourselves as Peace Corps volunteers, and we love serving again, 
despite the difficulties discussed here. Serving together is a 
special joy.
    It's been very difficult for us to go public with these 
criticisms, but, because we still believe in the Peace Corps, 
we felt we had no choice. The legislation gives us great hope. 
With enactment of these reforms, we believe that volunteers 
would work move effectively with their local partners, 
promoting development and cultural exchange in a spirit of 
peace and generosity, and ensuring that the Peace Corps will 
thrive for decades to come.
    Thank you for supporting Peace Corps volunteers--past, 
present, and future--and we're happy to answer questions.

    [The prepared statement of Chuck Ludlam and Paula Hirschoff 
follows:]


                     Prepared (Combined) Statement 
                  of Chuck Ludlam and Paula Hirschoff

    Paula. My name is Paula Hirschoff and I'm serving as a Peace Corps 
volunteer in Senegal. I was a volunteer in Kenya 40 years ago.
    Chuck. My name is Chuck Ludlam and I'm serving as a volunteer with 
my wife Paula in Senegal. I was a volunteer in Nepal 40 years ago.
    Paula. Chuck and I will testify together, alternating turns.
    With this joint presentation, we continue the partnership that 
characterizes our work in Senegal.
    We'll observe the five-minute rule, times two.
    Chuck. Paula and I are testifying here today because we are loyal 
to the Peace Corps and its founding ideals, and we admire the 
volunteers' work throughout the world.
    We're among the few volunteers to serve again after a long gap in 
time, so we're among the first who can report from the volunteer 
perspective how the Peace Corps has changed over the last four decades.
    We wish we could report that all is well with the Peace Corps, but 
we regret to say this is not our view.
    We see the Peace Corps as a middle-aged bureaucracy where hierarchy 
and rigid controls prevail. Volunteers sit at the bottom of the pyramid 
where their needs are often ignored.
    What we need is an upside down hierarchy, an inverted pyramid, in 
which support of the volunteers takes precedence.
    Paula. The volunteers with whom we serve are much the same as the 
volunteers with whom we served in the 60s - idealistic, resourceful, 
and hardworking. One difference is that they're more mature and wise to 
the world.
    You've been proud of the volunteers who've served in the past and 
you can be proud of those in the field today.
    The volunteers can and should be trusted. And they deserve more 
supportive management.
    Chuck. We have also compared the Peace Corps bureaucracy to the one 
we knew in the 1960s.
    In many ways it has become more risk-averse and less responsive. It 
often fails to listen to, respect or empower the volunteers.
    We hear from volunteers in the field who believe that they succeed 
despite the bureaucracy, not because of the support that it provides. 
They succeed by ignoring or resisting it.
    The bureaucratic command and control approach stifles creativity 
and collaboration.
    This management approach works poorly with younger volunteers and 
it's anathema to older, more experienced volunteers.
    These problems undermine the Peace Corps in various ways. 
Volunteers become demoralized or cynical. Their potential as agents of 
development is not realized. Drop-out or early termination rates are 
too high.
    We believe that many RPCVs from our era would be dismayed to hear 
how much the bureaucracy of today adversely affects the volunteer 
experience.
    Paula. Of course, these are generalizations. We know there are many 
Peace Corps managers throughout the world who provide outstanding 
service and support to volunteers. But we believe the problems are 
prevalent enough to justify enacting this legislation.
    Chuck. The legislation is well crafted to address these problems. 
We endorse it enthusiastically. We believe that our fellow volunteers 
join in this endorsement.
    The National Peace Corps Association recently conducted an online 
survey of PCVs and RPCVs on the legislation.
    The respondents overwhelmingly favored all of its various 
provisions.
    Paula. Turning now to the specifics of the bill, the key provisions 
give volunteers a substantial voice in personnel and program reviews, 
training curricula, and site choice and preparation.
    The legislation is premised on the notion that the expertise needed 
to strengthen and renew the Peace Corps lies at the grassroots, with 
volunteers in the field.
    Volunteers know best who is supportive among staff. They know what 
programs are working well at the village level. They know what they 
need in terms of training and seed funding. They know what village 
sites are best suited to volunteers.
    The legislation would have the Peace Corps rely on their expertise 
in these crucial areas.
    Chuck. We'd like to comment primarily on two of the bill's most 
important provisions: Section 201 (a) and 201 (b).
    Section 201(a) mandates that the Peace Corps consult with 
volunteers confidentially before renewing or extending the contract of 
any manager.
    In substance, it mandates that Peace Corps institute ``360 degree'' 
or ``upward feedback'' personnel reviews, like those now common in the 
private sector where employees assess their managers' performance.
    In collaborative organizations, these reviews are standard 
operating procedure. They can be a powerful tool for sensitizing 
management to the employees' viewpoint and encouraging collaboration 
toward common goals.
    Peace Corps personnel should be judged primarily by how well they 
support volunteers because volunteers are the most valuable asset that 
the Peace Corps has.
    Only by supporting volunteers can the Peace Corps achieve its goal 
to serve as an effective agent of development.
    Accordingly, we believe that the volunteer's views should be given 
``substantial weight'' in the personnel review process.
    All of the bill's provisions mandate that the Peace Corps 
bureaucracy listen to, respect, and empower volunteers. But only 
Section 201 (a) tells managers that their tenure depends on how well 
they do so.
    Because these reviews might seem to threaten their tenures, Peace 
Corps managers might not welcome volunteer participation. Indeed, we 
believe that Section 201(a) is the provision that the
    Peace Corps is least likely to implement effectively on its own. 
That's why enacting this provision into law is so important.
    Paula. Section 201(b) is also critical. It mandates confidential 
consultations with volunteers on the design and continuation of the 
country-specific programs in which they serve, such as health, 
education or agriculture.
    Some Peace Corps programs are better designed than others. Some 
need to be redesigned. Some simply are not working and should be 
abandoned, thus freeing resources for more effective programs.
    Volunteers know first-hand which programs are working. Every day, 
they see the results in their villages.
    Because they are donating two years of their lives, volunteers 
deserve to be placed in programs that give them a reasonable 
opportunity to achieve sustainable results. And of course our host 
countries deserve sustainable results as well.
    We view the First Goal of Peace Corps--to serve as an agent of 
development--to be its highest priority, and for that, program design 
is crucial.
    Taken together, Sections 201(a) and (b) institutionalize a process 
for continual renewal of the Peace Corps led from the grassroots.
    Chuck. Our written testimony comments in depth on each provision of 
the bill.
    The legislation will strengthen the development role of the 
volunteers by providing seed funding for volunteer projects and 
overhauling the rules regarding volunteer fundraising.The legislation 
will help the Peace Corps reach its goal of recruiting additional 
older, experienced volunteers by removing troublesome disincentives. 
These include problems with retiree health insurance and the medical 
screening process.
    And, the legislation will confirm and clarify certain volunteer 
rights.
    The legislation is comprehensive and ambitious. However, this is a 
good opportunity, so we have proposed that it be amended to address 
several additional subjects. The most important are recruitment and 
retention of able staff and reform of the leave policies for 
volunteers.
    Paula. We are pleased that you do not assume that the Peace Corps 
management always speaks for volunteers. In the private sector, 
management and labor often have different perspectives on the 
workplace; the same is true of the Peace Corps managers and the 
volunteers.
    Representatives of management are posted here in Washington so you 
will hear from them.
    It's more difficult for volunteers to make themselves heard.
    Yet this legislation and hearing demonstrate that you are listening 
to volunteers. For that we are grateful.
    Chuck. Given the problems we'd discussed, you may wonder if we 
recommend that older persons and RPCVs serve as volunteers. Our answer 
is, ``Yes, absolutely.''
    Older and second-time volunteers often have special insights into 
how to launch and sustain development projects.
    Also, older volunteers tend to speak up about the quality of staff 
support, program design, training curricula and site placements.
    In our view, the more older volunteers the Peace Corps recruits, 
the better-both for development and Peace Corps reform.
    To be clear, you will substantially strengthen the hand of the 
volunteers, the young and not-so-young, and the cause of Peace Corps 
reform if you enact this legislation into law.
    Paula. In conclusion, the Peace Corps has had a powerful and 
positive influence on our lives. In the four decades since we first 
served, we have never stopped thinking of ourselves as Peace Corps 
volunteers.
    And we love serving again, despite the difficulties discussed here. 
Serving together is a special joy.
    It's been very difficult for us to go public with these criticisms. 
But because we still believe in the Peace Corps, we had no choice.
    The legislation gives us great hope.
    With enactment of these reforms, we believe that volunteers will 
work more effectively with their local partners, promoting development 
and cultural exchange in a spirit of peace and generosity, and ensuring 
that the Peace Corps will thrive for decades to come.
    Thank you for supporting Peace Corps volunteers, past, present and 
future.
    We are happy to answer your questions.


    Senator Dodd. Thank you very much.--look pretty good, at 40 
years, I must say. [Laughter.]
    You know? A little white hair, there, I noticed, too, and 
all of this.
    But, part of what you hear in my voice a little jealousy, 
you know. And so, congratulations to both of you. I'll have 
some questions for you in a few minutes.
    Ms. Raftery, thank you very much for being here.

 STATEMENT KATE RAFTERY, COUNTRY DIRECTOR, EASTERN CARIBBEAN, 
                  PEACE CORPS, WASHINGTON, DC

    Ms. Raftery. Good morning. Good morning, Chairman Dodd, 
Senator Corker. I want to thank you for the opportunity to be 
here this morning.
    I currently serve as the country director in the Eastern 
Caribbean, where I serve as the country director for Marty 
Landis, who is serving on the island of St. Kitts. I've also 
served as a Peace Corps director in Peru, in Honduras, and as a 
trainer in Costa Rica and El Salvador.
    I, myself, am a returned Peace Corps volunteer who left 
Collinsville, CT, in 1973 to be a volunteer in the country of 
Paraguay.
    Ensuring a quality volunteer experience is a shared 
responsibility between staff and the volunteer. I believe that 
my staff, myself, provide the assistance necessary to maximize 
this unique experience.
    I'd like to speak to some of the specifics of the 
legislation, which, in my opinion, may not be the best way to 
empower volunteers or increase staff support.
    I will begin with the external funding proposed for 
demonstration projects. This issue is one of considerable 
debate within the volunteer and staff communities. Many 
volunteers, who are currently serving and who have served, feel 
the external funding flies in the face of sustainable 
development. Dependency on outside support can potentially 
hinder indigenous development from thriving. If getting the 
grant is the goal, then there is a problem. The end goal must 
be the empowerment of the community to identify their own 
possibilities and then bring them to fruition through hard work 
and learning a valuable set of skills. The Agency has made 
significant resources available for volunteers through partners 
such as USAID, OGAC, U.S. Embassies, USDA, and others. The 
expanded use of external resources needs to be assessed 
carefully so that bringing money to a host community does not 
become more important than bringing the Peace Corps volunteer.
    In relation to the bill's proposed expansion of volunteers' 
ability to do fundraising, I have, sadly, seen, over many 
years, good volunteers transform from bring productive 
grassroots development workers to full-time fundraisers. With 
this transition, we see more volunteer-driven projects and 
fewer community-driven projects.
    The bill speaks of the need to increase support of the 
third-goal activities. This is an area that, historically, has 
received few resources, but I am concerned by the 
recommendation that only certain nonprofits will be used to 
facilitate this effort and that the type of activities eligible 
for support would fit into such a limited scope.
    The bill encourages the Peace Corps to be more proactive in 
the recruitment of volunteers with 5 years of relevant work 
experience. I believe that the Agency has looked for new ways 
to engage individuals with 25 to 30 years of experience to join 
the Peace Corps, and this is a positive move. At my post, we 
are one of the pilots for increasing this population, and I 
have worked very closely with volunteers like Marty Landis to 
assess our current training and support operations, and have 
made initial recommendations to the headquarters staff.
    There are certainly areas in need of improvement, and the 
responsibility of the Peace Corps director is to make sure that 
every volunteer, no matter how old, how young, how experienced, 
has a quality experience.
    Each volunteer needs to feel confident that they have a 
forum for expressing their opinions. I involve volunteers in 
training, program focus groups, site development and selection. 
I--but I remain confident that I am not interfering with their 
job and they do not become--because they have not come to the 
country to run the Peace Corps operations. Volunteers' input 
has never disappointed me, but, at the same time, I point out 
to volunteers that they have one reason for being in country, 
and I have another. I am the hired help and they are the 
volunteer. When a problem arises, the director will not be 
calling them for an explanation, they will be calling me.
    At personnel appraisal time, I include the volunteer and 
the staff in the review process. I request feedback on all 
volunteers--on staff from all volunteers. This feedback should 
come to me, as country director and the supervisor, not the 
regional director, miles away, although my feedback does go to 
the regional director.
    Volunteers have provided me with invaluable input on 
program development and focus, on development of sites. And the 
vehicles used to solicit this feedback is many--group meetings, 
focus groups, and surveys.
    With regard to sites, it is the responsibility of staff to 
identify meaningful assignments for volunteers and to ensure 
that the volunteer input is critically used and incorporated.
    The volunteer's point of view, coupled with the request 
from the community and the overall development goals, is what 
we are attempting to address.
    The Volunteer Advisory Council is one of the most important 
vehicles I have to engage volunteers. I do that proactively and 
with a spirit of cooperation.
    A country director must always be forthcoming and 
transparent in their interactions with staff and volunteers. I 
attempt to do that. A country director needs flexibility to 
manage his or her post by balancing the complex issues of 
volunteer safety, programming, and culture, and nuances. 
Perhaps the Agency should be challenged to ensure that all 
staff view their commitment in a similar fashion. Perhaps the 
Agency should be encouraged to look at their support to 
volunteers and third-goal activities more creatively. But I 
believe, in my humble opinion, that this particular bill does 
not advance it, as it is written.
    I am pleased to answer any questions that you might have.
    Senator Dodd. Well, thank you very much, Ms. Raftery, and 
thank you for your service.
    Ms. Raftery. Thank you.
    Senator Dodd. You've been involved with the Peace Corps for 
a long time.
    Ms. Raftery. Yes, sir.
    Senator Dodd. Nice to see you, Kevin, thank you for being 
here.

  STATEMENT OF KEVIN QUIGLEY, PRESIDENT, NATIONAL PEACE CORPS 
                  ASSOCIATION, WASHINGTON, DC

    Mr. Quigley. Good morning, Mr. Chairman. Thank you for 
having me. Good morning, Ranking Member Corker and Senator 
Coleman.
    I'm Kevin Quigley. I'm the president of the National 
Association--National Peace Corps Association. And, for Senator 
Corker, the NPCA is the only organization for individuals whose 
lives have been influenced by the Peace Corps experience--
volunteers, staff, family, friends, counterparts. And what we 
seek to do is to connect, inform, and engage the Peace Corps 
community around issues of importance to our community, such as 
this legislation.
    And, earlier, Chuck and Paula alluded to a survey that my 
organization conducted shortly after Senator Dodd introduced 
his bill. This survey had 433 respondents and over 1,300 
comments. And, just for a comparison, this is twice the number 
of respondents, and at least twice the number of comments, 
around a comparable survey that we did when Senator Coleman was 
chairing some hearings on the safety and security issue, a 
little more than 2 years ago. So, there is great interest in 
our community about this legislation. So, I wanted to applaud 
the chairman and the Senators for having this hearing.
    Like other--most of the other witnesses, I'm also a 
returned Peace Corps volunteer. I served in Thailand for 3 
years, between 1976 and 1979.
    And, since the other witnesses have spoken about many of 
the provisions in the bill, I really just want to focus my 
comments on two provisions. And I'm focusing them on two 
provisions, because I think these are two interrelated 
provisions. And that is, one, the authority to expand Peace 
Corps, section 401.
    Just reflecting back on Director Tschetter's testimony, he 
indicated that we currently have slightly more than 7,700 
volunteers. This is a highwater mark--almost a highwater mark--
for the last three decades. But if we stuck with that metaphor, 
the tide is receding. It's quite clear that, if you look, even 
at the President's request, that the number of serving 
volunteers will go down. And if the final outcome of the 
appropriation process is the level--the Senate level, of $323.5 
million, there will inevitably be some decline in Peace Corps, 
the numbers of serving volunteers.
    Why is this? Is Peace Corps not an effective agency? I 
think we've heard a lot of evidence today, and others in 
government and around the world who have looked at Peace Corps; 
they see that Peace Corps has made a outstanding contribution, 
certainly commensurate with the resources provided the 187,000 
in--over the last 46 years.
    But have the problems that Peace Corps was set up been 
addressed, the problems of poverty and underdevelopment? Still, 
we--as Senator Corker knows from his own field experience, we 
still have a great deal of work to do in that regard.
    And also, I think, incredibly important, we know one thing 
about Peace Corps, that the kind of personal contact, the fact 
that we, as volunteers learn foreign language, we learn to look 
at the world through the eyes of our friends, families, 
colleagues, counterparts, that that has a profound impact, as 
Chairman Dodd said, on our world view, and something that is 
desperately needed in our world today, particularly as part of 
an overall strategy to restore our country's standing in the 
world. So, I think that provision is timely, it's essential, 
and it is widely supported by the Peace Corps community, and we 
pledge our effort to work with the committee to do whatever we 
can to get that goal realized.
    The other provision I wanted to talk about was section 103, 
which is--relates to the so-called third-goal funding. As we've 
talked earlier today, Peace Corps has had three goals. The 
first goal--and I paraphrase--help others help themselves, help 
them understand us, and, three, most importantly, bring that 
world home. Again, reflecting on the Director's testimony, he 
indicated approximately $2 million Peace Corps resources are 
devoted to the third-goal activity. Two million, that's less 
than 1 percent of Peace Corps's current budget, certainly 
indicated that this has never been a major priority for Peace 
Corps, and for historical and very understandable reasons, that 
the Agency's priorities have been placing--recruiting and 
placing and supporting volunteers in the field. So, I applaud 
the chairman for this innovative and unprecedented effort to 
address the serious underfunding of the third-goal activity. 
And I know a lot of people will look at it and see it as, kind 
of, zero sum, that that $10 million might come out of Peace 
Corps's budget, that, as a consequence, even fewer volunteers 
will be sent overseas, but I see these resources as being 
resources that--as an investment, and an investment that can be 
leveraged by the network of 130 of our groups, the individuals 
who do third-goal projects on their own, corporations, 
universities, other partners, will join us in this effort to 
significantly expand the size and scope of Peace Corps. And, in 
my view, the fact that we have fallen so far short on this 
third goal really is the central reason why Peace Corps does 
not have the support it should have in the American people. I 
think if the American people knew how effective Peace Corps 
was, relatively speaking, that they would be clamoring for a 
widely expanded Peace Corps. And we hope to work with you and 
others to accomplish that.
    Director Tschetter, this morning, talked about the--
creating a mechanism of a Peace Corps Foundation to explore--or 
to--a one possible idea that would handle the administrative 
task of running a $10 million competitive grant program. We'd 
welcome the opportunity to talk to the committee about what's 
the best mechanism to do it, how that might be governed, 
organized, funded. What are the appropriate criteria for 
looking for leverage? And we very much look forward to working 
with you on that.
    In conclusion, I wanted to thank you, Chairman Dodd, for 
providing the authority for an expanded Peace Corps and this 
unprecedented funding for the third goal, which, I think, for 
the first time in the history of our community, gives us a real 
shot at bringing the world back home. And I think bringing the 
world back home will be critical to getting more Americans 
overseas, which I think will be helpful to addressing a major 
national challenge. We look forward to working with you and the 
committee, and I see this legislation as both empowering 
volunteers and actually empowering Peace Corps.
    Thank you.

    [The prepared statement of Kevin Quigley follows:]


               Prepared Statement of Kevin F. F. Quigley

    Chairman Dodd and Ranking Member Corker, my name is Kevin Quigley, 
President of the National Peace Corps Association (NPCA). Like many 
other witnesses today, I am a Returned Peace Corps Volunteer (RPCV). I 
served in Thailand for three years, 1976-79. I appreciate the 
opportunity to appear before the Subcommittee to comment on your 
important and timely legislation, S. 732, The Peace Corps Volunteer 
Empowerment Act.
    While other witnesses have more direct experience in administering 
Peace Corps programs or more current experience as volunteers, I am 
here to discuss two inter-related provisions of great interest to the 
returned Peace Corps community. These are the authority to double Peace 
Corps by the time of the 50th Anniversary in 2011 and provide an 
additional $10 million to be used through a competitive process to fund 
outstanding Third Goal Projects that effectively bring the world back 
home.
    Given the considerable interest in your legislation, NPCA conducted 
an on-line survey. After a brief background about NPCA, in my testimony 
I'll report on this membership survey and then devote most of my 
limited time to discussing the central provisions regarding doubling 
Peace Corps and funding Third Goal activities. As you requested, I will 
also provide suggestions regarding how Peace Corps could be more 
effective in recruiting minorities and older Americans as volunteers.
                                  npca
    NPCA is a 501(c)(3) non-profit organization founded in 1979 and is 
the only national organization for Peace Corps volunteers, staff, and 
others whose lives have been influenced by the Peace Corps experience. 
Our mission is to ``help lead the Peace Corps community and others in 
fostering peace through service, education and advocacy.''
    We seek to connect, inform and engage the Peace Corps community. In 
this community, there are 130 affiliates, 90,000 supporters and more 
than 30,000 individuals who participate in our national and affiliates' 
activities. These individuals reside in all 50 states the District of 
Columbia, the territories, as well as living overseas. They continue to 
serve and make a difference in a variety of ways. NPCA has programs to 
promote service, enhance understanding of other cultures, and advocate 
around issues of importance to our community, such as this legislation.

                           MEMBERSHIP SURVEY

    From March 15 to April 15 this year, NPCA conducted an on-line 
survey seeking reaction to the Peace Corps Volunteer Empowerment Act 
(S. 732). Our survey was divided into sections that roughly paralleled 
sections of the legislation, asking individuals to indicate if they 
agreed or disagreed with key proposals.
    Four hundred thirty three individuals took part in the survey, 
representing at least 41 states and the District of Columbia. Survey 
respondents provided more than 1,300 comments. They served (or 
currently serve) in at least 80 of the 139 total Peace Corps countries. 
For those who provided information, nearly half (44%) served in the 
Peace Corps during the current decade of the 2000's. Twenty percent 
served in the 1960's, 15% in the 1990's, 11% in the 1970's and 10% in 
the 1980's. Although this is by no means a rigorously scientific 
survey, we are confident that it is generally representative of the 
interested and engaged Peace Corps community.
    Overall, the respondents were extremely supportive of the 
provisions in the legislation, although expressing some cautions. With 
the Chairman's permission, I would like to have a copy of the survey 
results submitted into the hearing record.
    Broadly speaking, the cautions were that whatever Congress does 
should not impede the fundamental mission, independence and operations 
of Peace Corps, nor negatively affect the volunteer's role in the 
community.

                          DOUBLING PEACE CORPS

    Section 401 of S. 732 provides authority for a significantly 
expanded Peace Corps. As we heard earlier today, Peace Corps is at a 
near three-decade high of 7,700+ volunteers. However, this is just half 
of its size in 1968 when Peace Corps had 15,000 volunteers and 
trainees. At that time, our country was 50% percent smaller, with a 
population of 200 million as opposed to 300 million today. So, 
relatively speaking Peace Corps is \1/4\ of its size four decades ago.
    This small size is not because Peace Corps has solved the problems 
it was created to address, nor is it ineffective, nor is there is 
insufficient demand from countries or potential volunteers. With more 
than 2 billion people in the world living on less than $2 a day, 
poverty is every bit as endemic as it was when President John F. 
Kennedy created the Peace Corps in 1961, 46 years ago. The Office of 
Management and Budget gives Peace Corps agency its highest rating for 
effectiveness. There are more than 20 countries that have requested 
Peace Corps and more than three applicants for every Peace Corps 
volunteer position. As public attention to Peace Corps inevitably 
increases in the next years leading up to the 50th Anniversary in 2011, 
the demand from countries and from Americans to serve could expand 
dramatically.
    From the vantage point of the U.S. standing in the world, as the 
Pew Global Attitude survey suggests, U.S. standing in the world has 
plummeted. As the Freedom from Terror survey also suggests, when there 
are direct people-to-people contacts there is a dramatic increase in 
how Americans and America is viewed. Furthermore, those perceptions 
appear to persist long after the initial engagement.
    Given that Peace Corps is one of the most effective faces that we 
show to the world, expanding Peace Corps is extremely timely. This 
expansion can also help respond to a major U.S. national challenge, 
assist in addressing persistent global poverty, and is strongly 
supported by the Peace Corps community.

                     THIRD GOAL COMPETITIVE FUNDING

    As the Chairman and many others in this hearing room know well, 
since its inception Peace Corps has had three overriding goals. I 
paraphrase: 1) help others help themselves, 2) help them understand our 
country better, and 3) bring that experience back home.
    For a variety of very good reasons, Peace Corps has invested the 
great preponderance of its resources in addressing goals numbers #1 and 
#2, primarily through recruiting, training, and placing volunteers 
overseas.
    With generally constrained budgets, goal #3--to bring the Peace 
Corps experience back home--has been consistently under-funded (based 
on the most recent analysis by Congressional Research Service, today's 
annual Peace Corps budget for 7.7k volunteers of slightly less than 
$320 million is roughly equal to 30 hours of funding for the war in 
Iraq and Afghanistan).
    Mr Chairman, your provision to authorize up to $10 million for a 
competitive grants program for outstanding Third Goal projects 
organized by individuals and groups in the Peace Corps community is the 
first serious effort to address the perennial under-funding of this key 
Third Goal.
    I am confident that your approach can generate significant leverage 
within the Peace Corps community and that any U.S. government resources 
would be matched by comparable in-kind and direct contributions from 
community members and organizations that are committed to meeting the 
Third Goal. This provision can build on the modest but effective 
programs already in place through Peace Corps and the network of more 
than 130 groups in the Peace Corps community that organize Third Goal 
activities in schools and communities across the country, especially 
around Peace Corps week-the first week of March.
    Understandably, some critics of your provision will suggest that 
any funds for this activity will come at the expense of goals #1 and 
#2, seeing this as kind of ``zero-sum'' circumstance.
    I see this very differently. Since we have chronically under-
invested in the Third Goal, Americans know far too little about Peace 
Corps (in fact, many Americans are unaware that it still exists) and 
its highly efficient use of U.S. taxpayer resources. If our fellow 
citizens knew about Peace Corps, especially what results it achieves 
with modest resources, I think they would be clamoring for a 
significantly expanded Peace Corps.
    So, dedicated funding for 3rd Goal Activity through a competitive 
process would provide resources ensuring that the Third Goal can be 
finally addressed and met.
    Regarding administration of this Third Goal Grants Fund, I 
understand that while Peace Corps is generally supportive of this-
especially if it involves additional funding-the agency may be 
reluctant to take on this responsibility since administering a grants 
program is not its core competence and may detract from Peace Corps's 
focus on recruiting, placing and supporting volunteers. If that is the 
case, there are other alternatives. Congress could provide this 
authority to either the Corporation for National Service or U.S. Agency 
for International Development, perhaps through the Volunteers in 
International Prosperity program. The former directly administers grant 
programs, the latter does so through a consortium of volunteer-placing 
organizations. Another alternative would be to have an independent 
organization, such as the National Peace Corps Association or another 
organization closely connected to the Returned Peace Corps Volunteer 
community, administer this role. There are some distinct advantages to 
either approach, which I would be glad to discuss further if the 
Committee is interested.
    Regardless of where this Grants Fund is administered, I strongly 
believe that scaling up successful Third Goal Activities through these 
resources will help raise Peace Corps' profile, assist in recruiting 
highly motivated Americans, and generate needed public support for an 
expanded Peace Corps.

                  RECRUITING MINORITIES/50+ VOLUNTEERS

    The other witnesses have presented comments about what is being 
done and what steps we might take to improve recruiting minorities and 
older Americans as volunteers. Based on our survey and many 
conversations with members of the Peace Corps community, there are 
three steps to recommend. First, I think the critical step is to once 
again make service in Peace Corps a national priority and part of an 
overall strategy of restoring this country's role as a trusted 
international leader. Second and related to this, there should be an 
aggressive campaign to double Peace Corps. Third, with that kind of 
policy commitment in place, the recruitment process can be improved 
through greater transparency regarding the length of time and the 
required steps in the process, especially related to the medical 
clearance process. As your legislation provides, we also need to find 
ways to offset the high costs associated with the medical clearance 
process that are borne by applicants.
    For example, one of my colleagues, Ravi Shah, submitted a statement 
to the Committee about his experiences as an applicant. Let me 
summarize briefly, after serving as an intern at NPCA, Ravi applied to 
Peace Corps last November. Ravi just completed the medical and security 
clearances and last week was invited to be a volunteer in Ukraine. He 
will leave on September 28th. Ravi's statement indicated that he had to 
pay $439 in out-of-pocket expenses to complete the required tests. Of 
this amount, $197 was reimbursed, less than half of the costs 
associated with his medical clearance. This is a significant barrier to 
service for many. We recommend that these medical clearance costs be 
provided by Peace Corps. Recognizing the potential expense and the need 
to avoid disincentives, perhaps the best way to do this is through a 
modest increase to the readjustment allowance to retroactively 
compensate volunteers for these costs after she or he has completed 
service.

                               CONCLUSION

    Chairman Dodd and ranking member Corker, the Peace Corps community 
thanks you for addressing the issue of expanding Peace Corps and 
providing funding for Third Goal Activities--which have been long-held 
aspirations for our community. We are also grateful for the many other 
creative provisions you are proposing for empowering volunteers and 
lowering the barriers to service so that many more Americans can serve 
in a Peace Corps. With these changes, Peace Corps can have an even 
greater impact in addressing the problems of poverty and under 
development. As Chairman Dodd said in his statement introducing this 
legislation, this will make ``make the Peace Corps even more relevant 
to the dynamic world of the 21st Century.'' And for that reason, we 
strongly support it.
    The National Peace Corps Association is committed to working with 
you and others to generate the resources required so that Peace Corps 
can be expanded in future years, providing many more Americans with the 
opportunity to serve their country through the Peace Corps and to bring 
that experience back to America in ways that help shape our place and 
improve our standing in the world.
    Thank you.


    Senator Dodd. Thank you very much, Mr. Quigley. We 
appreciate it very much. I note that in terms of expanding the 
Peace Corps overseas, and this is not an easy problem to solve, 
but there are 22 Muslim countries in the world. We have Peace 
Corps programs in two--in Morocco and Jordan. And at a time 
when we need to know a lot more about them, and they need to 
know a lot more about us, there have got to be creative ways in 
which we can have far greater interaction with that community 
and our own if we're going to effectively understand and deal 
with these issues in the coming century, in this century.
    Thank you.
    Ms. Nicole. Nicole Fiol, thank you very much.

    STATEMENT OF NICOLE FIOL, APPLICANT TO THE PEACE CORPS, 
                      BAYAMON, PUERTO RICO

    Ms. Fiol. Good morning, Mr. Chairman and members of the 
subcommittee. Good morning.
    It's an honor to appear today as a Peace Corps nominee to 
testify in support of the Peace Corps Volunteer Empowerment 
Act.
    I'm here today to share with you my experience with the 
Peace Corps application process, my thoughts on effective ways 
that Peace Corps could approach recruiting minorities as 
volunteers, and how this bill will benefit future Peace Corps 
applicants.
    My name is Nicole Fiol. Currently, I work as an intern in 
the U.S. Department of Commerce Census Bureau. Earlier this 
year, I received my bachelor's degree in political science from 
the University of Puerto Rico, and now I intend to pursue my 
ambition of becoming a Peace Corps volunteer, with the 
anticipated departure for June 2008.
    On my professional goals is to--one of my professional 
goals is to obtain a master's degree--international political 
economy and development--and embark on a career in public 
service. Peace Corps service enables us to develop skills and 
experience many government agencies need. These include 
learning foreign languages, cultural awareness, and 
professional skills on--in an international environment, while 
making a distinguished contribution to the community.
    As a former intern in the U.S. House of Representatives, I 
had the opportunity to work closely with the Foreign Relations, 
LA, and participate in briefings that involved discussions in--
on international issues. These briefings helped me learn about 
variety of bills that were involved in international economic 
development. Fortunately, I had the opportunity to attend a 
briefing about the Peace Corps congressional budget 
justification for fiscal year 2008. It was there where I had 
the opportunity to meet the Director of Peace Corps, Mr. Ronald 
Schneider, and other returned volunteers who informed my 
decision to join Peace Corps.
    I was overwhelmed with the passion and commitment the 
return volunteers had for this organization. It was in that 
moment when I decided to start my vocation that same night, on 
April 12, 2007. It took me 4 days to complete and submit my 
application for the Agency. During the same week, I had the 
opportunity to meet my wonderful recruiter, Chris Wagner, who 
has given me immense help and support through my application 
process. After revising all the documents and passing my 
interview, my recruiter nominated me, on June 29, 2007, to 
volunteer in Africa region with anticipated departure date for 
June 2008.
    If all my medical screening process goes well, and with no 
unforeseen delays, my time in the application process will be 
estimated nearly 14 months. I'm currently on my fourth month 
into my application. That's why this bill will benefit future 
Peace Corps volunteer applicants. Even if you fully commit to 
the process to volunteer 27 months, it's a big sacrifice to add 
a year or more with application process.
    On the medical screening process, applicants like myself, 
who come from low-income families and are full-time students 
and workers, have more challenges ahead. My personal experience 
with the medical screening process presents serious 
difficulties, due to my economic status. My health insurance, 
Preferred Health, does not include coverage in the United 
States. That means I will have to travel back home to finish my 
medical screening process between my summer and fall internship 
in the U.S. Census Bureau. While discussing this issue with my 
recruiter, I was informed that the maximum reimbursement fees 
the Agency gives to females under 40 years is $160. The most 
cost-effective way for me to fly back to Puerto Rico will be to 
travel through bus to New York--that will cost me around $37--
and fly roundtrip from JFK to Luis Munoz Marin Airport--that 
will be $322. The travel costs I incur to meet the guidelines 
could be just the beginning, as our reimbursement fee may not 
cover the cost I incur during my physical examination, my 
dental examination, the eyeglass prescription and measurement, 
plus my second pair of glasses required by the Agency. This 
means I anticipate spending more on the medical screening 
process of the application than what the Agency will currently 
be able to reimburse. This is a huge economic sacrifice for a 
person like myself, and make it more an impediment for young 
people that are already struggling to get basic needs for their 
lives. I support the section of this bill that will guarantee 
full reimbursement of the medical tests required by Peace Corps 
and applicants, and establish a process for applicants and 
other interested parties to propose changes for the medical 
screening guidelines.
    On the other hand, Peace Corps has been involved on working 
with colleges and universities in the States to expand 
recruiting activities. An effort to expand the applicant pool 
also includes reaching out those in diverse age groups with 
different ethnic backgrounds who were previously under-
represented in the Peace Corps. The reality is that, out of 
187,000 Peace Corps volunteers that have served, 16 percent are 
minorities and 85 percent are from ages 20 to 29. Even worse, 
Puerto Rico has only 366 Peace Corps volunteers since the 
beginning of the organization, and only 7 are currently active 
in the service.
    My experience as a student in the University of Puerto Rico 
is that the average young adult thinks that Peace Corps was 
only a program that ran in the Kennedy administration, and 
don't recognize the existence of the organization. 
Unfortunately, a staff member from the Atlantic--Atlanta 
regional office comes to the university for only 1 day a year 
to recruit. I--if I had not happened to walk by the Peace Corps 
table on that day, I would not have learned about the 
opportunity to serve, I would not be here before you.
    I emphasize--I can't emphasize enough the fact that there 
is a great pool of motivated, hardworking students who will 
make great volunteers. We desperately need to increase the 
minority pool in order to maintain a diverse ethnic background 
and provide a clear representation of U.S. population, while 
strengthening the Peace Corps agency. By reaching this goal, we 
will need to integrate more time and energy to create awareness 
in local universities with a large group of minorities.
    Thank you for your time and consideration. It's an honor to 
be part of this hearing today. I truly hope that my experience 
will help you in any way to understand the need to fully 
support the bill. This bill will ensure all volunteers and 
applicants, like myself, get the resources they require to help 
those who are in great need of our service, which is the 
foundation of freedom and the condition of peace.
    I'll be happy to answer your questions.

    [The prepared statement of Nicole Fiol follows:]


                   Prepared Statement of Nicole Fiol

    Mr. Chairman and members of the subcommittee; It is an honor to 
appear today, as a Peace Corps nominee to testify in support of the 
``Peace Corps Volunteer Empowerment Act.''
    I'm here today to share with you my experience with the Peace Corps 
application process, my thoughts on effective ways the Peace Corps 
could utilize in recruiting minorities as volunteers, and how this bill 
could benefit future Peace Corps applicants.
    My name is Nicole Fiol. Currently, I work as an intern in the 
United States Department of Commerce, Census Bureau. Earlier this year, 
I received a Bachelors Degree in Political Science from the University 
of Puerto Rico, and now I intend to pursue my ambition of becoming a 
Peace Corps volunteer with the anticipated departure of June 2008. One 
of my professional goals is to obtain a master's degree in 
International Political Economy and Development, and embark on a career 
of public service. Peace Corps service enables us to develop skills and 
expertise many government agencies need. This includes learning foreign 
languages, cultural awareness, and professional skills honed in an 
international environment while making a distinguished contribution to 
the community.

           SHARE MY EXPRERINCE IN THE PC APPLICATION PROCESS

    As a former intern in the United States House of Representatives, I 
had the opportunity to work closely with the Foreign Relations LA, and 
participated in briefings that involved discussions on International 
Issues. These briefings helped me learn about a variety of bills that 
were involved with International Economic Development.
    Fortunately, I had the opportunity to attend a briefing about the 
Peace Corps Congressional Budget Justification for fiscal year 2008. It 
was where I had the opportunity to meet the Director of the Peace 
Corps, Mr. Ronald A. Tschetter, and other returned volunteers who 
reinforced my decision to pursue placement in the Peace Corps. I was 
overwhelmed with the passion and commitment the returned volunteers 
have for this organization. It was in that moment when I decided to 
start my application that night on April 12, 2007. It took me four days 
to complete and submit my application to the Agency.
    During that same week I had the opportunity to meet my wonderful 
Recruiter, Chris Wagner who has given me immense help and support 
through my application process. After revising all the documents and 
passing the interview, my recruiter nominated me on June 29, 2007 to 
volunteer in the Africa Region with the anticipated departure date of 
June 2008. If all the medical screening process goes well and with no 
unforeseen delays, my time in the application process is estimated to 
be nearly 14 months.
    That's why this bill will be beneficial for future Peace Corps 
Applicants; Even if you fully commit to this process to volunteer for 
27 months, it's a big sacrifice to add a year or more with the 
application process.

                  REFORMS TO MEDICAL SCREENING PROCESS

    On the medical screening process, applicants like myself, who come 
from low-income families and are Full-time students and workers, have 
more challenges ahead. My personal experience with the medical 
screening process presents serious difficulties due my economic status. 
My Health Insurance (Preferred Health) does not include coverage in the 
United States. This means that I will have to travel back home to 
finish my medical screening process between my summer and fall 
internships in the United States Census Bureau. While discussing this 
issue with my recruiter, I was informed that the maximum of 
reimbursement fees the Agency gives to Females under 40 years of age is 
$165. The most cost-effective way for me to fly back to Puerto Rico 
would be to travel to New York by bus (that would be $35) and fly 
roundtrip from JFK to LMM Airport for $322. The travel costs I accrue 
to meet the guidelines could be just the beginning, as the 
reimbursement fees may not cover the costs I incur during the physical 
examination, the dental examination, the eyeglass prescriptions and 
measurements (plus the second pair of glasses required by the Agency)
    This means that I anticipate spending more on the medical screening 
process of the application than what the Agency will currently be able 
to reimburse. This is a huge economic sacrifice for a person like 
myself, and makes it more of an impediment for young people that are 
already struggling to get the basic needs for their lives. I support 
sections of this bill that will guarantee full reimbursement for 
medical tests required by the Peace Corps of applicants and 
establishment of a process for applicants and other interested parties 
to propose changes to the medical screening guidelines.

                      MORE DEMAND FROM MINORITIES

    On the other hand, Peace Corps have been working with colleges and 
universities in the States to expand recruiting activities. An effort 
to expand the applicant pool also includes reaching out to those of 
diverse age group with different ethnic backgrounds who were previously 
under-represented in the Peace Corps.
    The reality is that out of the 187,000 Peace Corps volunteer that 
have served, 16 percent are minorities and 85 percent are from age 20-
29. Even worse, Puerto Rico has only had 366 Peace Corps volunteers 
since the beginning of the organization, and only 7 are currently 
active in service.
    My experience as a student of the University of Puerto Rico is that 
the average young adult thinks that Peace Corps was only a program that 
ran during the Kennedy administration. Others don't recognize the 
existence of the organization.
    Unfortunately, a staff member from the Atlanta regional office 
comes to the university for only one day of the year to recruit. Had I 
not happened to walk by the Peace Corps table on that day, I would not 
have learned about the opportunity to serve and would not be before you 
today.
    I can't emphasize enough of the fact that there is a great pool of 
motivated, hard working students that would make great volunteers. We 
desperately need to increase the minority pool in the order to maintain 
a diverse ethnic background and provide a clear representation of the 
U.S. population while strengthening the Peace Corps agency.
    By reaching this goal, we would need to integrate more time and 
energy to create awareness in the local universities with larger groups 
of minorities.

                               CONCLUSION

    Thank you your time and consideration, it's an honor to be part of 
this hearing today. I truly hope that my experience will help you in 
any way understand the need to fully support this bill. This bill will 
ensure that all volunteers and applicants like myself get the resources 
they require to help those who are in great need of our services; which 
is the foundation of freedom and condition of Peace.
    I'll be happy to answer your questions.


    Senator Dodd. That's pretty good. I think we'll keep you 
recruiting, here, I'll tell ya. [Laughter.]
    Let me turn to Senator Corker, who has to head right off, 
and then I'll come back.
    Senator.
    Senator Corker. Thank you very much for letting me do this.
    And I want to thank each of you for your testimony. I think 
it's been incredibly enlightening. I look at people, who do 
what you do, as saints. And two of you look more like saints 
than the rest of us today. [Laughter.]
    We thank you very much for being here.
    I really do believe your testimony has been most 
enlightening. And I think that, certainly, the bill that's 
being proposed gives us an opportunity to talk about the 
various issues that need to be dealt with. I know that people 
who serve, years ago, and now are back, it's sort of like--I 
wish I could go back to college and redo that. I know y'all see 
a lot of things now that are very helpful. I thank you for 
that.
    The country administrator, I think, points out, Mr. 
Chairman, the balance we need to achieve in this bill, to not 
necessarily try to legislate some management. Sometimes it's 
all about people and not laws. And I think that was clearly 
illuminated in, certainly, your testimony about the medical 
process, and certainly the third goal. So, thank you for that.
    I do think there is that philosophical issue we need to 
wrestle with over the grants, that I'm sure we'll do in other 
meetings. We look forward to talking to you through our staffs.
    Thank you all very, very much.
    Senator Dodd. Thank you very much, Senator. I appreciate 
that very, very much.
    I think the medical application screening process has been 
pretty well covered. Obviously, it's something that's going to 
require some real work. But, again, given the delays and costs 
and so forth, I think we've got a pretty good record 
established here of the importance of putting more emphasis and 
attention on that, or it's going to have the adverse effect. 
You know, we're soliciting applications from people and then 
imposing a process and barriers that discourages the applicant 
from going forward. So, clearly we're being counterproductive, 
it seems to me, in some ways here, although clearly we need to 
have a medical screening process, but, to the extent we can, we 
should do this in a way that does not discourage people, an 
awful lot of people, I'm afraid, from dropping out of this 
process.
    One of the biggest arguments I've ever faced with younger 
people when I've talked to them about the Peace Corps, and 
going into it--and I put a smile on my face when I think of it, 
because it's come up so often--they say, ``It's just an awful 
long time, 2 years.'' ``I want to tell you something''----
    [Laughter.]
    Senator Dodd [continuing]. ``You'll find out, in time, that 
it's nothing at all.'' And yet, that's the one answer I get all 
the time, ``This is a long time.'' Well, you're adding almost a 
year to what they consider their service. If 2 years seems like 
a long time, than a year or 9 months to go through an 
application process becomes even longer. So, at least with 
younger applicants, I think that is a barrier that we've got to 
address, or we're going to face a problem. And the cost is 
obviously also important.
    Ms. Raftery, you've had a lot of experience doing this, and 
dealing with the issues raised by Chuck and Paula. And, 
granted, if I thought all of this could be done on the fly, 
and, again, assuming we get good people all the time, that 
listen and pay attention and so forth, things would be 
different. But as you and I both know, and you've served long 
enough to know, that there are--it's not always the case, and 
people don't always listen. And, my intention is, of course, 
not to give anyone veto power, here, but to make sure that 
there's going to be the input that you insist upon, as I listen 
to you testify, about what you require, in site selection and 
choices and programs and evaluation of staff, and the like. But 
it seemed to us that this was sort of spotty, and that we 
needed to institutionalize this a bit more. And, again, I want 
to make it clear to people, I'm not suggesting that any one 
group of people ought to have veto power, but certainly, when 
we look back, there is a value in this. I think you're 
suggestion on how this gets handled and who actually is privy 
to these conversations could be important, or you invite some 
difficulties with all of this. But do you have any difficulty 
with the idea of institutionalizing this requirement of Peace 
Corps volunteer participation, by requiring it?
    Ms. Raftery. I do think that it's very difficult to 
legislate respect. I think it's difficult to legislate people 
to listen. I would hope that this would be a management 
challenge that is handed over to the senior management of the 
Peace Corps, so that, in the selection of country directors, in 
the supervision of country directors, in the training of 
country directors, each country director spends a considerable 
amount of time during their training program talking about a 
Volunteer Advisory Council. And the point is made, numerous 
times, that a volunteer is doing themselves a serious 
disservice by not engaging the Volunteer Advisory Council in 
every step of the operation and every step of the volunteer's 
life. If the country director does not choose to take that 
advice, which is provided by the Peace Corps, then I think the 
management of the Peace Corps, in their review of the country 
director each year, should include that. And I do feel that the 
feedback I've gotten from volunteers--which, again, on my 
performance appraisal, it gets sent to Washington, it does not 
come to me--now, that part, I think, is a management decision 
that, in our personnel systems, should be--perhaps be 
incorporated. But I think it is challenging. Not all volunteers 
are created equal, and not all country directors are created 
equal.
    Senator Dodd. Right.
    Ms. Raftery. And what we're trying to do is have the 
management systems in place that will ensure what you are, 
perhaps, trying to legislate in this bill. I don't have a 
problem with it. I think it's reaching that ends that I 
struggle with.
    Senator Dodd. Yes. Well, and obviously, we're doing the 
same, because I'm not overly enthusiastic about mandating 
things. And I don't disagree with you here, that you can't 
mandate respect. But you can somehow try to at least 
institutionalize, or protect against disrespect. And so that 
there are people who I'd otherwise feel that, ``I have no 
obligation to do this.''
    Ms. Raftery. Correct.
    Senator Dodd. And that's where you, can run afoul of it, 
and particularly if you're moving up the chain, and it gets 
further and institutionally more inclined to avoid the 
comments.
    How would you respond to Ms. Raftery, here, Chuck or Paula, 
on her points?
    Mr. Ludlam. Well, I guess I believe in systems. I believe 
in people also, but I believe in systems. And if you set up a 
system, which says that there will be confidential surveys of 
the volunteers regarding personnel and regarding the programs--
and it has to be confidential, because you're, by and large, 
dealing with young volunteers----
    Senator Dodd. Yes.
    Mr. Ludlam [continuing]. Who do not necessarily speak up 
when they face managers; they've never, perhaps, had a manager 
before--so they have to be confidential--and you set up that 
system, then you know it will happen. If you have a situation 
where a country director is not a natural-born listener, or 
worse, but they have the system in place, then the inspector 
general will see the problem countries in a minute. In a 
minute. You will find out where you have managers who are not 
listening, who are not--for example, if a volunteer days, 
``Don't ever put somebody on this site again,'' and they do, 
you'll hear about it. When they say, ``This program isn't 
working. I see it every day in my village,'' they will work to 
reform that program. A manager who is not responding to the 
volunteer's request for service, they will deal with that, as 
personnel matters.
    So, we believe in systems, not just in trusting in people.
    Senator Dodd. Kevin, do you have any comments on this?
    Mr. Quigley. Senator, you know, I see both points of view 
here, and I think they both bring a lot of wisdom and 
experience and passion for Peace Corps here. It is about 
people, and it is about systems. It is tough, as Kate suggests, 
to legislate respect. It's also tough to have foolproof 
systems. So, it's finding that, kind of, delicate balance, 
where you have the appropriate systems that enable managers to 
manage in ways that are supportive of the volunteers, so that 
they can accomplish the goals of--that we've set for Peace 
Corps.
    Senator Dodd. Let me ask you, the issue of the volunteer 
fundraising again, Ms. Raftery, I think you make some very 
interesting and worthwhile observations. The last thing you 
want to do is have volunteers turn into fundraisers, unless 
they're planning a political career. [Laughter.]
    Then we ought to discourage it, absolutely, in my view. 
[Laughter.]
    It's the most dreadful part of this.
    Thinking about that aspect of it, what we tried to do here 
is talk about very small amounts and under very limited 
circumstances, and with the approval of a country director. So, 
it's not just going off on your own, although I presume people 
do that anyway, in terms of getting help from back home or 
whatever else, in terms of supporting a project or an effort.
    But I remember talking to volunteer who was in the 
Dominican Republic, who just came home from his Peace Corps 
experience, he's in law school now, but he had a very 
interesting project. And I was talking to him about it, and it 
actually did involve getting some seed money. It may have been 
through the existing programs now. They made a big difference 
in making that project work for him.
    Again, is there a way in which you could see this could be 
done in a way that would satisfy you, as a country director, 
aside from the addition of the criteria that we've placed in 
this, insisting upon your approval before it goes forward? Are 
there ways of doing that to your satisfaction, or is this just 
a nonstarter for you?
    Ms. Raftery. No; I believe that there are volunteers who--
well, I will say, backing up a moment, that the volunteers 
receive, in most countries, training in relation to sustainable 
development and the role that seed grants can play in that. 
Volunteers are also encouraged to look at their service from 
the point of view of institution-building, capacity-building. 
So, therefore, if the role of the volunteer is to facilitate a 
community, understanding its needs----
    Senator Dodd. Right.
    Ms. Raftery [continuing]. And then moving ahead, and, at 
the end, they've exhausted all of the local resources that 
could be brought to bear----
    Senator Dodd. Right.
    Ms. Raftery [continuing]. And there's still a slight need, 
then I think that volunteers should have available to them the 
opportunity to work with their community in the development of 
a grant that Peace Corps could provide them some resources for.
    My experience has been--and it might be different than the 
experiences that were mentioned earlier--but most volunteers do 
not find a problem getting resources through Peace Corps and 
its partners at USAID, OGAC, etc.----
    Senator Dodd. Right.
    Ms. Raftery [continuing]. And the like. So, I'm just 
concerned that volunteers start to see getting the money as 
more important than bringing the community along----
    Senator Dodd. I agree.
    Ms. Raftery [continuing]. With them. That's what----
    Senator Dodd. No; that's very important.
    Ms. Raftery [continuing]. I'm concerned about.
    Senator Dodd. It's a very legitimate point. And how would 
you address that, Chuck?
    Mr. Ludlam. First, on the seed funding, I well know of 
programs where there are no SPA grants from USAID--don't exist 
in the country. We know of cases where there are no embassy 
funding through the ambassadors fund. And we know of cases 
where there is essentially no funding available, there's no 
reimbursement--basically, there's no reimbursement, because the 
country director doesn't believe in it. In those cases, the 
bill provides there is money, there will be money. And it may 
be small amounts. We're not often talking about $1,000. We're 
often talking about $50.
    In terms of fundraising, the same issue. Going through 
Peace Corps Partnership takes, probably, an average of 6 
months. If you're in the middle of a project, and you need 50 
bucks for something, the volunteers go to their friends and 
family. Now, that is technically illegal today. That is 
illegal, to go directly to friends and family to fundraise. 
Now, under the bill, it's legal. And it basically codifies what 
the volunteers do anyway. Now, if they get caught fundraising 
from friends and family today, they could be administratively 
separated. That is just not correct. It's just not right. I 
mean, it--it's normally just a small amount of money just to do 
something simple to keep a project alive, to demonstrate--not 
to become--I mean, the----
    Senator Dodd. You don't disagree with Ms. Raftery's point?
    Mr. Ludlam. Completely agree with her philosophy, but there 
is nothing in the bill that turns the Peace Corps into a 
grantmaking----
    Senator Dodd. Yes.
    Mr. Ludlam [continuing]. Agency----
    Senator Dodd. No.
    Mr. Ludlam [continuing]. In any way.
    Senator Dodd. Or that that becomes the priority, all of a 
sudden. There's always danger of, I don't know if they still 
use the same language we did 40 years ago, but a danger of 
``felt needs,'' when a volunteer tries to assess what a 
community's priorities are. And so, there's this game that goes 
on for a while as to finding out what really are the 
priorities, ``Did I really set them, or did the community set 
them?'' And, obviously, the ones we want are the ones that are 
set by the community.
    Well, I think that could be accommodated. It's a good point 
you raised, in terms of how we do this. And I agree totally. I 
mean, the idea of discouraging people who want to participate 
and help out as they try and move something along has great 
value, as well.
    Let me turn to Senator Coleman, and then we'll try and wrap 
up, here. But I thank all of you.
    Senator Coleman. Thank you, Mr. Chairman.
    One of the things that I just find so fascinating about the 
Peace Corps--and it's represented by this panel, here--is the 
level of commitment, from folks who are just signing up to the 
folks who have been there a long time, in management, and in 
the folks who have been there. And I think it's pretty 
remarkable.
    It is very different, Mr. Chairman, from the State 
Department, by the way, in a lot of ways. In, you know, the 
State Department, you have ambassadors who may be political 
appointees, you have career civil servants who may have come in 
under one administration, may have a different philosophical 
view than the other administration. What I have seen in my 
experience with the Peace Corps, dealing with present staff, 
members, those involved in the system, has almost got a unity 
of purpose. They all believe in--and wouldn't sign up unless 
you--and wouldn't continue doing it, wouldn't stay connected, 
unless you saw that belief that it's important to show the 
heart of America, and it's important to make this contribution 
to serve.
    I just think it's remarkable. And I applaud the focus of 
this bill to expand the presence here so folks understand what 
we're doing to simplify the process, whether it's in shortening 
the application period, in dealing with the medical issues, 
like medical--costs of medical records, et cetera. So, I think 
this is a pretty unique organization. As I said before, the 
chairman brings a unique perspective to it.
    There was--Director Tschetter raised a concern about--I 
want to take you up, Mr. Quigley, on something you offered to 
provide--and that is, in talking about a grant process, the 
Director very--you know, obviously says the Agency is going to 
administer a process, they're going to have to do, you know, 
regulation, oversight, bureaucracy, et cetera. Is there a 
better way to do it, Mr. Quigley? And can, you know, past 
volunteers--can your association--tell me how you would 
structure something to facilitate some of the third-goal grant 
processes that would avoid, perhaps, the bureaucracy and 
regulation that you'd encounter if the Agency did it.
    Mr. Quigley. Thank you very much, Senator. That's a great 
question. And I don't think there's an easy answer here, but 
let me take a stab at some of the elements that I think that 
would be part of it.
    One thing that has to be underscored, this is a very 
diverse community of 187,000 very different people, with 
different sets of motivations, and that, in our community, many 
of those individuals are extremely passionate about their 
particular approach to an issue or problem-solving. So, I think 
one of the key elements is that whatever the process is has to 
be fully transparent, it's got to be a process where there's a 
great deal of communication about who it is, how it goes about 
what--its criteria selection, what--the timetable, the 
processes. So, clarity of purpose, as you've said, but clarity 
about operations, I think, is incredibly important.
    I think it's also important that, as we talked at the start 
of the hearing, that this mechanism be perceived as 
independent, outside of politics, committed to the--committed 
to the mission of advancing the third goal.
    I think it also--a fourth element, that I would say I think 
is really essential, is that there have to be opportunities for 
all kinds of different solutions, from big to small. Director 
Tschetter talked about the range in the Peace Corps private--
Peace Corps Office of Private Sector Initiative, the 
partnership office. And, actually, I think, in some cases, it's 
actually larger. There's one of our groups, the Madison RPCV 
group, provides about $80,000 in support for things that, in 
effect, relate to third goal.
    In our community, we estimate that we provide somewhere 
between $1 and $2 million a year in third-goal-related 
activity, of direct costs, not counting sweat equity. Some of 
those are very small projects. They may involve a group of 
people going around to a local library or talking, doing a 
series of conversations about--with their local Rotary or their 
church, et cetera. So, a key criteria, I think, would have to 
be that there is a lot of opportunity for innovation, for 
flexibility, and being nimble.
    Now, your next question might be: Is that possible to do in 
a government agency? And I think that's one of the issues you 
have to explore. There are some models out there, where various 
government agencies run very effective grant programs, and 
others where it's less so.
    Senator Coleman. Ms. Raftery, let me have--we had a 
discussion about the--trying to find some balance, in terms of 
expressing personal perspectives, personal opinion. We live in 
an age, now, of blogs and Internet, and you certainly don't 
want to be suppressing that, you know, but I certainly 
understand the concerns of the Director, in terms of--you 
represent the United States of America, you represent the Peace 
Corps. Can you talk to me a little bit about that balance, and 
how you see it playing out?
    Ms. Raftery. It's intriguing to see what the volunteer 
experience is like today. When I was a volunteer, in 1973, it 
was, I think, a very individual experience. I joined. My family 
wasn't sure if I was in Paraguay or Uruguay. It was a ``guay'' 
word. And they----
    [Laughter.]
    Ms. Raftery. That's where I was. And there were letters 
that were sent back. Today, it's ongoing, it's constant, the 
flow of information that volunteers are sharing with their 
family and friends. I think that's positive for Peace Corps, 
because of the fact that we are--we are engaging, not really 
7,000 people in Peace Corps, but thousands and thousands of 
grandparents, relatives, community members.
    I have found that volunteers are very reasonable, they are 
as committed to this organization as I have been. And when we 
walk through what they might consider when they do their blogs, 
when they do their e-mails to family and friends, when they do 
their journals, that are now electronic, all of that, when we 
talk about safety and security, and you standing there with a 
photograph of the name of your site in your address, next to 
your head, that might not be the most appropriate 
communication. But sharing what you're doing, the struggles and 
the achievements, I am proud of what volunteers, for the most 
part, put up on their blogs and their other forms of 
communication.
    I think volunteers are very reasonable. The Volunteer 
Advisory Council in the Eastern Caribbean, in Peru, both helped 
me to craft my message around electronic communication. I think 
their guidance was probably better than what was going to put 
forward. So, I think it's a dialog between the staff and the 
volunteers, which then can result in--I would not say 
``censorship,'' I would say a mutually agreed upon set of 
guidelines, so that the volunteer is putting forth the best 
message about what they're doing, so that people can celebrate 
that, but also taking into consideration the limitations that 
that kind of communication would bring.
    Senator Coleman. And I appreciate the--you know, it's 
always tough to figure out, how far do we mandate? What do we--
you know, what do you prohibit? How do you, kind of, strike 
that balance? And particularly in an age where it's just so 
much easier to communicate, and everything gets that much 
quicker. I recognize the challenge. But I appreciate the 
perspective.
    And, Mr. Chairman, I appreciate what you're trying to 
accomplish here, and this is a great agency, and we need to 
expand it and grow it and make it easier for folks to 
participate, and make folks back home more aware of the great 
things that are being done. So, thank you.
    Senator Dodd. Thank you very much, Senator.
    And thank you for that, Ms. Raftery, that's one of the 
reasons why I'm reluctant to have this sort of be from ``on 
high'' on down. I have a lot of confidence, that this is being 
handled at the country director level with the volunteers, and 
again, putting the emphasis on the volunteer side of this. 
That's a better way of proceeding here than having some stiff 
criteria coming from ``on high,'' which I think would be more 
harmful than not.
    Well, this has been very helpful. Nicole, we thank you 
very, very much. I don't have a question here for you. You laid 
it all out in your testimony, and made your case very, very 
well.
    Ms. Fiol. Thank you.
    Senator Dodd. We admire you for doing this. And it's very 
important. We've got to make a real effort here. When I was in 
the Peace Corps, and the training program, of course, was done 
around Arecibo and Camp Crozier.
    Ms. Fiol. Right.
    Senator Dodd. And we had our training programs in Puerto 
Rico, for those of us who were going to Latin America in those 
days, and it was very valuable, couldn't have been more 
hospitable. And whenever I travel anywhere in Latin America, 
and if I'm speaking Spanish, I always point out, ``If I make 
any grammatical mistakes, you have to blame Puerto Rico,'' 
because you were the ones who taught me my Spanish along the 
way. And so, I thank you immensely. We all thank you for your 
service. We wish you the very, very best in your service to the 
country.
    And I can't tell you how pleased I am that Chuck and Paula 
made this trip, not only the trip you made to come here, but 
the trip of 40 years, as volunteers a long time ago, and back 
at it again today. Very proud of both of you, and please extend 
our best wishes to the volunteers in Senegal.
    And we'll pursue this legislation. It's very important. And 
it's a priority for me, here. And so, I look forward to working 
with my fellow committee members and, obviously, volunteers, 
the Peace Corps, Peace Corps Associations, in coming up with a 
final product, here. But I'm very grateful to all of you for 
your testimony today.
    The committee will stand adjourned.
    [Whereupon, at 12:23 p.m., the hearing was adjourned.]


</pre></body></html>
